Department of the Navy Fiscal Year 2011 Annual Financial Report
Mission Ready: Managing Risk and Meeting Objectives
Contents
Message from the Secretary of the Navy................................................................................................2

Message from the Assistant Secretary of the Navy (Financial Management & Comptroller)........3

Management’s Discussion and Analysis................................................................................................5

General Fund Principal Statements ......................................................................................................33

Working Capital Fund Principal Statements.....................................................................................101

Audit Opinions.......................................................................................................................................139




                                                                                                                                                     1
                                           THE SECRETARY OF THE NAVY
                                              WASHINGTON, DC 20350-1000




November 4, 2011

Today’s Navy and Marine Corps are the most flexible and formidable
expeditionary fighting forces the world has ever known. This is our legacy and
our ethos, and is what makes people around the globe turn to us in times of
need with confidence that we will rise to the occasion.

This past year, we were able to execute very different missions using the same
equipment and personnel and often with little notice or time to prepare, further
demonstrating the flexibility and skill of the Navy-Marine Corps team. We
deployed to defend our country, respond to natural disasters, ensure regional
security, and maintain the flow of commerce.

Last Spring, the aircraft carrier USS RONALD REAGAN was headed across
the Pacific to conduct combat air support missions over Afghanistan when
the earthquake and tsunami struck Japan. In an instant, the carrier changed
course and became a humanitarian assistance and disaster relief platform and
operations center. The same day USS RONALD REAGAN was providing
assistance to Japan, other Navy ships and submarines launched Tomahawk missiles against targets in Libya, while
aircraft flew combat sorties enforcing the international approved no-fly zone. At the same time, more than twenty
thousand Marines fighting in Afghanistan were joined by thousands of Sailors carrying out missions ranging from
conducting strikes off the decks of ships in the Arabian Sea to building and reconstruction projects.

All the while, we remain committed to moving forward with our priorities for the Department of the Navy.
We are taking care of our Sailors, Marines, civilians and their families at home and abroad, on ship and ashore.
We are making improvements to the acquisitions process so that we can buy the equipment needed to succeed
in current missions while meeting the challenges of the 21st century. We are investing in and building the ships,
aircraft, submarines, unmanned vehicles and technologies we will need to respond now and in the future. When I
became Secretary, the Navy’s fleet was the smallest it has been since 1916. I made building our fleet a priority, and
in the past two years we have gone from building fewer than six ships a year to an average of 11 ships per year.

We have also made significant progress toward energy independence. Energy security is first and foremost about
making us better warfighters by making us more expeditionary and less vulnerable to foreign fuel sources. The
Navy continues to grow and adapt as the needs of our country have changed. However, we are not interested in
change for its own sake. By improving our systems and moving to renewable energy sources, we are becoming
more self-reliant and making our people safer.

The Department of the Navy’s Fiscal Year 2011 Annual Financial Report, Mission Ready: Managing Risk and Meeting
Objectives, represents our enduring commitment to the proper stewardship of public resources, the continuous
improvement of financial transparency and accountability, and the sustainment of national security and defense.
We will continue managing risks facing our country and meeting our objectives for a stronger, more flexible and
more efficient fighting force.



	                                              Ray Mabus

2
                                     THE ASSISTANT SECRETARY OF THE NAVY
                                       (FINANCIAL MANAGEMENT AND COMPTROLLER)
                                                   1000 NAVY PENTAGON
                                               WASHINGTON, DC 20350-1000




October 2011

Fiscal Year (FY) 2011 was a year of sustained effort for improving critical
processes in external and internal operations. We worked to support our forces’
key activities, both afloat and ashore, and to ensure agility and responsiveness in
reacting to unexpected events. Our Sailors and Marines represented the United
States of America around the globe, securing our homeland and providing
humanitarian assistance where needed. That effort was made possible by the
budgetary resources entrusted to the Department of the Navy (DON). We at the
DON prudently managed those resources entrusted to us by the United States
(U.S.) taxpayers and Congress by shoring up existing processes and priorities and
initiating new areas for improvement.

We are taking steps to manage our risks by buying smarter, streamlining our
organizations and operations, realigning manpower, and pursuing energy
efficiencies. The responsibility for carefully overseeing and spending the DON’s
resources requires a continuous effort to improve transparency, accountability,
and efficiency through improved financial systems and reporting. These
overarching goals guided us in FY 2011.

OUR TOP PRIORITIES
Supporting the War Fighter. Supporting our war fighters in Afghanistan and around the world continued to be
our most important priority during FY 2011. We ensured the proper systems, processes, and equipment were in
place, so our people could carry out their critical missions. In addition, we continued to focus on quality of life
improvements for our Sailors and Marines. An initiative on family housing reinforced our efforts to take care
of Navy and Marine Corps families, and we remained committed to ensuring the best care for our wounded
warriors.

Relief Efforts. A total of 12,750 personnel, 20 ships and 140 aircraft of the U.S. 7th fleet assisted Japan in
recovering from a devastating earthquake and tsunami. The piers were completely empty in Yokosuka, Japan–
marking the first time in memory that not a single U.S. ship was in port. The men and women of the U.S. 7th
fleet were at sea focused on Operation Tomodachi, delivering relief to the people of northeast Honshu. We also
provided humanitarian assistance and disaster relief in Pakistan and in Haiti. We supported relief efforts after
Hurricane Irene impacted the East Coast of the United States. In addition, eight USS Missouri Sailors assisted with
recovery efforts following a tornado that tore through Joplin, Missouri.

Moving Toward Energy Independence. We continued to implement actions that support the Secretary’s
stated goals of reducing energy usage risk and moving toward alternative energy sources. To develop biofuel
technologies, we established partnerships with other federal agencies and state governments, such as the
Departments of Agriculture and Energy and the state of Hawaii. We established similar partnerships with private
entities through the Small Business Administration, venture capitalists, and investment firms to ensure that
alternative fuel development also helps American industry.

The successful flight test of “The Green Hornet”, an F/A-18 Super Hornet strike fighter was the first aviation
program to test and evaluate the performance of a 50/50 biofuel blend in supersonic operations - a critical test
point to successfully clear the F/A-18 E/F for biofuel operations through its entire flight envelope. The DON also


                                                                                                                  3
completed successful biofuel flights for the T-45 training aircraft, the MH-60S Seahawk helicopter, and the Marine
Corps’ MV-22 Osprey. The Secretary of the Navy announced on 1 September 2011, that the Navy’s precision
aerial demonstration team, the Blue Angels, also would run on a biofuel mixture. Lastly, on 16 September 2011
an EA-6B Prowler became the first aircraft in the electronic warfare category to fly a biofuel blend. All of these
aircraft were or will be powered by a biofuel blend made from the camelina plant, a hardy U.S.-grown plant
that can thrive even on marginal agricultural lands and does not compete with food crops. The successful test
flights and extensive fuels lab testing demonstrate that Navy and Marine Corps aircraft can safely operate on fuel
produced from renewable sources.

Achieving Financial Auditability. The Marine Corps continued to make steady progress during its second audit
of the Statement of Budgetary Resources. The Navy received an unqualified audit opinion on its Appropriations
Received examination. We worked to create better information through Enterprise Resource Planning (ERP)
development at Naval Sea Systems Command (NAVSEA) and Naval Supply Systems Command (NAVSUP). We
standardized processes to ensure consistent and continuous financial reporting.

Continuing a Culture of Cost Savings and Efficiency. We raised the cost consciousness of our Department and
identified more than $35 billion in cost savings across the Future Year Defense Plan (FYDP). The DON’s Deputy
Chief Management Officer spearheaded the DON Efficiency Working Group, comprised of members representing
the Assistant Secretaries of the Navy and other Department leadership. Opportunities for savings were directed at
overhead functions to include streamlining business operations without negatively impacting the war fighter. We
looked for savings from the cost of doing business (workforce size and composition, number and size of staffs, and
other human resource issues) and how we do business (acquisition reform, process improvements). We continued
our efforts to reduce the cost to own and operate our Fleet. We significantly reduced overhead costs, and applied
the savings to war fighting capability and capacity that improved the long-term sustainability of our force.

Supporting the Financial Management Workforce. We responded to the changing needs of our Financial
Management (FM) workforce. We provided additional training and career development, graduated our first
Executive Masters of Business Administration class, and provided resources for career broadening opportunities,
as well as academic fellowships. Additionally, we initiated a new audit readiness course that will begin in FY 2012,
and we sustained our successful trainee and associate programs, which bring new entry and mid-level employees
into our personnel pipeline.

OUR COMMITMENT AND GOAL
Secretary Mabus and I are committed to using the taxpayers’ dollars wisely. As we look ahead, we will continue
to provide oversight and leadership that lead to greater efficiencies and savings. Our focus will continue to be on
streamlining operations to ensure accuracy, reliability, and accessibility of financial information while meeting our
operational objectives at home and abroad. As we move toward transparency in all DON financial transactions,
the DON will be better at managing risks and successfully meeting our operational and financial objectives.




	                                              Gladys J. Commons




4
Management’s Discussion and Analysis

Department of the Navy Fiscal Year 2011
Annual Financial Report
Overview



                                                                    T
                                                                            he U.S. Navy was founded on 13 October
                                                                            1775, and the DON was established on 30
                                                                            April 1798. The DON has three principal
                                                                    components: The Navy Department, consisting
                                                                    of executive offices mostly in Washington, D.C.;
                                                                    the operating forces, including the Marine Corps,
                                                                    the reserve components, and, in time of war, the
                                                                    U.S. Coast Guard (in peace, a component of the
                                                                    Department of Homeland Security); and the shore
                                                                    establishment. The DON consists of two uniformed
                                                                    Services: the United States Navy and the United
                                                                    States Marine Corps.

                                                                    The service and sacrifice of Sailors and Marines
                                                                    is a daily reminder that we are a nation at war.
                                                                    Today’s Navy and Marine Corps team maintains
                                                                    its active contribution to continuing Overseas
                                                                    Contingency Operations, and remains committed to
                                                                    supporting non-traditional joint requirements in Iraq,
A Sailor test fires a .50 caliber machine gun aboard the aircraft   Afghanistan, the Horn of Africa, and other locations
carrier USS George H.W. Bush (CVN 77), which is supporting
maritime security operations and theater security cooperation       worldwide. The Navy has over 40,000 active and
efforts in the U.S. 5th Fleet area of responsibility.               reserve sailors continually deployed in support of the
                                                                    contingency operations overseas serving as members
                                                                    of carrier strike groups, expeditionary strike groups,
                                                                    Special Operating Forces, Seabee units, Marine forces,
                                                                    medical units, and as Individual Augmentees (IAs).
                                                                    Our Sailors and Marines are fully engaged on the
                                                                    ground, in the air, and at sea in support of operations
                                                                    in Iraq and Afghanistan. Navy Commanders are
                                                                    leading seven of the thirteen U.S.-led Provincial
                                                                    Reconstruction Teams in Afghanistan. A significant
                                                                    portion of the combat air missions over Afghanistan
                                                                    are flown by naval air forces. Our elite teams of
                                                                    Navy SEa, Air and Land teams (SEALs) are heavily
                                                                    engaged in combat operations, while Navy Explosive
                                                                    Ordnance Disposal platoons are defusing improvised
                                                                    explosive devices and landmines. Our SEABEE
                                                                    construction battalions are rebuilding schools and
                                                                    restoring critical infrastructure. Navy sealift is
                                                                    delivering the majority of heavy war equipment
                                                                    to Central Command, while Navy logisticians are
                                                                    ensuring materiel arrives on time. Our Navy doctors
                                                                    are providing medical assistance in the field and at
An officer-in-charge of the Convoy Security Element of              forward operating bases.
Naval Mobile Construction Battalion (NMCB) 3, stationed
in Afghanistan and part of Navy Expeditionary Combat                The total naval workforce is shaped and optimized
Command, discusses a convoy movement using a terrain model.
                                                                    to support the National Defense Strategy. By

6
maintaining U.S. maritime dominance, our Sailors
and Marines promote security, stability, and trust
around the world. Together, we provided a persistent
forward presence, power projection abroad, and
protection of the world’s sea lanes. In fiscal year
(FY) 2011, our Sailors and Marines, in cooperation
with our foreign partners and allies, continued to
provide training and deliver humanitarian aid,
disaster relief, and other assistance throughout the
globe. In times of crisis, Navy and Marine Corps
units were often already on the scene or the first U.S.
assets to arrive in force.

Readily available energy is essential for deploying
our Sailors and Marines around the globe in support
of our nation’s interests. Since our operational
flexibility and sustainability are directly linked to
our energy supplies, energy reliability is a strategic
concern for our forces. The potential vulnerability of
energy supplies could threaten our ability to perform     U.S. Marines assigned to Marine Medium Helicopter Squadron
                                                          (HMM) 265 assist citizens of northern Japan, where a 9.0
on the battlefield and energy costs siphon resources      magnitude earthquake struck the island nation on March 11.
from warfighting requirements. Therefore, the DON
is working to develop greater energy independence
and conservation ashore and afloat.

Energy reform improves the capability and efficiency
of ships, aircraft, and weapons systems, and
ultimately makes us better warfighters, and ensures
the safety of our Sailors and Marines. In Fall 2009,
Secretary Mabus set five ambitious energy goals
for the Navy and Marine Corps. Most overarching
was that no later than 2020, at least half of all the
energy used by the two services, both afloat and
ashore, will come from non-fossil fuel sources. Also
by 2020, at least half of all bases will be net-zero in
terms of consumption, and in many cases returning
power to the grid rather than pulling from it. The
Navy’s progress on this target includes submarines
that are powered using nuclear energy representing
seventeen percent of total energy consumed.

The Navy and Marine Corps continued to make
significant progress toward reaching the Secretary’s
goals in 2011. One of the most visible was a series
                                                          An alternative fuel blend powers a Riverine Command Boat
of successful F-18 flights conducted on biofuel. That     (Experimental) (RCB-X) during test demonstrations in October
plane, called “The Green Hornet,” flew 1.2 times          at Naval Station Norfolk, Virginia.
the speed of sound on camelina and avgas blend. In

                                                                                                                     7
addition, the Navy has tested an algae-based biofuel blend on MH-60 helicopters and a Riverine command ship.
One benefit to camelina and algae is that neither impacts the food supply. The Navy has certified swift boats,
and is working on guided missile destroyers and other surface combatants using biofuel blends. On ships, the
Navy is looking at hybrid drives – electric drives – to increase fuel efficiency. The USS Makin Island saved almost
$2 million in fuel costs on its maiden voyage around South America to its homeport in San Diego. The Navy is
also working to improve the efficiency of bases by monitoring electricity usage in buildings. The Navy has signed
contracts for larger uses of solar power, and is considering geothermal, hydrothermal, wave, solar, and wind.
The focus is to ensure that alternate power does not impact food production but continues to decrease fossil
fuel usage by the DON because more than half the ships and aircraft that will be around in 2020 are in the fleet
today. The Navy continues to focus on sustainable energy by offering military contract opportunities to small
businesses with sustainable energy programs, pilots, and initiatives. The Navy’s efforts support a clean energy
economy and will make Americans better stewards of the planet.

The DON recognizes the value of investing in audit readiness as part of the Department of Defense (DoD)
mission. The pursuit of auditability will result in improved stewardship, reduced cost of business operations,
and compliance with congressional direction. In FY 2011, the US Marine Corps was in its second year of the
Statement of Budgetary Resources (SBR) audit. Concurrently, the DON Financial Improvement Program team
is preparing the rest of the Department for SBR audit readiness with focused efforts to ready people, processes,
and business systems for a financial statement audit. The DON understands that fundamental improvements
to establish tighter internal controls and more standardized processes are needed within its operations. To
standardize and enforce uniform business processes, especially within disparate commands, the DON is in the
process of establishing a Navy Enterprise Resource Planning (ERP) system. Although processes are not yet
standardized, the DON has employed control gap analysis to identify when a command’s processes and/or
controls differ significantly from suggested controls. Control gap analysis allows the DON to track and address
significant deviations. Additionally, the DON began a concerted, multi-year effort to standardize processes and
controls with the Navy ERP environment.

During FY 2011, the DON continued to demonstrate its commitment to effectively managing and mitigating risks
to reflect progress with respect to mission objectives. These priority objectives are to:

    n	   Provide a Total Naval Workforce Capable and Optimized to Support the National Defense Strategy
    n	   Use the Navy-Marine Corps Team to Aggressively Prosecute Overseas Contingency Operations
    n	   Build the Navy-Marine Corps Force for Tomorrow
    n	   Safeguard the People and Resources of the Navy-Marine Corps Team
    n	   Strengthen Ethics as a Foundation of Exemplary Conduct within the DON
    n	   Provide First-Rate Facilities to Support Stationing, Training, and Operations of Naval Forces




8
To maintain, train, and equip combat-
ready Naval forces capable of winning
wars, deterring aggression, and
maintaining freedom of the seas.
                     - Department of the Navy Mission




Organization and Mission

We are structured to respond to a broad range of           and programs that are consistent with the national
mission priorities that preserve our nation’s freedom      security policies and objectives established by the
and protect U.S. global interests. The Secretary of        President and the Secretary of Defense. Under the
the Navy (SECNAV), a civilian appointed by the             purview of SECNAV are the Under Secretary of the
President is responsible for, and has the authority        Navy, four Assistant Secretaries of the Navy, the
under Title 10 of the United States Code, to conduct       General Counsel, and two key military leaders—the
all the affairs of the DON, including: recruiting,         Chief of Naval Operations, a four-star Admiral,
organizing, supplying, equipping, training,                responsible for the command and operating
mobilizing, and demobilizing. SECNAV also oversees         efficiency of the U.S. Navy, and the Commandant of
the construction, outfitting, and repair of naval ships,   the Marine Corps, a four-star General, responsible for
equipment, and facilities. SECNAV is responsible           the performance of the U.S. Marine Corps.
for the formulation and implementation of policies


                            United States Navy                  United States Marine Corps
                           Founded 13 October 1775                Founded 10 November 1775
                        Title 10 U.S. Code, Section 5062        Title 10 U.S. Code, Section 5063




                                                                                                             9
                                                                        Founded 30 April 1798
                                                                         Title 10 U.S. Code, Section 5061


                                                                    SECRETARY OF THE NAVY
                                                                     UNDER SECRETARY OF THE NAVY



       Assistant Secretary                  Assistant Secretary                   Assistant Secretary               Assistant Secretary             General Counsel of
          of the Navy                           of the Navy                           of the Navy                       of the Navy                  the Department
     (Research, Development                      (Manpower                      (Financial Management                      (Installations              of the Navy
          & Acquisition)                       & Reserve Affairs)                    & Comptroller)                       & Environment)




                                     CHIEF OF NAVAL                                                                        COMMANDANT OF THE
                                      OPERATIONS                                                                             MARINE CORPS



                                                                                                                                                        U.S. Marine Corps
           U.S. Navy                       U.S. Navy                     U.S. Navy                    U.S. Marine Corps         U.S. Marine Corps
                                                                                                                                                            Supporting
      Shore Establishment                  Reserves                   Operating Forces                Operating Forces               Reserves
                                                                                                                                                          Establishment

      *Dashed line signifies collaboration of the U.S. Navy and the U.S. Marine Corps operating forces.


      The chart above is a simplified illustration of the DON organizational structure. The full structure is shown online at
      www.navy.mil under “About the Navy.”


10
The U.S. Navy and the U.S. Marine Corps have                engineering and logistics support. NAVAIR is
numerous commands that operate under the                    organized into eight “competencies” or communities
authority and responsibility of a commander or other        of practice including: Program Management,
designated official and typically support a network of      Contracts, Research and Engineering, Test and
subordinate commands. Each command has a clearly            Evaluation, Logistics and Industrial Operations,
defined mission that supports the overall DON               Corporate Operations, Comptroller, and Counsel.
mission in support of the DoD’s responsibilities.           NAVAIR provides support (people, processes, tools,
Both Services provide forces ready to support the           training, mission facilities, and core technologies)
U.S. joint military commands in conducting their            to Naval Aviation Program Executive Officers
worldwide missions.                                         (PEOs) and their assigned program managers,
                                                            who are responsible for meeting the cost, schedule,
                                                            and performance requirements of their assigned
                   	 Naval Sea Systems Command              programs. NAVAIR is the principal provider for the
                     (NAVSEA)                               Naval Aviation Enterprise (NAE), while contributing
With a force of 53,000 civilian, military, and contract     to every Warfare enterprise in the interest of national
support personnel, NAVSEA engineers, build, buy,            security.
and maintain the Navy’s ships and submarines and
their combat systems. To accomplish this, NAVSEA
manages 150 acquisition programs and manages
foreign military sales cases that include billions of                    	 Naval Facilities Engineering Command
dollars in annual military sales to partner nations.                       (NAVFAC)
Today, the NAVSEA organization has 33 activities in         NAVFAC is the Systems Command that delivers
16 states. NAVSEA strives to be an efficient provider       and maintains quality, sustainable facilities,
of defense resources for the nation, and it plays an        acquires and manages capabilities for the Navy’s
important role in the Navy Enterprise. As a Provider        expeditionary combat forces, provides contingency
Command, it has the responsibility of directing             engineering response, and enables energy security
resource sponsors into the proper mix of manpower           and environmental stewardship. NAVFAC manages
and resources to properly equip the fleet. NAVSEA           the planning, design, construction, contingency
further has the responsibility of establishing and          engineering, real estate, environmental, and public
enforcing technical authority in combat system              works support for U.S. Navy shore facilities around
design and operation. These technical standards             the world. They provide the Navy’s forces with
use the organization’s technical expertise to ensure        the operating, expeditionary, support, and training
systems are engineered effectively, and that they           bases needed. NAVFAC is a global organization
operate safely and reliably.                                with an annual volume of business in excess of
                                                            $11 billion. As a major Navy Systems Command and
                                                            an integral member of the Navy and Marine Corps
                                                            team, NAVFAC delivers timely and effective facilities
             	 Naval Air Systems Command                    engineering solutions worldwide.
               (NAVAIR)
NAVAIR is headquartered in Patuxent River,
Maryland, with military and civilian personnel                                 	 Naval Supply Systems Command
stationed at eight locations across the continental                              (NAVSUP)
United States and one site overseas. NAVAIR’s               NAVSUP’s mission is to provide Navy, Marine
mission is to provide full life-cycle support of naval      Corps, and Joint and Allied Forces with products
aviation aircraft, weapons, and systems operated by         and services that deliver Combat Capability through
Sailors and Marines. This support includes research,        Logistics. They manage supply chains that provide
design, development, and systems engineering;               material for Navy aircraft, surface ships, submarines,
acquisition; test and evaluation; training facilities and   and their associated weapons systems and provide
equipment; repair and modification; and in-service          centralized inventory management for Navy’s non-

                                                                                                               11
nuclear ordnance stockpile. NAVSUP provides a
wide range of base operating and waterfront logistics
support services, coordinating material deliveries,                    	 Bureau of Medicine and Surgery
contracting for supplies and services, and providing                     (BUMED)
material management and warehousing services.
                                                          BUMED is the headquarters command for Navy
NAVSUP is responsible for many of the Quality of
                                                          Medicine. Under the leadership of the Navy Surgeon
Life programs that touch the lives of Sailors and their
                                                          General, Navy Medicine provides high quality health
families every day, including: Navy Exchanges, Navy
                                                          care to beneficiaries in wartime and in peacetime.
Lodges, the Navy Personal Property Program, and
                                                          Highly trained Navy Medicine personnel deploy
the Navy Postal System. They administer the Navy
                                                          with Sailors and Marines worldwide - providing
Food Service Program, with responsibility for the
                                                          critical mission support aboard ship, in the air,
policies and procedures that govern the day-to-day
                                                          under the sea, and on the battlefield. At the same
operations of general messes afloat and ashore.
                                                          time, Navy Medicine’s military and civilian health
                                                          care professionals are providing care for uniformed
                                                          services’ family members and retirees at military
             	Space and Naval Warfare Systems
                                                          treatment facilities around the globe. Today, BUMED
              Command (SPAWAR)
                                                          is the site where the policies and direction for Navy
SPAWAR is an acquisition command. SPAWAR                  Medicine are developed to ensure the DON Patient
delivers higher-end Navy information technology           and Family Center Care vision is carried out.
products and services to the fleet and other Defense
Department stakeholders. As the Navy’s Information
Dominance Systems Command, SPAWAR designs,
develops, and deploys advanced communications                          	 Bureau of Naval Personnel (BUPERS)
and information capabilities. With more than 8,900
active duty military and civil service professionals
                                                          BUPERS Command strives to support the needs of
located around the world and close to the fleet,
                                                          the Navy by providing the fleet with the right person
SPAWAR is at the forefront of research, engineering,
                                                          in the right place at the right time, using the most
acquisition, and support services that provide vital
                                                          efficient Human Resource process. The BUPERS
decision superiority to our forces at the right time
                                                          organization serves to provide administrative
and for the right cost. It is SPAWAR’s mission to
                                                          leadership, policy planning, and general oversight of
make the Navy’s Information Dominance vision a
                                                          the Command.
reality. SPAWAR products and services transform
ships, aircraft, and vehicles from individual
platforms into integrated battle forces, enhancing
information dominance and awareness among                              	 Military Sealift Command (MSC)
Navy, Marine, joint forces, federal agencies, and
international allies.
                                                          MSC operates approximately 110 noncombatant,
                                                          civilian-crewed ships that replenish U.S. Navy
                                                          ships, conduct specialized missions, strategically
            	 Strategic Systems Program (SSP)             preposition combat cargo at sea around the world,
                                                          and move military cargo and supplies used by
SSP is a highly specialized workforce composed of         deployed U.S. forces and coalition partners. MSC
military and civilian, scientific, engineering, and       is headquartered at the Washington Navy Yard in
professional personnel who work closely with private      Washington, D.C., and operates six subordinate
contractors and consultants. They direct the end-to-      commands worldwide. Five operational commands
end effort of the Navy’s Strategic Weapons Systems        operate in the Atlantic, Pacific, Europe, Central, and
to include training, systems, equipment, facilities,      Far East areas.
and personnel; and fulfill the terms of the US/UK
Polaris Sales Agreement.
12
                                                          the Eastern Pacific and Seventh Fleet in the Western
                                                          Pacific and Indian Ocean.
             	 Naval Special Warfare Command
               (NSW)
NSW train, equip, and deploy components of
                                                                      	 Commander Navy Installations
NSW Squadrons to meet the exercise, contingency,
                                                                        Command (CNIC)
and wartime requirements of the regional
combatant commanders, theater special operations          Established on 1 October 2003, CNIC is the Echelon
commands, and numbered fleets located around              II command under the Chief of Naval Operations
the world. Additionally, they receive support             responsible for Navy-wide shore installation
from permanently deployed NSW units in Guam,              management. The stand up of CNIC was an effort
Bahrain, and Germany. NSW Squadrons are built             in the continuation of fleet and regional shore
around deployed SEAL Teams and include senior             installation management organizational alignment
leadership, SEAL Delivery Vehicle Teams, Special          that began in 1997 with the reduction of installation
Boat Teams, and support technicians such as mobile        management claimants from 18 to 8. The intent
communications teams, tactical cryptologic support,       of CNIC is to establish a single shore installation
and explosive ordnance disposal specialists. Naval        management organization that will focus on
Special Warfare Squadrons are among the most              installation effectiveness and improve the shore
responsive, versatile, and effective force packages       installation management community’s ability to
fighting the other contingency operations today.          support the fleet. Commander, Navy Installations
Because SEALs are experts in special reconnaissance       Command has overall shore installation management
and direct action missions — the primary skill sets       responsibility and authority as the Budget Submitting
needed to combat terrorism — NSW is postured to           Office for installation support and the Navy point of
fight a globally-dispersed enemy, whether ashore or       contact for installation policy and program execution
afloat, before they can act.                              oversight.




            	 U.S. Pacific Fleet (PAC Fleet)                          	 U.S. Fleet Forces Command (FFC)


PAC Fleet, the world’s largest fleet command,             FFC supports both the Chief of Naval Operations and
encompasses 100 million square miles, more than           Combatant Commanders worldwide by providing
half the Earth’s surface, from the West Coast of the      responsive, relevant, and sustainable Naval
United States into the Indian Ocean. The PAC Fleet        forces ready-for-tasking. The command provides
consists of approximately 180 ships, nearly 2,000         operational and planning support to Combatant
aircraft and 25,000 Sailors, Marines and Civilians.       Commanders and integrated warfighter capability
PAC Fleet was established in February 1941 and is         requirements to the CNO. Additionally, U.S. Fleet
headquartered at Pearl Harbor, Hawaii. PAC Fleet          Forces Command serves as the CNO’s designated
protects and defends the collective maritime interests    Executive Agent for Anti-Terrorism/Force Protection
of the United States and its allies and partners in       (ATFP), Individual Augmentees (IA), and Sea Basing.
the Asia-Pacific region. In support of U.S. Pacific       In collaboration with U.S. Pacific Fleet, U.S. Fleet
Command and with allies and partners, PAC Fleet           Forces Command organizes, mans, trains, maintains,
enhances stability, promotes maritime security and        and equips Navy forces, develops and submits
freedom of the seas, deters aggression, and when          budgets, and executes readiness and personnel
necessary, fights to win. Commands that fall directly     accounts to develop both required and sustainable
under the PAC Fleet include “type” commands for           levels of Fleet readiness.
surface ships, submarines, and aircraft as well as
Navy construction. Operational commands that
report directly to the PAC Fleet include Third Fleet in

                                                                                                            13
            	 United States Marine Corps (USMC)                       	 Office of Naval Intelligence (ONI)

USMC is a branch of the U.S. military responsible        ONI is the leading provider of maritime intelligence
for providing power projection from the sea,             to the U.S. Navy and joint warfighting forces, as well
utilizing the mobility of the U.S. Navy to rapidly       as national decision makers and other consumers in
deliver combined-arms task forces to global crises.      the Intelligence Community. Established in 1882,
The USMC is the nation’s Expeditionary Force in          ONI specializes in the analysis, production, and
Readiness. Established originally by an act of the       dissemination of vital, timely, and accurate, scientific,
Second Continental Congress on 10 November 1775,         technical, geopolitical, and military intelligence
the Marine Corps has evolved into a balanced air-        information to key consumers worldwide. ONI
ground-logistics team that is forward deployed and       produces meaningful maritime intelligence and
forward engaged: shaping, training, deterring, and       moves that intelligence rapidly to key strategic,
responding to all manner of crises and contingencies.    operational, and tactical decision makers. Its
Through the ongoing support of Congress and the          integrated workforce of active duty and Reserve
American people, the Marine Corps is a cohesive          naval and civilian professionals supports combat
force of 201,693 Active Duty Marines; 39,772 Selected    operations and provides vital information for
Reserve Marines; and 23,446 Civilian Marines. At         planning America’s defense against maritime threats
any given time, approximately 30,000 Marines are         at home and around the world.
forward deployed in operations supporting our
Nation’s defense.

                                                                      	 Naval Reserve Force Command
                                                                        (NAVRESFOR)
                   	 Office of Naval Research (ONR)      The mission of the U.S. Navy Reserve is to provide
                                                         mission-capable units and individuals to the
As the Department of the Navy’s Science and              Navy-Marine Corps Team throughout the full
Technology provider, ONR provides technology             range of operations from peace to war. In today’s
solutions for Navy and Marine Corps needs. ONR’s         environment, this mandate takes on added meaning
mission defined by law is to plan, foster, and           and responsibilities as the Navy Reserve is called on
encourage scientific research in recognition of its      to play an increasingly active role in the day-to-day
paramount importance as related to the maintenance       planning and operational requirements of the active
of future naval power, and the preservation of           Navy. The Navy Reserve represents 20 percent
national security. Further, ONR manages the Navy’s       of the Navy’s total assets and is a significant force
basic, applied, and advanced research to foster          multiplier the fleet must have to meet its growing
transition from science and technology to higher         global commitments. The Navy Reserve consists of
levels of research, development, test, and evaluation.   the Ready Reserve, the Standby Reserve, and the
ONR provides technical advice to the Chief of Naval      Retired Reserve numbering over 690,000 men and
Operations and the Secretary of the Navy. Led by         women.
the Chief of Naval Research, its senior leadership
oversees a portfolio of investments ranging from
immediate, quick-turnaround technologies to long
term basic research.




14
            	 Field Support Activity (FSA)

The mission of FSA is to establish, maintain, and
provide a system of financial services as the Budget
Submitting Office (BSO) and Principal Administering
Office (PAO) for assigned unified commands, Navy
Headquarters, and activities; to initiate action in
matters pertaining to the provision of funds and
manpower and to evaluate the utilization of such
resources and initiate or recommend appropriate
corrective action.


Department of Navy Administrative Assistant
(DON/AA)
DON/AA provides leadership and oversight
of all administrative matters in support of the
                                                        Navy Civilians: 	                                           188,964
Secretary of the Navy (SECNAV). The DON/AA              (Full-time Equivalents)
organization provides administrative management         Marine Corps Civilians: 	                                    23,446
and support to the Office of the SECNAV, its 6,000      (Full-time Equivalents)
member Secretariat, staff offices, field activities,    U.S. Navy Active: 	                                         325,123
and supported organizations. These administrative       (Officers, Enlisted, and Midshipmen)
divisions consist of Customer Service, Directives       U.S. Marine Corps Active:	                                  201,693
and Records Management, Contract Management,            (Officers and Enlisted)
Executive Dining, Facilities and Support Services,      U.S. Navy Reserve: 	                                         64,792
Financial Management, Human Resources,                  (Drilling Reserve and Full-time Support)

Information Technology, and Security.                   U.S. Marine Corps Reserve:	                                  39,772
                                                        (Drilling Reserve and Full-time Support)
                                                        Personnel Data as of Fiscal Year Ended September 30, 2011




Strategic Management

We are committed to improving core capabilities that   was developed to be a unified and enduring strategy
support the U.S. maritime strategy, “A Cooperative     that will apply maritime power to the crucial
Strategy for 21st Century Seapower.” These core        responsibility of protecting U.S. vital interests in an
capabilities are critical to U.S. maritime power       increasingly interconnected and uncertain world.
and reflect an increased emphasis on activities        It binds the three maritime services—U.S. Navy,
that prevent war and build partnerships—forward        U.S. Marine Corps, and U.S. Coast Guard—closer
presence, deterrence, sea control, power projection,   together than ever before in a mission to more fully
maritime security, humanitarian assistance, and        safeguard maritime interests at home and abroad.
disaster response.
                                                       Our six priority objectives (on the pages that follow)
The cooperative strategy, guided by the objectives     support the U.S. maritime strategy by focusing
articulated in the National Strategy for Maritime      on key efforts that will increase our effectiveness,
Security, National Security Strategy, National         improve the lives of our Sailors, Marines, and
Defense Strategy, and National Military Strategy,      their families, and result in greater security for our

                                                                                                                              15
nation and U.S. global interests. A summary of key        culturally appropriate role players, and interactive
accomplishments by objective begins below.                avatars. Another example is Bold Alligator 2011, the
                                                          first large-scale amphibious training exercise between
In addition, as a separate and supporting element         the Navy and Marine Corps in nearly 10 years.
of our priority objectives, we are committed to           During this training event, the Navy-Marine Corps
transforming the way we do business. A summary            team engaged in simulated forcible entry and non-
of our key business transformation initiatives follows    combatant evacuation operations using advanced
our discussion on priority objectives.                    equipment and technology, such as unmanned aerial
                                                          and surface vessels.
Objective 1: Provide a Total Naval Workforce
Capable and Optimized to Support the National
Defense Strategy
Our Sailors, Marines, and civilians are the critical
component to the U.S. maritime strategy, and we
must ensure that we provide them with adequate
compensation, medical care, and career training
opportunities. These are key factors in attracting
and retaining highly motivated and qualified naval
personnel. We remain committed to providing
a competitive pay and benefits package to aid in
recruitment and retention. The package includes
basic pay, housing allowances, and incentives for
critical specialties in health care, explosive ordnance
disposal, and nuclear propulsion.

We are committed to providing our wounded, ill,
and injured service members and their families
with the medical and non-medical care and support
worthy of their service and sacrifice. Through the        Sailors participate in a visit, board, search and seizure training
Navy Safe Harbor Program and the Marine Corps             exercise aboard the guided-missile cruiser USS Vicksburg (CG
Wounded Warrior Regiment, our service members             69).

receive support and assistance throughout their
recovery, rehabilitation, and return to full duty
                                                          U.S. Navy
and reintegration into their communities. We also
continue to provide encouragement and support for         The Navy continues to resize and reshape its forces
our wounded Sailors and Marines, in partnership           to meet its mission requirements more efficiently
with the Department of Veterans Affairs, long after       and effectively. This is especially important in an
they have left the Service.                               environment of limited budgetary resources and
                                                          rising personnel costs. Over the last five years, the
Using advanced technologies, we have shifted              Navy has resized its active and reserve components
training from the traditional classroom to the use        by 4% and 7%, respectively. The Navy has been
of simulators, trainers, computer-based interactive       able to accomplish all assigned missions at this level
curriculums, and other media-based approaches.            because of force structure changes, efficiencies gained
This initiative provides our naval workforce with         through technology, modifications in workforce mix,
appropriate training in a more efficient manner and       and new manning practices.
prepares them to better perform mission-critical
tasks. One example is the Infantry Immersion
Trainer, a training system that simulates foreign
urban scenes using battlefield effects simulators,

16
U.S. Marine Corps                                                       capable and optimized to support the National
The Marine Corps active duty forces end strength                        Defense Strategy, the Marine Corps completed a
has been necessary to support the full spectrum                         comprehensive force structure review in FY 2011.
of U.S. military operations and Marine units that                       The review focused on the organization, posture, and
have a continually high operational tempo, such as                      capabilities required to meet future challenges and
reconnaissance. Over the last five years, the Marine                    threats. A copy of the Force Structure Review Report
Corp has resized its active and reserve components                      is available at www.marines.mil.
by 8% and 3%, respectively. To remain a force


                                                           U.S. Navy End Strength
           400000
                     337,547            332,228               329,304            328,303             325,123
           300000

           200000

           100000              69,933             68,136                66,474              65,006             64,792


                 0
                          2007              2008                  2009                2010                2011

                                                   Fiscal Year Ending September 30                              Active
                                                                                                                Reserve



           400000
                                                   U.S. Marine Corps End Strength
           300000
                                        198,505               203,095             202,441            201,693
                     186,492
           200000

           100000
                               38,557             37,523                38,510              39,222             39,772

                 0
                          2007              2008                  2009                2010                2011

                                                   Fiscal Year Ending September 30                              Active
                                                                                                                Reserve




Navy and Marine Corps Civilian Personnel                                of the Navy and Marine Corps. Civilian personnel
The size of the civilian workforce, which has                           provide various types of support, such as research
increased by 14% over the last five fiscal years,                       and development, engineering, acquisition, depot
continues to support the mission and daily functions                    maintenance, and financial management and budget.




                                                                                                                          17
       400000

       300000                                      Civilian Personnel (Full-Time Equivalents*)

                                                                                              182,913                  188,964
       200000       168,126                  170,995                 176,026


       100000
                               18,687                   19,209                   20,866                  23,032                  23,446
             0
                           2007                    2008                     2009                     2010                    2011

                                                         Fiscal Year Ending September 30                                     Navy
                                                                                                                             Marine Corps

                 * Full-time equivalents are the total number of regular straight-time hours (i.e., not including overtime or holiday hours)
                   worked by employees divided by the number of compensable hours applicable to each fiscal year.




Objective 2: Use the Navy-Marine Corps Team
to Aggressively Prosecute Overseas Contingency
Operations
Our Navy-Marine Corps team has become an
integral part of continuing overseas contingency
operations. With the shift in operational focus from
Iraq to Afghanistan, our naval forces are providing
greater support to the Afghanistan theater, both in
the conduct of direct operational missions, as well
as increased combat support for U. S. and coalition
forces on the ground. Significant tactical air support
for Afghanistan comes from our carriers and as the
ground infrastructure in Afghanistan increases, more
carriers will be required to bring these assets to bear
on the battlefield. For example, our naval forces
have integrated and synchronized close air support
missions with coalition ground forces to protect key
infrastructure, deter and disrupt extremist operations                               A Lance Corporal assigned to Marine Corps 3rd Light Armored
or hostile activities, and provide oversight for                                     Reconnaissance Battalion (3rd LAR) stands watch as Seabees
reconstruction efforts.                                                              assigned to Naval Mobile Construction Battalion (NMCB)
                                                                                     3 prepare a look-out post at Forward Operating Base Payne,
                                                                                     Helmand Province, Afghanistan.
Fleet Response Plan
We remain focused on providing ready naval forces,
from individual units to carrier and expeditionary                                   Individual Augmentees
strike groups, that are forward deployed and capable                                 Individual augmentees (IAs) have been instrumental
of providing a substantial surge force. The Fleet                                    in fulfilling combatant commanders’ mission
Response Plan (FRP), which supports the National                                     requirements for overseas contingency operations.
Military Strategy, provides the readiness for this                                   They are assigned individually, rather than as part
capability. The FRP provides adaptable, flexible, and                                of a traditional unit, to fill shortages or provide
sustainable naval forces necessary not only to fight                                 specialized knowledge or skill sets. The Navy
current ongoing contingencies, but also to support                                   identifies both active and reserve service members
the needs of the combatant commanders to maintain                                    with specific skill sets to fill IA roles, and the
a global forward presence and any other evolving                                     Marine Corps relies principally on activated reserve
national defense requirements.                                                       members to fill IA positions vacated by forward-
                                                                                     deployed active component Marines.

18
                                                            and naval capabilities. Our nation and naval forces
                                                            rely heavily on a finite source of fuel from volatile
                                                            global regions. To a certain extent, we have ceded
                                                            this strategic resource to other nations, creating an
                                                            obvious vulnerability to our national security. In
                                                            addition, our reliance on fossil fuels affects our naval
                                                            forces’ operational independence, both in terms of
                                                            the resources required to obtain fuel and to transport
                                                            it to the ships, aircraft, and equipment, and the
                                                            Sailors and Marines whose duty it is to protect the
                                                            ships and convoys moving the fuel.

                                                            With these risks in mind, we have taken a bolder,
                                                            more aggressive stance toward energy reform
                                                            by committing to five energy goals (see chart on
                                                            page 20). These goals require adoption of new
                                                            fuels and development of new systems and energy
                                                            efficient practices and techniques over the next 10
                                                            years.
Sailors participate in the four-week U.S. Navy Individual
Augmentee Combat Training course at Fort Dix, New Jersey.
                                                            Some examples of our progress toward energy
                                                            reform during FY 2011 include:
Marine Corps Operating Forces
                                                              n	 Test and evaluation of a Riverine Command
Marine Expeditionary Forces (MEFs) provide highly                Boat (Experimental) (RCB-X) powered by
trained, versatile expeditionary forces capable                  hydro-processed renewable diesel.
of rapid response to global contingencies. Each
MEF consists of a command element, one infantry               n	 Completion of a solar photovoltaic system on
division, one aircraft wing, and one Marine logistics            Naval Base Guam that will produce 411,000
group. Embedded within each MEF are three Marine                 kilowatt hours of clean renewable electricity.
Expeditionary Units, which deploy regularly in
the Expeditionary Strike Groups. Each MEF also                n	 Delivery of Leadership in Energy and
has an embedded capability to source a Marine                    Environmental Design (LEED) Gold-certified
Expeditionary Brigade.                                           facilities at Naval Support Facility Dahlgren,
                                                                 Virginia; Naval Air Station Patuxtent River,
Objective 3: Build the Navy-Marine Corps Force                   Maryland; and Naval Base Guam; and LEED
for Tomorrow                                                     Silver-certified facility at Marine Corps Base
                                                                 Quantico, Virginia.
Sustaining U.S. maritime preeminence requires
our naval forces to prepare continually for future            n	 Test of the DDG 1000’s Integrated Power
challenges as well as threats to national security and           System, which generates the ship’s total electric
U.S. global interests. Key initiatives in this regard are        power requirements. DDG 1000 will be the
energy reform, unmanned systems, and acquisition                 first U.S. Navy surface combatant to leverage
reform.                                                          this technology.

Energy Reform
Reducing our naval forces’ reliance on fossil fuels
is critical to our national security, environment,




                                                                                                                19
                                                                  Unmanned Systems
                                                                  Unmanned systems expand our naval capabilities
                                                                  in intelligence, surveillance, and reconnaissance
                                                                  (ISR), and reduce the exposure of our naval forces
                                                                  to unnecessary threats. For example, in February
                                                                  2011, an X-47B Navy Unmanned Combat Air System
                                                                  Demonstrator (NUCAS-D) completed its first flight
                                                                  at Edwards Air Force Base, California. The flight
                                                                  represented an essential step in Navy’s effort to
                                                                  design, develop, and integrate an autonomous
                                                                  unmanned air system on board an aircraft carrier.
                                                                  The Navy will continue to implement the plan to
                                                                  transition from NUCAS-D to the Unmanned Carrier
                                                                  Launched Surveillance Strike (UCLASS) system to
                                                                  provide an unmanned carrier capability by 2018.
                                                                  UCLASS will provide the joint force with persistent,
                                                                  carrier-based ISR and strike system.


Chief of Naval Operations, Admiral Gary Roughead, views
components of the DDG 1000 Integrated Power System land-
based test site on board Naval Surface Warfare Center Carderock
Division, Ship Systems Engineering Station, Philadelphia.




 Department of the Navy Energy
 Goals

 Energy Efficient Acquisition: Evaluation of
 energy factors will be mandatory when awarding
 contracts for systems and buildings.

 Sail the “Great Green Fleet”: The DON will
 demonstrate a Green Strike Group in local
 operations by 2012 and sail it by 2016.

 Reduce Non-Tactical Petroleum Use: By
 2015, the DON will reduce petroleum use in the
 commercial fleet by 50%.                                         An X-47B Navy Unmanned Combat Air System Demonstrator
                                                                  completes its first flight at Edwards Air Force Base, California.
 Increase Alternative Energy Ashore: By 2020,
 the DON will produce at least 50% of shore-
 based energy requirements from alternative                       Acquisition Reform
 sources; 50% of the DON installations will be                    The replacement costs of our aging ships, aircraft,
 net-zero.
                                                                  and weapons systems continue to rise faster than our
 Increase Alternative Energy Use DON-Wide:
                                                                  procurement budgets’ top-line. This has resulted
 By 2020, 50% of total DON energy consumption                     in a reduction in the number of ships and aircraft
 will be from alternative sources.                                available to support the Navy’s forward deployed
                                                                  mission. This erosion in the number of available
                                                                  ships and aircraft has also increased the operating
                                                                  tempo required of the remaining smaller fleet. This

20
trend towards growth in individual unit acquisition       Objective 4: Safeguard the People and Resources of
costs, therefore, places at risk our future forward       the Navy-Marine Corps Team
presence capability to support our nation’s foreign       We continue to promote and enhance a culture of
policy and protect its interests.                         safety excellence. Through our risk management
                                                          training continuum, we provide the DON personnel
In accordance with the Weapons System Acquisition         with opportunities to understand and apply
Reform Act of 2009, and in coordination with strong       operational risk management (ORM) principles. As
DoD-wide initiatives being taken by the Secretary of      an example, four new ORM e-learning modules
Defense and his staff in this area, we are aggressively   became available in FY 2011 via our Navy
working to examine and streamline the Navy’s              Knowledge Online site. Our Naval Safety Center
design and construction processes. The result             website provides the DON personnel with access
will be improved management of the design and             to a wide range of resources, such as training, best
schedule processes so that the impact on acquisition      practices, alerts and recalls, guidance, and new for
and total weapons systems life cycle costs can be         2011, “e-blast,” a brief bi-monthly e-mail update
better estimated earlier in the design and scheduling     on Safety Center products, resources, and safety
processes. This will enable the cost impact of design     initiatives. In addition, through our Safety Excellence
and scheduling changes to be better forecasted            Award Program, we recognize the DON commands
and their impact on future fleet sizes to be better       and programs that best exemplify the highest regard
understood and anticipated.                               for the safety of our Sailors, Marines, and civilians;
                                                          and the protection of our aircraft, ships, and facilities
In addition, a healthy industrial base and strong         from mishaps.
performance from our industry partners improve our
ability to deliver an affordable combat capability to
the fleet. We have worked diligently to procure our
ships, aircraft, and weapon systems at a rate intended
to bring stability to the industrial base and enable
efficient production. We will continue to work with
our shipyards, aircraft manufacturers, and weapon
systems providers to benchmark performance,
to identify improvements, to provide the proper
incentives for capital investments, and to reward
strong performance with terms and conditions that
reflect our desire for a strong government-industry
partnership.

We are also rebuilding the acquisition workforce
through a number of parallel efforts. These include
expansion of recruitment at all levels, including
interns, journeymen, and highly qualified experts,
and the retention and credentialing of qualified
personnel at the middle and senior career levels. We
remain committed to preventing capability gaps in         A Navy Counselor 1st Class and Yeoman 2nd Class fly the
                                                          Secretary of the Navy (SECNAV) Safety Excellence flag during
the acquisition workforce, with a view of ensuring
                                                          a ceremony at Naval Weapons Station Seal Beach, California,
the Navy and Marine Corps maintain a healthy              marking the third consecutive year that the weapons station
technical authority within the Department.                received the prestigious SECNAV award.




                                                                                                                     21
Objective 5: Strengthen Ethics as a Foundation of
Exemplary Conduct within the Department of the
Navy
We continue to reinforce ethics and exemplary
conduct as an obligation of every DON employee.
Through training and education, we promote
understanding and application of our core values—
honor, courage, and commitment—and standards of
ethical conduct as a framework for making decisions
at every career level. Our ethics website, The Ethics
Compass, provides the DON personnel with access
to annual ethics training and other resources, such as
a directory of certified DON ethics counselors and an
employee ethics guide.

Objective 6: Provide First-Rate Facilities to Support
Stationing, Training, and Operations of Naval
Forces
We remain committed to providing high-quality              Military and civilian personnel participate in a ribbon cutting
facilities to support evolving mission requirements        ceremony for the opening of the new Child and Youth 24/7
and quality of life initiatives. To support the Marine     Center at Naval Air Station North Island, California.

Corps’ end strength of 201,693 active duty forces, we
have been investing in new construction projects,          Business Transformation
including permanent barracks, mess facilities,
                                                           As a separate and supporting element of our priority
operations centers, and training ranges. Similarly, we
                                                           objectives, we are committed to transforming the
have been investing in military construction projects
                                                           way we do business by using our people, processes,
that improve the quality of life for our Sailors and
                                                           and systems more effectively. The DON Financial
Marines and their families. These projects include
                                                           Improvement Program is the integrating financial
Bachelor Enlisted Quarters, student officer quarters,
                                                           element of our business transformation strategy
fitness centers, and child care facilities. In addition,
                                                           and a supporting initiative of the DoD Financial
we continue to invest in military construction projects
                                                           Improvement and Audit Readiness Plan, which
that support improvements in our global defense
                                                           organizes and prioritizes the financial improvement
posture. Examples include the planned realignment
                                                           and audit readiness efforts of DoD Components.
of U.S. Marines and their families from Okinawa to         Audit readiness is a goal of business transformation
Guam, an operations and support facility at Naval          and a key metric for measuring its success and
Support Activity Bahrain, and a headquarters facility      progress. Navy Enterprise Resource Planning is the
and joint operations center in Djibouti.                   key system driver of our business transformation and
                                                           a key enabler of the DoD Enterprise Transition Plan,
                                                           which organizes and prioritizes efforts to modernize
                                                           DoD business and financial systems. Continuous
                                                           Process Improvement/Lean Six Sigma (CPI/LSS)
                                                           initiatives, part of the DoD-wide CPI/LSS program,
                                                           enable more effective and efficient operations across
                                                           the DON enterprise.

                                                           DON Financial Improvement Program
                                                           The DON Financial Improvement Program and the
                                                           Marine Corps Financial Improvement and Audit


22
Readiness Initiatives are multi-year Department-wide     have forged a strong partnership and, together, have
efforts to modernize Navy-Marine Corps financial         made considerable progress in moving closer to fully
processes and systems to better serve worldwide          reconciling the DON’s Fund Balance with Treasury.
operations. The goal of our financial improvement        Jointly, with DFAS, the DON has launched initiatives
and audit readiness efforts is to produce financial      to bring transparency to the DON’s full transaction
management information more timely and with              universe, which will allow meaningful testing and
greater accuracy, reliability, and accessibility. With   provide audit trails. These DFAS initiatives will yield
improved information, we can allocate the DON            considerable value to our audit readiness efforts
resources in a more precise way and move closer to       over the next year. In addition, the Marine Corps
producing auditable DON-wide financial statements.       SBR audit continues to move forward in its second
                                                         year, providing significant insight and lessons that
Our financial improvement and audit readiness            have led the DON to enhance its overall SBR Audit
efforts align with the new priorities and associated     Readiness Plan.
strategy established by the Under Secretary of
Defense (Comptroller) for bringing DoD into a state      We also asserted audit readiness of significant
of financial audit readiness and in compliance with      components of military equipment-ships (including
the Chief Financial Officers Act of 1990 (as amended).   submarines), aircraft, intercontinental ballistic
These priorities focus on improving processes,           missiles, satellites, and ordnance and are about to
controls, and systems that support information           assert uninstalled aircraft engines and Navy boats in
most often used and relied upon by both civilian         FY 2012. Department of Defense Inspector General
and military leaders in daily business operations-       (DoDIG) examination of our assertion began in
budgetary information, as reported on the Statement      FY 2011 with ships/submarines, ballistic missiles,
of Budgetary Resources (SBR) and mission critical        and satellites. We expect DoDIG to continue with
asset information, such as military equipment and        examinations of aircraft and ordnance in FY 2012.
real property, as reported on the Balance Sheet.
These priorities demonstrate the value of these          Marine Corps Financial Improvement and Audit
financial statements to our daily business operations,   Readiness Initiative
particularly for funds control and resource              By means of an independent study, we analyzed the
utilization.                                             value of the Marine Corps’ effort to pursue financial
                                                         audit readiness in terms of the bottom line impact
We asserted audit readiness of key business              for improving the efficiency and effectiveness of its
processes related to the DON General Fund SBR for        financial processes and controls. This impact was
Appropriations Received. An independent public           measured in terms of the direct return for every
audit firm reviewed the Appropriations Received          dollar appropriated by Congress. The results of
assertion and assigned it an unqualified opinion. We     this analysis showed that for every dollar invested,
are continuing corrective actions for Civilian Payroll   nearly three dollars in value were created and that
and Transportation of People (initiated through the      the resulting economies translated directly into the
Defense Travel System), with planned assertions          Marine Corps having the capability to purchase more
in FY 2012. On 13 October 2011, the Secretary of         mission supportive weapons for the same amount
Defense issued a memorandum on improving                 of appropriated resources. In the future, we will use
financial information and achieving audit readiness.     this return on investment metric as a guide as we
He directed the Under Secretary of Defense               implement the substantial lessons learned from the
(Comptroller) to accelerate key elements of the          ongoing Marine Corps audit experience to the Navy.
DoD’s audit readiness, and provide a plan to achieve
audit readiness for the SBR by the end of 2014. The      The Marine Corps is the first major operational war-
DON fully supports the efforts of the Secretary of       fighting organization to achieve audit readiness for
Defense and we plan to assert audit readiness of the     any of the four financial statements and therefore,
DON General Fund SBR in FY 2013. Additionally,           over a broad part of its business operations. The
the DON and our primary service provider, the            Marine Corps selected the SBR as the first statement
Defense Finance and Accounting Service (DFAS),           to assert for audit readiness because it is the most

                                                                                                            23
heavily used and therefore, most heavily relied upon
in the day-to-day management of its resources. The
Marine Corps’ audit readiness efforts also provide
a meaningful pilot for the DON as we continue to
discover how to use the audit process to improve
resource management.

Navy Enterprise Resource Planning
Navy Enterprise Resource Planning (Navy ERP)
is an integrated business management system
that unifies, standardizes, and streamlines Navy
business operations. It is replacing multiple older,
more costly information systems, leading to lower
operational costs for the Navy. Navy commands
who have implemented Navy ERP have realized
measurable improvements in accuracy, timeliness,
and accessibility of information and efficiencies
in business and reporting processes. Expansion
of the Navy ERP Program over the next few years
will continue to drive enterprise-wide efficiencies    Personnel from Navy Supply Corps School and Surface Warfare
                                                       Officers School attend Lean/Six Sigma green belt training at the
and provide financial transparency and total asset
                                                       Center for Service Support in Newport, Rhode Island.
visibility across the enterprise; it will be a major
positive force contributing toward Navy’s financial
audit readiness.                                       Continuous Process Improvement
                                                       Continuous Process Improvement (CPI) is a
The Navy ERP system Release 1.0 (Acquisition           primary enabler for managing the effectiveness
and Financial Management functionality) has been       and efficiency of our processes in support of the
operational since October 2007 and is currently        warfighter and business operations and a critical path
deployed to Naval Air Systems Command, Naval           toward financial audit readiness. CPI provides our
Supply Systems Command, Naval Sea Systems              workforce with proven performance improvement
Command (General Fund operations), and Space and       tools, such as Lean/Six Sigma, to build a strong
Naval Warfare Systems Command.                         warfighter support foundation for improving cycle
                                                       time and reliability, aligning the work of subordinate
The Navy is in the process of deploying Release 1.1    organizations to enterprise-wide goals, and
(Single Supply Solution). Deployment of Release 1.1    optimizing costs. Under the purview of the Deputy
will be completed during FY 2012. The new release      Under Secretary of the Navy for Business Operations
consolidates wholesale and retail supply functions.    and Transformation, we are bringing together
                                                       processes and organizations for the accomplishment
The Navy will continue to expand Navy ERP              of strategic and corporate business objectives.
throughout the enterprise. Other Commands
scheduled for implementation are Naval Sea Systems     During FY 2011, our workforce continued to
Command (Working Capital Fund operations,              demonstrate its commitment to performance
October 2011); Strategic Systems Programs (October     improvement. For example, the Navy Medicine
2012); and Office of Naval Research (October 2012).    Support Command’s Centralized Credentials and
More information on Navy ERP is available at           Privileging Directorate (CCPD) streamlined its pre-
http://www.erp.navy.mil.                               accession credentialing process by applying Lean/Six
                                                       Sigma methodology. The pre-accession credentialing
                                                       process is a key process for bringing qualified
                                                       health care practitioners into the Navy and requires
                                                       completion of an application. The average time for

24
completion of the application process is 64 days.         personnel onboard the USS Theodore Roosevelt
Through its process improvement efforts, CCPD             (CVN 71). Theodore Roosevelt now has a CPI
reduced the average time by approximately 40 days.        division that can apply Lean/Six Sigma methodology
                                                          to improve customer service in the ship’s medical
In addition, many of our naval personnel have             department.
completed Lean/Six Sigma training, such as


Management Assurances

Commanders and managers throughout the DON                with the ongoing deployment of Navy Enterprise
must ensure the integrity of their programs and           Resource Planning (ERP), will move us toward
operations. Part of this responsibility entails           these goals over the next several years. Navy ERP
compliance with Federal requirements for financial        will be compliant with the DoD Standard Financial
reporting, financial management systems, and              Information Structure (SFIS), which includes support
internal controls, such as the Federal Financial          for the USSGL at the transaction level. SFIS is
Management Improvement Act (FFMIA) and the                DoD’s common business language that supports
Federal Managers’ Financial Integrity Act (FMFIA).        standardization of financial reporting for all DoD
These requirements promote the production of more         Components.
timely, reliable, and accessible financial information,
supported by the development and implementation           Federal Managers’ Financial Integrity Act
of more effective internal controls. More useful          The FMFIA of 1982 requires agencies to evaluate their
financial information and effective controls save         system of internal accounting and administrative
money and improve efficiency, thereby enhancing           controls and to report on the effectiveness of these
public confidence in our stewardship of public            controls in an annual statement of assurance. The
resources, which is critical for the protection and       FMFIA was the model for the Sarbanes-Oxley Act of
sustainment of our nation and vital U.S. interests.       2002, which applies to publicly traded companies.
                                                          Application of the Sarbanes-Oxley Act led to the
Below is a brief discussion of our compliance with        Federal Government’s reevaluation of internal
the FFMIA and FMFIA in FY 2011.                           control policies under FMFIA, including the addition
                                                          of Appendix A to Office of Management and
Federal Financial Management Improvement Act              Budget (OMB) Circular A-123 in December 2004,
The FFMIA of 1996 requires agencies to implement          “Management’s Responsibility for Internal Control.”
and maintain financial management systems                 Appendix A of the revised circular requires agencies
that comply substantially with Federal financial          to provide a separate statement of assurance on
management systems requirements, applicable               the effectiveness of internal controls over financial
Federal accounting standards, and the U.S. Standard       reporting.
General Ledger (USSGL) at the transaction level.
FFMIA supports the same objectives as the Chief           We assessed our systems of internal controls over
Financial Officers Act of 1990 but with a systems         non-financial operations and financial reporting, in
emphasis. Our legacy financial management                 effect as of 30 June 2011. Based on these assessments,
systems and feeder systems are not yet substantially      we provided qualified assurance on the effectiveness
compliant with Federal financial management               of our internal controls over non-financial operations,
systems requirements, generally accepted accounting       and provided no assurance on the effectiveness of
principles, and the USSGL at the transaction level.       our internal controls over financial reporting. For
While FFMIA compliancy requires a solid systems           more information on the results of these assessments,
element, the improvements in process documentation        see our FMFIA FY 2011 Annual Statement of
and internal control testing being made through           Assurance at
our Financial Improvement Program, combined               http://www.fmo.navy.mil/services/mic/soa_index.htm.


                                                                                                             25
Financial Condition and Results of Operations

The accompanying financial statements and related       exercise a system of effective control over financial
disclosures represent our enduring commitment to        operations.
fiscal accountability and transparency. Through our
Financial Improvement Program and related business      Results of Operations
transformation initiatives discussed earlier, we have   The Combined Statement of Budgetary Resources
made significant progress toward improving the          presents total budgetary resources of $231.6 billion
quality and timeliness of our financial information.    that were available to the DON GF during FY 2011
However, we are currently unable to fully               and the status of those resources at fiscal year end.
implement all elements of U.S. generally accepted       Total budgetary resources were up $6.0 billion, a
accounting principles and Office of Management          2.6% increase in FY 2011 over FY 2010. The increase
and Budget (OMB) Circular A-136, “Financial             was primarily due to the $35.0 billion unobligated
Reporting Requirements,” due to limitations of our      balance brought forward from the prior year,
financial and non-financial management processes        which comprised 15% of total budgetary resources.
and systems feeding into the financial statements.      The majority of the increase in unobligated
Because of these limitations, the Department of         balance brought forward was in the Procurement
Defense, Office of Inspector General, was unable        appropriation accounts. The enacted appropriations
to express an opinion on our FY 2011 financial          of $175.1 billion represent 76% of total budgetary
statements.                                             resources and increased $1.0 billion over FY 2010.
                                                        The majority of this increase was with respect to
For financial reporting purposes, we are organized      Operations, readiness, and support appropriation
into two reporting entities: Department of the          accounts. The DON obligated $198.3 billion of the
Navy General Fund (DON GF) and Navy Working             $231.6 billion total resources in FY 2011, which is an
Capital Fund (NWCF), which include financial            increase of $7.8 billion or 4% over FY 2010.
information for both the U.S. Navy and the USMC.
Each reporting entity has a separate set of financial           DON GF Sources of Funds, FY 2011
statements and related disclosures.                                              ($ in Billions)


DON General Fund                                                                 $10.6

The DON GF supports overall Departmental
                                                                      $35.0
operations. Enacted appropriations comprise the
majority of the GF account structure, which includes
five major appropriation groups:                              $8.2

     n	 Operations, Readiness, and Support
     n	 Military Personnel
     n	Procurement                                                                                 $177.7

     n	 Research, Development, Test, and Evaluation
     n	 Family Housing and Military Construction

Enacted appropriations flow through OMB and the
Office of the Secretary of Defense to the Office of                  Appropriations and Net Transfers
the Secretary of the Navy, where they are allocated                  Earned Reimbursements
to administering offices and commands. The                           Unobligated Balance Forward from Prior Years
                                                                     Other
administering offices and commands, which in turn
obligate the appropriations to fund operational
                                                        The Combined Statement of Net Cost presents net
expenses and capital investments, are required to
                                                        cost of operations of $168.9 billion during FY 2011.

26
Net cost of operations represents gross costs incurred                     operations increased $13.8 billion, which represents
by the DON GF, less earned revenue. Net cost of                            an 9% increase over FY 2010.


                                           DON GF Net Cost of Operations, FY 2007 – 2011
                                                                  ($ in Billions)

                200
                                                                                              $155.1                  $168.9
                                  $147.8                                   $144.0
                150                                    $132.7


                100

                50

                  0
                              2007                  2008              2009              2010                   2011

                                                       Fiscal Year Ending September 30


Financial Position
                                                                                    DON GF Total Liabilities, FY 2011
The DON continued to report a positive net position                                                ($ in Billions)
on its Consolidated Balance Sheet. Net position is the
difference between total assets and total liabilities.
                                                                                                             $2.5
As of September 30, 2011, net position totaled
                                                                                                                      $1.7
$445.8 billion, which represents a 4.6% increase of
$19.8 billion from FY 2010. Increase in total assets                                  $11.4
of $19.4 billion and a decrease of $0.4 billion in total
liabilities contributed to the overall increase in net
position.

         DON GF Total Assets, FY 2011
                        ($ in Billions)


                                                                                                                     $21.2
                      $45.1


                                           $138.4
                                                                                      Accounts Payable
                                                                                      Military Retirement and
                                                                                      Other Federal Employment Benefits
                                                                                      Environmental and Disposal Liabilities
                                                                                      Remaining Liabilities
       $228.3
                                                           $4.0
                                                                           Navy Working Capital Fund
                                           $66.8
                                                                           NWCF is a revolving fund established to meet the
                                                                           diverse requirements of the Navy and Marine Corps
                                                                           operating forces. Under the revolving fund concept,
                                                                           an appropriation or a transfer of funds finances initial
          Fund Balance with Treasury
          Accounts Receivable
                                                                           NWCF operations. General or appropriated fund
          Inventory & Related Property                                     payments from customers for goods delivered or
          General Property, Plant & Equipment
          Remaining Assets
                                                                           services performed subsequently replenish this initial


                                                                                                                               27
working capital investment and sustain a continuous       of this goal is occasionally complicated by the
cycle of operations, minimizing the need for              requirement that NWCF business areas maintain
additional annual appropriations by Congress. The         stable budget-driven prices for goods and services to
goal of NWCF is to break even over time by matching       protect customers from unforeseen price fluctuations.
revenues earned to costs incurred. Achievement


                        Navy Working Capital Fund Business Activities By Business Area
Supply Management                                         Depot Maintenance

Supply Management, Navy                                   Depot Maintenance, Aviation
(https://www.navsup.navy.mil)                             (http://www.navair.navy.mil)
Supply Management, Marine Corps                           Depot Maintenance, Marine Corps
(http://www.logcom.usmc.mil)                              (http://www.logcom.usmc.mil)

Base Support                                              Transportation

Facilities Engineering Commands
(https://portal.navfac.navy.mil)                          Military Sealift Command
Naval Facilities Engineering Service Center               (http://www.msc.navy.mil)
(https://portal.navfac.navy.mil)

Research and Development

Naval Research Laboratory*                                Naval Air Warfare Center
(http://www.nrl.navy.mil)                                 (http://www.navair.navy.mil)
Naval Surface Warfare Center                              Space and Naval Warfare Systems Centers
(http://www.navsea.navy.mil)                              (http://enterprise.spawar.navy.mil)
Naval Undersea Warfare Center                             *Also see Office of Naval Research
(http://www.navsea.navy.mil)                              (http://www.onr.navy.mil)


Results of Operations                                                NWCF Sources of Funds, FY 2011
                                                                                      ($ in Billions)
The Combined Statement of Budgetary Resources
presents total budgetary resources of $32.0 billion
that were available to NWCF during FY 2011 and
                                                                             ($6.3)                     $7.2
the status of those resources at fiscal year-end. Total
budgetary resources increased $2.3 billion, which
was a 7.9% increase over FY 2010. NWCF budget                       $2.9

authority is comprised of contract authority and
spending authority from offsetting collections of
which the latter accounts for 87.0% of total budgetary
resources. The majority of the increase in overall
budget authority is due to $2.0 billion increase
in spending authority from offsetting collections
in FY 2011. NWCF business activities obligated                                                $28.2
$28.9 billion of the $32.0 billion total resources
in FY 2011 which represents a 7.8% increase of
$2.1 billion over FY 2010.                                              Contract Authority, Appropriations,
                                                                        and Net Transfers
                                                                        Earned Reimbursements
                                                                        Unobligated Balance Forward from Prior Years
                                                                        Other


28
The Combined Statement of Net Cost presents net                  and DoD appropriations; and non-DoD fund sources.
cost of operations of $(8.5) billion during FY 2011.             The increase in earned revenue exceeded the
Net cost of operations represents gross costs incurred           increase in gross costs by $5.7 billion in FY 2011 over
by NWCF, less earned revenue. Sources of earned                  FY 2010, which accounts for the negative net cost of
revenue include DON, Army, and Air Force General                 operations.
Funds; Defense Working Capital Funds; other Navy


                                    NWCF Net Cost of Operations, FY 2007 – 2011
                                                       ($ in Billions)
                 4
                           $1.3                                    $1.6
                 2                           $3.1

                 0
                (2)                                                              ($2.8)

                (4)
               (6)
               (8)                                                                                          ($8.5)

              (10)
                         2007             2008              2009             2010                  2011

                                              Fiscal Year Ending September 30


                                                                             NWCF Total Assets, FY 2011
                                                                                          ($ in Billions)
Financial Position
The NWCF continued to report a positive net
position on its Consolidated Balance Sheet. Net                                           $1.0 $1.2
                                                                                                        $0.9
position is the difference between total assets and                             $2.4
total liabilities. As of September 30, 2011, net position
totaled $20.5 billion, which represents an increase
of $7.2 billion and a 54% increase from FY 2010. An
increase of $6.8 billion in total assets and a decrease
of $0.4 billion in total liabilities contributed to the
overall increase in net position.



                                                                                                $20.5



                                                                            Fund Balance with Treasury
                                                                            Accounts Receivable
                                                                            Inventory & Related Property
                                                                            General Property, Plant & Equipment
                                                                            Remaining Assets




                                                                                                                     29
          NWCF Total Liabilities, FY 2011                               Cash Management
                      ($ in Billions)
                                                                        The DON manages working capital fund cash at
                                                                        the Departmental level. It must maintain cash
                                                                        levels at seven to ten days of operational costs, plus
                                                                        have sufficient cash reserves to meet six months
                                                                        of projected capital outlays, as required by the
           $1.8
                                                                        Department of Defense Financial Management
                                                                        Regulation. For FY 2011, the seven-day cash
                                                                        requirement was $849.0 million and the ten-day
                                               $3.0
                                                                        requirement was $1.2 billion.

                                                                        Supply Management, Navy received a $72.8 million
                                                                        reimbursement for ordered items delivered to
              $0.7
                                                                        Defense Logistics Agency.



           Accounts Payable
           Military Retirement and
           Other Federal Employment Benefits
           Remaining Liabilities


                  Navy Working Capital Fund Cash Balances October 1, 2010 to September 30, 2011
                                                              ($ in Millions)
            1800
            1500
            1200
             900
             600
             300
                  0
                      Oct      Nov      Dec    Jan      Feb     Mar       Apr   May    Jun    Jul   Aug     Sep

                                                      Fiscal Year Ending September 30



Looking Forward

Our achievements during FY 2011 established a                           Sea Control
firm foundation that will assure future success in                      The ability to operate freely at sea is one of the
executing our mission and building a sound business                     most important elements of joint and interagency
operating environment. In FY 2012, we will remain                       operations, and sea control requires capabilities in
focused on priorities that increase our effectiveness                   all aspects of the maritime domain, including space
and efficiency, improve the lives of our Sailors and                    and cyberspace. We will not permit an adversary to
Marines, and result in greater security for our nation                  impede the United States and its allies from freedom
and U.S. global interests. Highlighted below are a                      to maneuver on the seas and access to vital sea-lines
few of these priorities.                                                of communication and commerce. The Department’s
                                                                        ability to overcome challenges to access while
                                                                        simultaneously project and sustain power ashore is
                                                                        the basis of our combat credibility. Our advantages

30
will continue to be sustained through properly                 Energy Reform
sized forces, innovative technologies, understanding           Readily available energy is essential for deploying
of adversary capabilities, adaptive joint planning             our Sailors and Marines around the globe in support
processes, and the proficiency and ingenuity of our            of our nation’s interests. Since our operational
Sailors and Marines.                                           flexibility and sustainability are directly linked to
                                                               our energy supplies, energy reliability is a strategic
                                                               concern for our forces. The potential vulnerability of
                                                               energy supplies could threaten our ability to perform
                                                               on the battlefield and energy costs siphon resources
                                                               from warfighting requirements. Therefore, the DON
                                                               is working to develop greater energy independence
                                                               and conservation ashore and afloat. Overall, we will
                                                               achieve the goal of cutting petroleum use in non-
                                                               tactical vehicles by 50% by 2015 and allow for 50%
                                                               of the DON total energy consumption to come from
                                                               alternative sources by 2020. The planned “Green”
                                                               Strike Group is on track to be operational by FY 2016.




A visit, board, search, and seizure team (right) assigned to
the guided-missile cruiser USS Anzio (CG 68) investigates a
suspected pirate skiff in the Gulf of Aden.


Taking Care of Our People
Development and retention of highly qualified
and dedicated people are vital to our continued
success. Our vision is a naval manpower, personnel,
training, and education system that targets and
attracts the right talent, then trains, develops, equips,
and motivates these men and women throughout
their naval service. Navy total force readiness will
be enhanced by focusing on sailor readiness. Our               Seawolf-class submarine USS Connecticut (SSN 22)
strategy for the future will be guaranteed by focusing         participates in the biennial ice exercise, ICEX, designed to
                                                               improve naval operations in the Arctic.
on developing policies that bring forth the promise
of our people, thereby ensuring full development
of their personal and professional capabilities.               Business Transformation
Our objectives remain: to align the personal and               The DON continues to develop its vision for Business
professional goals of our workforce with the needs             Transformation. In these times of fiscal constraint, the
of the joint force while ensuring the welfare of               DON is challenged to make necessary investments
our Sailors and their families; to deliver a high              in future capabilities while sustaining current
performing, competency-based and mission-focused               warfighting effectiveness. The DON’s adopted
force to meet the full spectrum of joint operations;           business transformation policy is designed to employ
and to provide the right person with the right skills,         business process change to create more effective
at the right time as the best value to the joint force.
                                                                                                                              31
operations at reduced costs and exploit process        Limitations to the Financial Statements
improvements, technology enhancements, and an          The principal financial statements have been
effective human capital strategy to ensure continued   prepared to report the financial position and
mission superiority.                                   results of operations of the entity, pursuant to the
                                                       requirements of 31 United States Code 3515 (b).
The DON business process improvement involves          While the statements have been prepared from
executing, aligning, and integrating a series of       the books and records of the entity in accordance
enterprise-wide initiatives which will dramatically    with generally accepted accounting principles for
transform our ability to execute programs and          Federal entities and the formats prescribed by Office
support our mission. The result will be improved       of Management and Budget, the statements are in
efficiency, better decision-making, and an             addition to the financial reports used to monitor and
organizational culture that is performance-based.      control budgetary resources which are prepared
The DON Financial Improvement Program, in              from the same books and records. The statements
concert with the continuing roll-out of Navy ERP       should be read with the realization that they are for
and other enterprise business initiatives, will        a component of the U.S. Government, a sovereign
transform the Department’s business environment        entity.
into a “best practices,” auditable end-state. This
transformed environment will be both transparent
and accountable to the DON’s stakeholders – the
DoD, Congress, and the American taxpayer.




32
General Fund Principal Statements

Department of the Navy Fiscal Year 2011
Annual Financial Report
     Principal Statements
     The Fiscal Year 2011 Department of the Navy General Fund principal statements and
     related notes are presented in the format prescribed by the Department of Defense
     Financial Management Regulation 7000.14, Volume 6B. The statements and related notes
     summarize financial information for individual funds and accounts within the General
     Fund for the fiscal year ending September 30, 2011, and are presented on a comparative
     basis with information previously reported for the fiscal year ending September 30, 2010.

     The following statements comprise the Department of the Navy General Fund principal
     statements:

      n	   Consolidated Balance Sheet
      n	   Consolidated Statement of Net Cost
      n	   Consolidated Statement of Changes in Net Position
      n	   Combined Statement of Budgetary Resources

     The principal statements and related notes have been prepared to report financial
     position pursuant to the requirements of the Chief Financial Officers Act of 1990, as
     amended by the Government Management Reform Act of 1994. The accompanying notes
     should be considered an integral part of the principal statements.




34
                                                   Department of Defense - Department of the Navy General Fund

                                               CONSOLIDATED BALANCE SHEET
                                                                 As of September 30, 2011 and 2010
                                                                        ($ in Thousands)
                                                                                                     2011 Consolidated             2010 Consolidated
ASSETS (Note 2)
  Intragovernmental:
      Fund Balance with Treasury (Note 3)                                                       $                138,448,267   $           133,919,522
      Investments (Note 4)                                                                                             9,289                     9,465
      Accounts Receivable (Note 5)                                                                                   321,788                   394,557
      Other Assets (Note 6)                                                                                          165,099                   263,633
  Total Intragovernmental Assets                                                                                 138,944,443               134,587,177

   Cash and Other Monetary Assets (Note 7)                                                                           106,042                   107,277
   Accounts Receivable, Net (Note 5)                                                                               3,679,317                 3,691,483
   Inventory and Related Property, Net (Note 9)                                                                   66,782,595                62,053,484
   General Property, Plant, and Equipment, Net (Note 10)                                                         228,275,598               220,504,519
   Other Assets (Note 6)                                                                                          44,799,298                42,276,508
TOTAL ASSETS                                                                                    $                482,587,293   $           463,220,448
Stewardship Property, Plant, and Equipment (Note 10) *

LIABILITIES (Note 11)
  Intragovernmental:
      Accounts Payable (Note 12)                                                                $                  1,996,758   $             1,657,333
      Other Liabilities (Note 15 & Note 16)                                                                        4,869,187                 4,994,706
  Total Intragovernmental Liabilities                                                                              6,865,945                 6,652,039

  Accounts Payable (Note 12)                                                                                        558,726                  2,682,893
  Military Retirement and Other Federal
     Employment Benefits (Note 17)                                                                                 1,655,019                 1,692,851
  Environmental and Disposal Liabilities (Note 14)                                                                21,186,694                19,333,895
  Other Liabilities (Note 15 & Note 16)                                                                            6,564,768                 6,873,542
TOTAL LIABILITIES                                                                                                 36,831,152                37,235,220
Commitments and Contingencies (Note 16) *

NET POSITION
  Unexpended Appropriations - Other Funds                                                                        178,477,576               169,307,091
  Cumulative Results of Operations - Earmarked Funds                                                                  25,545                    33,682
  Cumulative Results of Operations - Other Funds                                                                 267,253,020               256,644,455
TOTAL NET POSITION                                                                                               445,756,141               425,985,228

TOTAL LIABILITIES AND NET POSITION                                                              $                482,587,293   $           463,220,448

* - Disclosure but no value required per Federal Accounting Standards.

The accompanying notes are an integral part of the statements.




                                                                                                                                                  35
                                                   Department of Defense - Department of the Navy General Fund

                                    CONSOLIDATED STATEMENT OF NET COST
                                                         For the Years Ended September 30, 2011 and 2010
                                                                       ($ in Thousands)
                                                                                                   2011 Consolidated              2010 Consolidated
 Program Costs
    Gross Costs
       Military Personnel                                                                      $                 47,198,600   $             48,744,274
       Operations, Readiness, & Support                                                                          65,501,114                 58,676,332
       Procurement                                                                                               48,531,687                 32,484,136
       Research, Development, Test, & Evaluation                                                                 18,201,273                 19,526,997
       Family Housing & Military Construction                                                                     1,966,777                    920,254

      Less: Earned Revenue                                                                                   (12,463,027)                   (5,246,995)
      Net Program Cost                                                                                       168,936,424                   155,104,998
      Losses/(Gains) from Acturarial Assumption Changes for Military
         Retirement Benefits                                                                                              -                           -

Net Cost of Operations                                                                         $             168,936,424      $            155,104,998

The accompanying notes are an integral part of the statements.




 36
                                                   Department of Defense - Department of the Navy General Fund

                CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                         For the Years Ended September 30, 2011 and 2010
                                                                       ($ in Thousands)
                                                                                               2011 Earmarked Funds            2011 Other Funds
 CUMULATIVE RESULTS OF OPERATIONS
   Beginning Balances                                                                          $                 33,682    $            256,644,455
   Prior Period Adjustments:
      Correction of errors (+/-)                                                                                      -                           -
   Beginning Balances, as adjusted                                                                               33,682                 256,644,455
   Budgetary Financing Sources:
      Appropriations used                                                                                             -                 165,646,982
      Nonexchange revenue                                                                                           249                         (14)
      Donations & forfeitures of cash & cash equivalents                                                         18,292                         130
   Other Financing Sources:
      Donations and forfeitures of property                                                                           -                         652
      Transfers in/out without reimbursement (+/-)                                                                    -                     225,126
      Imputed financing from costs absorbed by others                                                                 -                     881,374
      Other (+/-)                                                                                                     -                  12,764,061
   Total Financing Sources                                                                                       18,541                 179,518,311
   Net Cost of Operations (+/-)                                                                                  26,678                 168,909,746
   Net Change                                                                                                    (8,137)                 10,608,565
   Cumulative Results of Operations                                                            $                 25,545    $            267,253,020

UNEXPENDED APPROPRIATIONS
  Beginning Balances                                                                           $                      -    $            169,307,091
  Prior Period Adjustments:
     Correction of errors (+/-)                                                                                       -                           -
  Beginning Balances, as adjusted                                                                                     -                 169,307,091
  Budgetary Financing Sources:
     Appropriations received                                                                                          -                 175,092,446
     Appropriations transferred-in/out (+/-)                                                                          -                   2,607,610
     Other adjustments (rescissions, etc) (+/-)                                                                       -                  (2,882,589)
     Appropriations used                                                                                              -                (165,646,982)
  Total Budgetary Financing Sources                                                                                   -                   9,170,485
  Unexpended Appropriations                                                                                           -                 178,477,576
  Net Position                                                                                 $                 25,545    $            445,730,596

The accompanying notes are an integral part of the statements.




                                                                                                                                                  37
                                                   Department of Defense - Department of the Navy General Fund

                CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                         For the Years Ended September 30, 2011 and 2010
                                                                       ($ in Thousands)
                                                                                                   2011 Consolidated            2010 Consolidated
 CUMULATIVE RESULTS OF OPERATIONS
   Beginning Balances                                                                          $             256,678,137    $            255,999,213
   Prior Period Adjustments:
      Correction of errors (+/-)                                                                                       -                           -
   Beginning Balances, as adjusted                                                                           256,678,137                 255,999,213
   Budgetary Financing Sources:
      Appropriations used                                                                                    165,646,982                 157,582,719
      Nonexchange revenue                                                                                            235                        (512)
      Donations & forfeitures of cash & cash equivalents                                                          18,422                      27,374
   Other Financing Sources:
      Donations and forfeitures of property                                                                          652                       5,258
      Transfers in/out without reimbursement (+/-)                                                               225,126                   1,243,648
      Imputed financing from costs absorbed by others                                                            881,374                     884,867
      Other (+/-)                                                                                             12,764,061                  (3,959,432)
   Total Financing Sources                                                                                   179,536,852                 155,783,922
   Net Cost of Operations (+/-)                                                                              168,936,424                 155,104,998
   Net Change                                                                                                 10,600,428                     678,924
   Cumulative Results of Operations                                                            $             267,278,565    $            256,678,137

UNEXPENDED APPROPRIATIONS
  Beginning Balances                                                                           $             169,307,091    $            153,212,818
  Prior Period Adjustments:
     Correction of errors (+/-)                                                                                        -                    (574,538)
  Beginning Balances, as adjusted                                                                            169,307,091                 152,638,280
  Budgetary Financing Sources:
     Appropriations received                                                                                 175,092,446                 174,174,405
     Appropriations transferred-in/out (+/-)                                                                   2,607,610                   2,589,140
     Other adjustments (rescissions, etc) (+/-)                                                               (2,882,589)                 (2,512,015)
     Appropriations used                                                                                    (165,646,982)               (157,582,719)
  Total Budgetary Financing Sources                                                                            9,170,485                  16,668,811
  Unexpended Appropriations                                                                                  178,477,576                 169,307,091
  Net Position                                                                                 $             445,756,141    $            425,985,228

The accompanying notes are an integral part of the statements.




 38
                                                   Department of Defense - Department of the Navy General Fund

                        COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                         For the Years Ended September 30, 2011 and 2010
                                                                       ($ in Thousands)
                                                                                                     2011 Combined                 2010 Combined
 BUDGETARY FINANCING ACCOUNTS
   Budgetary Resources:
      Unobligated balance, brought forward, October 1                                          $                 35,002,674    $         27,048,361
      Recoveries of prior year unpaid obligations                                                                14,169,438              16,099,877
      Budget Authority:
            Appropriations received                                                                          175,110,945                174,202,102
            Spending authority from offsetting collections:
             Earned
                  Collected                                                                                       8,387,178               8,853,881
                  Change in receivables from Federal sources                                                       (176,901)                (60,947)
             Change in unfilled customer orders
                  Advances received                                                                             (154,658)                   (24,024)
                  Without advance from Federal sources                                                          (468,113)                  (582,631)
            Subtotal                                                                                         182,698,451                182,388,381
      Nonexpenditure Transfers, net, anticipated and actual                                                    2,607,610                  2,589,140
      Permanently not available                                                                               (2,882,590)                (2,512,014)
   Total Budgetary Resources                                                                                 231,595,583                225,613,745

     Status of Budgetary Resources:
        Obligations incurred:
               Direct                                                                                        189,108,300                179,434,110
               Reimbursable                                                                                    9,281,402                 11,176,960
               Subtotal                                                                                      198,389,702                190,611,070
        Unobligated balance:
               Apportioned                                                                                    29,803,065                 31,804,999
               Subtotal                                                                                       29,803,065                 31,804,999
        Unobligated balances not available                                                                     3,402,816                  3,197,676
     Total Status of Budgetary Resources                                                       $             231,595,583       $        225,613,745

The accompanying notes are an integral part of the statements.




                                                                                                                                                39
                                                   Department of Defense - Department of the Navy General Fund

                        COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                         For the Years Ended September 30, 2011 and 2010
                                                                       ($ in Thousands)
                                                                                                   2011 Combined                2010 Combined
 RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
 Change in Obligated Balance:
   Obligated balance, net
      Unpaid obligations, brought forward, October 1                                           $             101,601,676    $          101,403,501
      Less: Uncollected customer payments from Federal sources, brought
         forward, October 1                                                                                   (3,154,897)               (3,798,476)
      Total Unpaid Obligated Balance                                                                          98,446,779                97,605,025
   Obligations incurred, net (+/-)                                                                           198,389,702               190,611,070
   Less: Gross outlays                                                                                      (178,343,901)             (174,313,017)
   Less: Recoveries of prior year unpaid obligations, actual                                                 (14,169,438)              (16,099,877)
   Change in uncollected customer payments from Federal sources (+/-)                                            645,010                   643,578
   Obligated balance, net, end of period
      Unpaid obligations                                                                                     107,478,039               101,601,677
      Less: Uncollected customer payments from Federal sources                                                (2,509,887)               (3,154,898)
      Total Unpaid Obligated Balance, net, end of period                                                     104,968,152                98,446,779

Net Outlays:
  Gross Outlays                                                                                              178,343,901               174,313,017
  Less: Offsetting collections                                                                                (8,232,516)               (8,829,857)
  Less: Distributed Offsetting receipts                                                                           36,444                  (141,386)
Net Outlays                                                                                    $             170,147,829    $          165,341,774

The accompanying notes are an integral part of the statements.




 40
                               Note 1. Significant Accounting Policies
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the
Department of the Navy (DON) General Fund (GF), as required by the Chief Financial Officers Act of 1990,
expanded by the Government Management Reform Act of 1994, and other appropriate legislation. The financial
statements have been prepared from the books and records of DON GF in accordance with, and to the extent
possible, U.S. generally accepted accounting principles (USGAAP) promulgated by the Federal Accounting
Standards Advisory Board; the Office of Management and Budget (OMB) Circular No. A-136, Financial
Reporting Requirements; and the Department of Defense (DoD), Financial Management Regulation (FMR). The
accompanying financial statements account for all resources for which DON GF is responsible unless otherwise
noted.

Information relative to classified assets, programs, and operations is excluded from the statements or otherwise
aggregated and reported in such a manner that it is not discernable.

The DON GF financial statements include information from both financial systems and nonfinancial feeder
systems. The Defense Finance and Accounting Service, Cleveland (DFAS-CL) collects the financial system
information and incorporates it into the financial statements for DON GF. The DON GF collects financial
information from nonfinancial feeder systems through a data call process and submits it to DFAS-CL for
incorporation into the financial statements. On behalf of DON GF, DFAS-CL also collects information from
multiple sources, such as intragovernmental data from DON GF’s trading partners, which is incorporated into
the financial statements. The Defense Departmental Reporting System Data Collection Module (DDRS DCM)
captures certain required financial information from feeder systems for the DON GF financial statements.
The DDRS DCM identifies the information requirements to the source provider, provides an audit trail, and
integrates data into the financial statement preparation process.

The DON GF is unable to fully implement all elements of USGAAP and the OMB Circular No. A-136 due to
limitations of its financial and nonfinancial management processes and systems that support the financial
statements. The DON GF derives reported values and information for major asset and liability categories
largely from nonfinancial systems, such as inventory and logistic systems. These systems were designed to
support reporting requirements for maintaining accountability over assets and reporting the status of federal
appropriations rather than preparing financial statements in accordance with USGAAP. The DON GF continues
to implement process and system improvements addressing these limitations.

The Department of Defense Inspector General (DoDIG) issued an audit report dated November 9, 2011 and
identified several financial statement material weaknesses: Financial Management Systems; Fund Balance
with Treasury; Accounts Receivable; Other Assets; Inventory and Related Property; General Property, Plant,
and Equipment (GPP&E); Accounts Payable; Statement of Net Cost; Problem Disbursements; and Unobligated
Balances. The DON GF (as identified in the DON fiscal year (FY) 2011 Annual Statement of Assurance
dated August 26, 2011) recognizes those weaknesses as well as weaknesses associated with Collections and
Disbursements, Procure to Pay Processes, General Equipment, Military Equipment, Real Property, and Operating
Materiel and Supplies (OM&S) (and the associated weaknesses with Inventory).

1.B. Mission of the Reporting Entity
The DON was created on April 30, 1798 by an act of Congress (I Stat. 533; 5 U.S.C. 411-12). The overall mission
of DON is to maintain, train, and equip combat-ready Navy and Marine Corps forces capable of winning wars,
deterring aggression, and maintaining freedom of the seas.


                                                                                                              41
1.C. Appropriations and Funds
The DON receives appropriations and funds as general, working capital (revolving), trust, special, and deposit
funds. The DON uses these appropriations and funds (excluding deposit funds) to execute its missions and
subsequently report on resource usage.

General funds are used for financial transactions funded by congressional appropriations, including personnel,
operation and maintenance, research and development, procurement, and military construction.

These general funds also include supplemental funds enacted by the American Recovery and Reinvestment Act
(Recovery Act) of 2009. Details relating to Recovery Act appropriated funds are available on-line at
http://www.defenselink.mil/recovery.

The National Defense Sealift Fund is DON GF’s only revolving fund. Revolving funds are generally established
for carrying out specific activities. Revolving funds are financed through an appropriation or a transfer to
establish a corpus and are replenished through charges made for goods or services without fiscal year limitations.
The National Defense Sealift Fund receives an annual appropriation and has no corpus.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out
specific purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

Special fund accounts are used to record government receipts reserved for a specific purpose. Certain trust and
special funds may be designated as earmarked funds. Earmarked funds are financed by specifically identified
revenues, required by statute to be used for designated activities, benefits or purposes, and remain available over
time. The DON GF is required to separately account for and report on the receipt, use, and retention of revenues
and other financing sources for earmarked funds.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public
entity. They are not DON GF funds, and as such, are not available for DON GF’s operations. The DON GF is
acting as an agent or a custodian for funds awaiting distribution.

The DON GF is a party to allocation transfers with other federal agencies as a transferring (parent) entity or
receiving (child) entity. An allocation transfer is an entity’s legal delegation of authority to obligate budget
authority and outlay funds on its behalf. Generally, all financial activity related to allocation transfers (e.g.
budget authority, obligations, outlays) is reported in the financial statements of the parent entity. Exceptions to
this general rule apply to specific funds for which OMB has directed that all activity be reported in the financial
statements of the child entity. These exceptions include U.S. Treasury-Managed Trust Funds, Executive Office
of the President (EOP), and all other funds specifically designated by OMB. Based on an agreement with OMB,
funds for Security Assistance programs are reported separately from DON GF financial statements and notes.

The DON GF receives allocation transfers for the EOP for the Foreign Military Financing Program (meeting
the OMB exception),the International Military Education and Training program, U.S. Forest Service, and the
Federal Highway Administration. The activities for these funds are reported separately from the DoD financial
statements and reported to the parent.

1.D. Basis of Accounting
The DON GF’s financial management systems are unable to meet all full accrual accounting requirements. Many
of the DON GF’s financial and nonfinancial feeder systems and processes were designed and implemented prior
to the issuance of USGAAP. These systems were not designed to collect and record financial information on


42
the full accrual accounting basis as required by USGAAP. Most of DON GF’s financial and nonfinancial legacy
systems were designed to record information on a budgetary basis.

The DON financial statements and supporting trial balances are compiled from the underlying financial data
and trial balances of DON’s sub-entities. The underlying data is largely derived from budgetary transactions
(obligations, disbursements, and collections), from nonfinancial feeder systems, and accruals made for
major items such as payroll expenses, accounts payable, environmental liabilities, and Federal Employees’
Compensation Act (FECA) liabilities. Some of the sub-entity level trial balances may reflect known abnormal
balances resulting largely from business and system processes. At the consolidated DON level these abnormal
balances may not be evident. Disclosures of abnormal balances are made in the applicable footnotes, but only to
the extent that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes
into compliance with USGAAP. These actions include revising the accounting systems to record transactions
based on the U.S. Standard General Ledger (USSGL). DON GF’s financial data will be derived from budgetary
transactions, data from nonfinancial feeder systems, and accruals, until DON GF’s financial and nonfinancial
feeder systems and processes are updated to collect and report financial information as required by USGAAP.

1.E. Revenues and Other Financing Sources
The DON GF receives congressional appropriations as financing sources for general funds that expire annually,
on a multi-year basis, or do not expire. When authorized by legislation, these appropriations are supplemented
by revenues generated by sales of goods or services. The DON GF recognizes revenue as a result of costs
incurred for goods and services provided to other federal agencies and the public. Full-cost pricing is DON GF’s
standard policy for services provided as required by OMB Circular A-25, User Charges. The DON GF recognizes
revenue when earned within the constraints of its current system capabilities. In some instances, revenue is
recognized when bills are issued.

The DON GF does not include nonmonetary support provided by U.S. allies for common defense and mutual
security in amounts reported in the Statement of Net Cost and the Note 21, Reconciliation of Net Cost of
Operations to Budget. The U.S. has cost sharing agreements with countries having a mutual or reciprocal
defense agreement, where U.S. troops are stationed, or where the U.S. Fleet is in a port.

1.F. Recognition of Expenses
DON GF adheres to the DoD policy that requires the recognition of operating expenses in the period incurred.
Current financial and nonfinancial feeder systems were not designed to collect and record financial information
on the full accrual accounting basis. Estimates are made for major items such as payroll expenses, accounts
payable, environmental liabilities, and FECA liabilities. In the case of Operating Materiel & Supplies (OM&S),
operating expenses are generally recognized when the items are purchased. Efforts are underway to transition
to the consumption method for recognizing OM&S expenses. Under the consumption method, OM&S would be
expensed when consumed. Due to system limitations, in some instances expenditures for capital and other long-
term assets may be recognized as operating expenses. The DON GF continues to implement process and system
improvements to address these limitations.

1.G. Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intraentity activity and balances from consolidated
financial statements in order to prevent overstatement for business with itself. However, the DON GF cannot
accurately identify intragovernmental transactions by customer because DON GF’s systems do not track buyer
and seller data at the transaction level. Generally, seller entities within the DoD provide summary seller-side


                                                                                                              43
balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal DoD accounting
offices. In most cases, the buyer-side records are adjusted to agree with DoD seller-side balances and are then
eliminated. The DoD is implementing replacement systems and a standard financial information structure
that will incorporate the necessary elements that will enable DoD to correctly report, reconcile, and eliminate
intragovernmental balances.

The U.S. Treasury’s Federal Intragovernmental Transactions Accounting Policy Guide and Treasury Financial
Manual Part 2 – Chapter 4700, Agency Reporting Requirements for the Financial Report of the United States
Government, provide guidance for reporting and reconciling intragovernmental balances. While DON GF is
unable to fully reconcile intragovernmental transactions with all federal agencies, DON GF is able to reconcile
balances pertaining to investments in federal securities, borrowings from the U.S. Treasury and the Federal
Financing Bank, Federal Employees’ Compensation Act transactions with the Department of Labor, and benefit
program transactions with the Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included.
The Federal Government does not apportion debt and its related costs to federal agencies. The DoD’s financial
statements do not report any public debt, interest, or source of public financing, whether from issuance of debt or
tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this
financing ultimately may have been obtained through the issuance of public debt, interest costs have not been
capitalized since the U.S. Treasury does not allocate such costs to DoD.

1.H. Transactions with Foreign Governments and International Organizations
Each year, DON sells defense articles and services to foreign governments and international organizations under
the provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell
defense articles and services to foreign countries and international organizations generally at no profit or loss to
the Federal Government. Payment in U.S. dollars is required in advance.

1.I. Funds with the U.S. Treasury
The DON GF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of Defense
Finance and Accounting Service (DFAS), the Military Departments, the U.S. Army Corps of Engineers (USACE),
and the Department of State’s financial service centers process the majority of the DON’s cash collections,
disbursements, and adjustments worldwide. Each disbursing station prepares monthly reports to the U.S.
Treasury on checks issued, electronic fund transfers, interagency transfers, and deposits. The disbursing station
monthly reports are consolidated at the disbursing office level for financial reporting purposes.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation
on interagency transfers, collections received, and disbursements issued. The U.S. Treasury records these
transactions to the applicable Fund Balance with Treasury (FBWT) account. On a monthly basis, DON GF’s
FBWT is adjusted to agree with the U.S. Treasury accounts.

1.J. Foreign Currency
Cash is the total of cash resources under the control of DoD which includes coin, paper currency, negotiable
instruments, and amounts held for deposit in banks and other financial institutions. Foreign currency consists of
the total U.S. dollar equivalent of both purchased and nonpurchased foreign currencies held in foreign currency
fund accounts. Foreign currency is valued using the U.S. Treasury prevailing rate of exchange.



44
The majority of cash and all foreign currency is classified as “nonentity” and is restricted. Amounts reported
consist primarily of cash and foreign currency held by disbursing officers to carry out their paying, collecting,
and foreign currency accommodation exchange missions.

The DON GF conducts a significant portion of operations overseas. Congress established a special account
to handle the gains and losses from foreign currency transactions for five general fund appropriations:
(1) operations and maintenance; (2) military personnel; (3) military construction; (4) family housing operation
and maintenance; and (5) family housing construction. The gains and losses are calculated as the variance
between the exchange rate current at the date of payment and a budget rate established at the beginning of each
fiscal year. Foreign currency fluctuations related to other appropriations require adjustments to the original
obligation amount at the time of payment. The DON GF does not separately identify currency fluctuation
transactions.

1.K. Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable, claims receivable,
and refunds receivable. The DON GF recognizes an allowance for estimated uncollectible amounts due from
the public. In accordance with SFFAS No. 1, Accounting for Selected Assets and Liabilities, the methodology
for losses due to uncollectable amounts are based on an individual account analysis and/or group analysis.
The analysis is based on three years of receivable data. This data is used to determine the historical percentage
of collections in each age category of receivables. The DoD does not recognize an allowance for estimated
uncollectible amounts from other federal agencies. Claims against other federal agencies are to be resolved
between the agencies in accordance with dispute resolution procedures defined in the Intragovernmental
Business Rules published in the Treasury Financial Manual Bulletin No. 2011-08.

1.L. Direct Loans and Loan Guarantees
Not applicable.

1.M. Inventories and Related Property
The DON GF manages only military or government-specific materiel under normal conditions. Materiel is a
unique term that relates to military force management, and includes items such as ships, tanks, self-propelled
weapons, aircraft, etc., and related spares, repair parts, and support equipment. Items commonly used in and
available from the commercial sector are not managed in DON GF’s materiel management activities. The DON
GF holds materiel based on military need and support for contingencies. The DoD is currently developing a
methodology to be used to account for “inventory held for sale” and “inventory held in reserve for future sale,”
under the provisions of SFFAS No.3, Accounting for Inventory and Related Property.

Related property includes OM&S. The DON GF uses both the consumption method and the purchase method
of accounting for OM&S. DON GF OM&S is categorized as (1) operating materiel and supplies held for use,
(2) operating materiel and supplies held in reserve for future use (“held for repair”) (including munitions not
held for sale) and (3) excess, obsolete and unserviceable operating materiel and supplies. Items that are centrally
managed and stored, such as ammunition and engines, are generally recorded using the consumption method
and are reported on the Balance Sheet as OM&S. When current systems cannot fully support the consumption
method, DON GF uses the purchase method. Under this method, materiel and supplies are expensed when
purchased. During FY 2011 and 2010, DON GF expensed significant amounts using the purchase method
because the systems could not support the consumption method or management deemed that the item was
in the hands of the end user. This is a material weakness for the DoD and long-term system corrections are in
process. Once the proper systems are in place, these items will be accounted for under the consumption method
of accounting.


                                                                                                                    45
DON GF OM&S assets held for use and held for repair use three cost valuation methods: Standard Price (SP),
Latest Acquisition Cost (LAC), and Moving Average Cost (MAC). Excess, obsolete, and unserviceable OM&S
are cost valued using Net Realizable Value. The LAC method is used because legacy logistics systems were
designed for materiel management rather than accounting purposes. Although these systems provide visibility
and accountability over inventory and related property items, they do not maintain historical cost data necessary
to comply with SFFAS No. 3. Additionally, these legacy inventory systems cannot produce financial transactions
using the USSGL, as required by the Federal Financial Management Improvement Act of 1996 (P.L. 104-208)
(FFMIA). The DON is continuing to transition OM&S to the MAC method. Most transitioned balances, however,
were not baselined to auditable historical cost, and remain noncompliant with SFFAS No. 3.

The DON recognizes excess, obsolete, and unserviceable inventory and OM&S at a Net Realizable Value of $0
pending development of an effective means of valuing such materiel.

1.N. Investments in U.S. Treasury Securities
The DON GF reports investments in accordance with SFFAS No. 1, Accounting for Selected Assets and Liabilities.
The DON GF maintains U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums
or discounts are amortized over the term of the investments using the effective interest rate method or another
method obtaining similar results. The DON GF’s intent is to hold investments to maturity, unless they are
needed to finance claims or otherwise sustain operations. Consequently, a provision is not made for unrealized
gains or losses on these securities.

The DON GF invests in nonmarketable market-based U.S. Treasury securities, which are issued to federal
agencies by the U.S. Treasury’s Bureau of Public Debt. They are not traded on any securities exchange but mirror
the prices of particular U.S. Treasury securities traded in the government securities market.

1.O. General Property, Plant, and Equipment
The DON GF uses the estimated historical cost for valuing military equipment. The DoD identified the universe
of military equipment by accumulating information relating to program funding and associated military
equipment, equipment useful life, program acquisitions, and disposals to establish a baseline. The military
equipment baseline is updated using expenditure, acquisition and disposal information.

The DON GF General Property, Plant, and Equipment (PP&E) capitalization threshold is $100 thousand for
General PP&E.

In accordance with SFFAS No. 6, Accounting for Property, Plant and Equipment, General PP&E assets are
capitalized at historical acquisition cost when an asset has a useful life of two or more years and when the
acquisition cost equals or exceeds DoD’s capitalization threshold. The DoD also requires the capitalization of
improvements to existing General PP&E assets if the improvements equal or exceed the capitalization threshold
and extend the useful life or increase the size, efficiency, or capacity of the asset. The DoD depreciates all General
PP&E, other than land, on a straight-line basis.

The inventory reporting systems changed for military equipment in FY 2011. Effective the 1st Quarter,
FY 2011, military equipment is recorded in Defense Property Accountability System (DPAS), the Capital Asset
Management System-Military Equipment (CAMS-ME) is no longer used for recording military equipment
transactions.

When it is in the best interest of the government, the DON GF provides government property to contractors to
complete contract work. The DON GF either owns or leases such property, or it is purchased directly by the
contractor for the government based on contract terms. When the value of contractor-procured General PP&E

46
meets or exceeds the DoD capitalization threshold, federal accounting standards require that it be reported on
DON GF’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished equipment that
provides appropriate General PP&E information for financial statement reporting in accordance with Federal
Acquisition Regulations (FAR). The DoD requires DON to maintain, in their property systems, information on all
property furnished to contractors. These actions are structured to capture and report the information necessary
for compliance with federal accounting standards. The DON GF has not fully implemented this policy primarily
due to system limitations.

1.P. Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy as
prescribed in SFFAS No. 1, Accounting for Selected Assets and Liabilities, is to record advances or prepayments
in accordance with USGAAP. As such, payments made prior to the receipt of goods and services should be
reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when
the related goods and services are received. The DON GF has not implemented this policy primarily due to
system limitations.

1.Q. Leases
In accordance with SFFAS No. 5, Accounting for Liabilities of the Federal Government, lease payments for the
rental of equipment and operating facilities are classified as either capital or operating leases. When a lease is
essentially equivalent to an installment purchase of property (a capital lease) and the value equals or exceeds the
current capitalization threshold, DON GF records the applicable asset as though purchased, with an offsetting
liability, and depreciates it. The DON GF records the asset and the liability at the lesser of the present value of
the rental and other lease payments during the lease term (excluding portions representing executory costs paid
to the lessor) or the asset’s fair market value. The discount rate for the present value calculation is either the
lessor’s implicit interest rate or the government’s incremental borrowing rate at the inception of the lease. The
DON GF, as the lessee, receives the use and possession of leased property, for example real estate or equipment,
from a lessor in exchange for a payment of funds. An operating lease does not substantially transfer all the
benefits and risk of ownership. Payments for operating leases are expensed over the lease term as they become
payable.

Office space and leases entered into by DON GF are the largest component of operating leases and are based
on costs gathered from existing leases, General Services Administration (GSA) bills, and interservice support
agreements. Future year projections use the Consumer Price Index.

1.R. Other Assets
In accordance with SFFAS No.1, DON GF categorizes military and civil service employee pay advances and
certain contract financing payments (that are not reported elsewhere on DON GF’s Balance Sheet).

Advances are cash outlays made by DON GF to its employees, contractors, or others to cover a part of all of the
recipients’ anticipated expenses. Military pay advances are advance payments authorized for purposes intended
to ease hardships imposed by the lack of regular payments when a military member is mobilized, ordered to
duty at distant stations, or deployed aboard ships for more than 30 days. Civilian pay advances are payments
advanced to full time DON civilians intended to finance unusual employee expenses associated with oversea
assignments that are not otherwise reimbursed and to aid foreign assignment recruitment and retention.




                                                                                                                47
The DON GF conducts business with commercial contractors under two primary types of contracts: fixed price
and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts
can cause, DON GF may provide financing payments. Contract financing payments are defined in the Federal
Acquisition Regulations, Part 32, as authorized disbursements to a contractor prior to acceptance of supplies or
services by the Government. Contract financing payments clauses are incorporated in the contract terms and
conditions and may include advance payments, performance-based payments, commercial advances and interim
payments, progress payments based on cost, and interim payments under certain cost-reimbursement contracts.
It is DoD policy to record certain contract financing payments as other assets. The DON GF has not fully
implemented this policy primarily due to system limitations.

Due to inconsistencies in the posting logic for Nonfederal Advances and Prepayments, Navy GF is noncompliant
with the FFMIA, which requires agencies to comply with the Federal financial management systems
requirements, standards promulgated by the Federal Accounting Standards Advisory Board (FASAB), and the
USSGL at the transaction level.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental
payments, or progress payments based on a percentage or stage of completion. The Defense Federal Acquisition
Regulation Supplement authorizes progress payments based on a percentage or stage of completion only for
construction of real property, shipbuilding, and ship conversion, alteration, or repair. Progress payments based
on percentage or stage of completion are reported as Construction in Progress.

1.S. Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12,
Recognition of Contingent Liabilities Arising from Litigation, defines a contingency as an existing condition,
situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be
resolved when one or more future events occur or fail to occur. The DON GF recognizes contingent liabilities
when past events or exchange transactions occur, a future loss is probable, and the loss amount can be reasonably
estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but
there is at least a reasonable possibility of incurring a loss or additional losses. The DON GF’s risk of loss and
resultant contingent liabilities arise from pending or threatened litigation or claims and assessments due to
events such as aircraft, ship and vehicle accidents; medical malpractice; property or environmental damages; and
contract disputes.

Other liabilities also arise as a result of anticipated disposal costs for DON GF’s assets. Consistent with
SFFAS No. 6, Accounting for Property, Plant, and Equipment, recognition of an anticipated environmental
disposal liability begins when the asset is placed into service. DON GF adheres to the DoD’s policy, which is
consistent with SFFAS No. 5 Accounting for Liabilities of Federal Government, and states that nonenvironmental
disposal liabilities are recognized when management decides to dispose of an asset. The DoD recognizes
nonenvironmental disposal liabilities for military equipment nuclear-powered assets when placed into service.
These amounts are not easily distinguishable and are developed in conjunction with environmental disposal
costs.

1.T. Accrued Leave
Military leave, compensatory and annual leave earned by civilians, but not yet used, is reported as accrued
liabilities. The accrued balance is adjusted annually to reflect current pay rates. Any portions of the accrued
leave, for which funding is not available, are recorded as an unfunded liability. Sick leave for civilians is
expensed as taken.

48
1.U. Net Position
Net position consists of unexpended appropriations and cumulative results of operations. Unexpended
appropriations represent the amounts of budget authority that are unobligated and have not been rescinded
or withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for
payments have not been incurred. Cumulative results of operations represent the net difference between
expenses and losses, and financing sources (including appropriations, revenue, and gains), since inception.
The cumulative results of operations also include donations and transfers in and out of assets that were not
reimbursed.

1.V. Treaties for Use of Foreign Bases
The DoD has the use of land, buildings, and other overseas facilities that are obtained through various
international treaties and agreements negotiated by the Department of State. The DON purchases capital assets
overseas with appropriated funds; however, the host country retains title to the land and capital improvements.
Treaty terms generally allow DON continued use of these properties until the treaties expire. In the event
treaties or other agreements are terminated, use of the foreign bases is prohibited and losses are recorded for the
value of any nonretrievable capital assets. The settlement due to the U.S. or host nation is negotiated and takes
into account the value of capital investments and may be offset by the cost of environmental cleanup.

1.W. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections
matched at the transaction level to specific obligations, payables, or receivables in the source systems and those
reported by the U.S. Treasury.

Supported undistributed disbursements and collections are evidenced by corroborating documentation.
Unsupported undistributed disbursements and collections do not have supporting documentation for the
transaction and most likely would not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and
nonfederal categories based on the percentage of distributed federal and nonfederal accounts payable and
accounts receivable. Supported undistributed disbursements and collections are then applied to reduce accounts
payable and receivable accordingly. Unsupported undistributed disbursements are recorded as disbursements
in transit and reduce nonfederal accounts payable. Unsupported undistributed collections are recorded in
nonfederal other liabilities.

1.X. Fiduciary Activities
Fiduciary cash and other assets are not assets of the DON GF and are not recognized on the balance sheet.
Fiduciary activities are reported on the financial statement note schedules in accordance with SFFAS No. 31,
Accounting for Fiduciary Activities.

1.Y. Military Retirement and Other Federal Employment Benefits
Not applicable.

1.Z. Significant Events
Not applicable.




                                                                                                                49
                                              Note 2. Nonentity Assets
                                As of September 30                        2011                   2010
     (Amounts in thousands)

     1.	 Intragovernmental Assets
          A.	Fund Balance with Treasury                        $             386,464 $               421,725
          B.	 Accounts Receivable                                                  -                       -
          C.	 Other Assets                                     $                   - $                     -
          D.	Total Intragovernmental Assets                                  386,464                 421,725

     2.	 Nonfederal Assets
         A.	Cash and Other Monetary Assets                     $              106,042 $              107,278
         B.	 Accounts Receivable                                            3,503,156              3,483,615
         C.	 Other Assets                                                           -                      -
         D.	Total Nonfederal Assets                            $            3,609,198 $            3,590,893

     3.	 Total Nonentity Assets                                $            3,995,662 $            4,012,618

     4. 	 Total Entity Assets                                  $          478,591,631 $          459,207,830

     5.	 Total Assets                                          $          482,587,293 $          463,220,448

Nonentity assets are assets for which the DON GF maintains stewardship accountability and reporting
responsibility but are not available for DON GF normal operations.

Intragovernmental Fund Balance with Treasury
This nonentity asset category primarily represents amounts in DON’s GF Suspense Funds, Withheld State and
Local Taxes Fund, and Withheld Allotment of Compensation for Payment of Employee Organization Dues Fund.

Cash and Other Monetary Assets
This nonentity asset category represents disbursing officers’ cash, foreign currency, and undeposited collections
as reported on the Disbursing Officer’s Statement of Accountability. These assets are held by DON disbursing
officers as agents of the U.S. Treasury and are not available for DON’s use in normal operations.

Nonentity Nonfederal Accounts Receivable (Public)
The primary component of nonentity accounts receivable is an advance payment made to a contractor, which
remains in litigation and includes associated accrued interest. These receivable balances are being reported in
nonentity nonfederal accounts receivable since the original appropriation year has been cancelled and any funds
collected as a result of this litigation would be remitted to the U.S. Treasury.




50
                                     Note 3. Fund Balance with Treasury
                              As of September 30                         2011                   2010
    (Amounts in thousands)

    1.	 Fund Balances
         A.	Appropriated Funds                                $          136,450,135 $           131,782,542
         B.	 Revolving Funds                                               1,590,127               1,689,432
         C.	 Trust Funds                                                      19,458                  23,615
         D.	Special Funds                                                      2,083                   2,208
         E.	 Other Fund Types                                                386,464                 421,725
         F.	 Total Fund Balances                              $          138,448,267 $           133,919,522

    2.	 Fund Balances Per Treasury Versus Agency
         A. Fund Balance per Treasury                         $          139,907,357 $           135,351,248
         B. Fund Balance per DON                                         138,448,267             133,919,522

    3.	 Reconciling Amount                                    $             1,459,090 $            1,431,726

The total reconciling amount of $1.5 billion in Fund Balance with Treasury (FBWT) is due to cancelled authority,
trust receipts, saving deposit program differences, and parent-child transactions. The cancelled authority
balances, which comprise a majority of the reconciling amount, are still carried at Treasury, but not at the DON.
The reconciling difference related to allocation transfers results from instances in which DON allocates to or is
allocated funds from various governmental entities. In cases in which DON is allocated funds, the amount is
excluded from the Fund Balance per DON, but included in Fund Balance per Treasury. In cases in which DON
allocates funds, the amount is included in the Fund Balance per DON, but it is excluded from the Fund Balance
per Treasury.

Other Fund Types (Line 1.E) consists primarily of amounts in the following deposit and receipt accounts:
General Fund Proprietary Receipts, Pay of the Navy Deposit Fund, and Pay of the Marine Corps Deposit Fund.

DON acknowledges that it has a material internal control weakness in that it does not reconcile its FBWT
between accounting systems at the DON Level and Treasury records at the transaction level. To remediate the
weakness the DON has partnered with its accounting service provider DFAS to reconcile its FBWT and to sustain
this reconciliation in the future.


                                    Status of Fund Balance with Treasury
                              As of September 30                         2011                   2010
    (Amounts in thousands)

    1.	 Unobligated Balance
        A.	Available                                          $            29,803,065 $           31,804,998
        B.	 Unavailable                                                     3,402,816              3,197,676

    2.	 Obligated Balance not yet Disbursed                               107,478,039            101,601,677

    3.	 Nonbudgetary FBWT                                                    283,449                479,502

    4.	 NonFBWT Budgetary Accounts                                         (2,519,102)            (3,164,331)

    5.	Total                                                  $           138,448,267 $          133,919,522


                                                                                                                51
The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support FBWT and is a
reconciliation between budgetary and proprietary accounts. It primarily consists of unobligated and obligated
balances. The balances reflect the budgetary authority remaining for disbursement against current or future
obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary
authority that has not been set aside to cover outstanding obligations. The unavailable balance consists primarily
of funds invested in U.S. Treasury securities that are temporarily precluded from obligation by law. Certain
unobligated balances are restricted for future use and are not apportioned for current use. Unobligated balances
for trust fund accounts are restricted for use by the public law that established the funds.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not
received and those received but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit funds, unavailable
receipt accounts, clearing accounts and nonentity FBWT. Nonbudgetary FBWT consists of balances in receipt
accounts and clearing accounts.

NonFBWT Budgetary Accounts reduces the Status of FBWT. NonFBWT Budgetary Accounts include Trust
Fund investments in U.S. Treasury securities, unfilled customer orders without advance, and reimbursements
receivable.

Unobligated balances are segregated to show available and unavailable amounts in the notes schedule.
Unobligated, unavailable balances are restricted to future use and are not apportioned for current use.

Although funds have been appropriated, expired single year appropriations, such as Operation and Maintenance
and Military Personnel accounts, are not generally available for obligation because the period for obligation
established by law in the applicable appropriation act has lapsed. Multi-year accounts and “X” or no year
accounts are restricted based on their appropriation type. Trust funds and Earmarked funds are restricted to their
intended use.


                                 Note 4. Investments and Related Interest
                 As of September 30                                                       2011
                                                                                    Amortized
                                                                Amortization       (Premium) /                              Market Value
     (Amounts in thousands)                          Cost         Method            Discount         Investments, Net        Disclosure
     1.	 Intragovernmental Securities
          A.	Nonmarketable, Market-Based
             1.	 Military Retirement Fund        $          -                  $                 -   $              -   $                  -
             2.	 Medicare Eligible Retiree
                 Health Care Fund                           -                                 -                   -                    -
             3.	 US Army Corps of Engineers                 -                                 -                   -                    -
             4.	 Other Funds                            9,324                              (71)               9,253                9,259
             5.	 Total Nonmarketable, Market-
                 Based                           $      9,324                  $           (71)      $        9,253     $          9,259

        B.	 Accrued Interest                               36                                 -                  36                   36
        C.	 Total Intragovernmental Securities   $      9,360                  $           (71)      $        9,289     $          9,295

     2.	 Other Investments
        A.	Total Other Investments               $          -                  $                 -   $              -   $           N/A




52
                As of September 30                                                       2010
                                                                                   Amortized
                                                               Amortization       (Premium) /                              Market Value
    (Amounts in thousands)                          Cost         Method            Discount         Investments, Net        Disclosure


    1.	 Intragovernmental Securities
         A.	Nonmarketable, Market-Based
            1.	 Military Retirement Fund        $          -                  $                 -   $              -   $                  -
            2.	 Medicare Eligible Retiree
                Health Care Fund                           -                                 -                   -                    -
            3.	 US Army Corps of Engineers                 -                                 -                   -                    -
            4.	 Other Funds                            9,480                              (30)               9,450                9,453
            5.	 Total Nonmarketable,
                Market-Based                    $      9,480                  $           (30)      $        9,450     $          9,453

       B.	 Accrued Interest                               15                                 -                  15                   15
       C.	 Total Intragovernmental Securities   $      9,495                  $           (30)      $        9,465     $          9,468

    2.	 Other Investments
        A.	Total Other Investments              $          -                  $                 -   $              -   $           N/A

Intragovernmental Investments for Earmarked Funds
The U.S. Treasury securities are issued to the earmarked funds as evidence of its receipts and are an asset to the
DON GF and a liability to the U.S. Treasury. The Federal Government does not set aside assets to pay future
benefits or other expenditures associated with earmarked funds. The cash generated from earmarked funds
are deposited in the U.S. Treasury, which uses the cash for general Government purposes. Since the DON and
the U.S. Treasury are both part of the Federal Government, these assets and liabilities offset each other from the
standpoint of the Federal Government as a whole. For this reason, they do not represent an asset or a liability in
the U.S. Governmentwide financial statements.

The U.S. Treasury securities provide the DON GF with authority to draw upon the U.S. Treasury to make
future benefit payments or other expenditures. When the DON GF requires redemption of these securities
to make expenditures, the Government will finance them from accumulated cash balances by raising taxes or
other receipts, borrowing from the public or repaying less debt, or curtailing other expenditures. The Federal
Government uses the same method to finance all other expenditures.

Other Funds (Line 1.A.4) represents DON GF Trust Fund holdings in interest-bearing securities for the Naval
Academy General Gift Fund and the Navy General Gift Fund. These investments are Nonmarketable Market-
Based U.S. Treasury securities reported at cost, net of amortized premiums and discounts. In accordance with
the SFFAS No. 27, Identifying and Reporting Earmarked Funds, DON Trust Funds are reported as earmarked
funds.




                                                                                                                                              53
                                            Note 5. Accounts Receivable
                          As of September 30                                                2011
                                                                                 Allowance For Estimated
                                                              Gross Amount Due        Uncollectibles     Accounts Receivable, Net
     (Amounts in thousands)

     1.	 Intragovernmental Receivables                    $            321,788                   N/A $                321,788
     2.	 Nonfederal Receivables (From the Public)                    3,694,629                (15,312)              3,679,317

     3.	 Total Accounts Receivable                        $          4,016,417 $              (15,312) $            4,001,105

                          As of September 30                                                2010
                                                                                 Allowance For Estimated
                                                              Gross Amount Due        Uncollectibles     Accounts Receivable, Net
     (Amounts in thousands)

     1.	 Intragovernmental Receivables                    $            394,557                   N/A $                394,557
     2.	 Nonfederal Receivables (From the Public)                    3,711,724                (20,241)              3,691,483

     3.	 Total Accounts Receivable                        $          4,106,281 $              (20,241) $            4,086,040

The DON GF is currently working on complying with OMB Circular A-11, Section 20.4(b)(4). Non-compliance
results in unsupported departmental level adjustments, which negatively impacts achievement of the DON’s
audit readiness goals for its Statement of Budgetary Resources. DON is partnering with its service providers to
clarify guidance, resolve funding issues, and standardize business practices. In addition, the DON and DFAS
are aggressively pursuing collection mechanisms for amounts currently due from the public. Since the DON
is at risk of not collecting on these public Accounts Receivable, the DON GF is recognizing an allowance for
uncollectible amounts. The methodology used in determining the allowance amount is discussed in Note 1.K.

The DON GF Intragovernmental and Nonfederal Accounts Receivable balance is impacted by the Defense
Departmental Reporting System Audited Financial Statements (DDRS-AFS) accounting system as a result of
adjustments recorded for undistributed collections, trading partners, and the Navy A-12 Program required in the
preparation of the GF consolidated statements.


                                                 Note 6. Other Assets
                              As of September 30                                 2011                            2010
     (Amounts in thousands)

     1.	 Intragovernmental Other Assets
          A.	Advances and Prepayments                               $                 165,099      $                    263,633
          B.	 Other Assets                                                                  -                                 -
          C.	 Total Intragovernmental Other Assets                  $                 165,099      $                    263,633

     2.	 Nonfederal Other Assets
         A.	Outstanding Contract Financing Payments                 $              44,497,095      $                42,042,591
         B.	 Advances and Prepayments                                                 289,676                          220,572
         C.	 Other Assets (With the Public)                                            12,527                           13,345
         D.	Total Nonfederal Other Assets                           $              44,799,298      $                42,276,508

     3.	 Total Other Assets                                         $              44,964,397      $                42,540,141

54
Nonfederal Other Assets - Outstanding Contract Financing Payments (OCFP)
Contract terms and conditions for certain types of contract financing payments convey certain rights to the
Government that protect the contract work from state or local taxation, liens or attachment by the contractor’s
creditors, transfer of property, or disposition in bankruptcy. However, these rights should not be misconstrued
to mean that ownership of the contractor’s work has transferred to the Federal Government. The Federal
Government does not have the right to take the work, except as provided in contract clauses related to
termination or acceptance, and the DON GF is not obligated to make payment to the contractor until delivery
and acceptance. Some of the amounts reported as OCFP may be progress payments based on percentage or
stage of completion. However, DON GF is unable to identify these payments due to system limitations and all
amounts are reported as OCFP.

The balance of OCFP includes $43.7 billion in contract financing payments and an additional $775.4 million in
estimated future payments to contractors upon delivery and government acceptance of a satisfactory product.
(See additional discussion in Note 15, Other Liabilities).

Nonfederal Other Assets- Advances and Prepayments
Advances and prepayments include amounts reclassified from federal to nonfederal, to account for the inability
of the accounting system to properly account for these transactions.

Nonfederal Other Assets - Other Assets (With the Public)
Other Assets (With the Public) includes advance pay to DON GF military personnel, travel advances to military
and civilian personnel, and miscellaneous advances to contractors that are not considered OCFP.


                                 Note 7. Cash and Other Monetary Assets
                                As of September 30                         2011                 2010
    (Amounts in thousands)

    1.	Cash                                                       $            76,772 $             64,352
    2.	 Foreign Currency                                                       29,270               42,925
    3.	 Other Monetary Assets                                                       -                    -

    4.	 Total Cash, Foreign Currency, & Other Monetary Assets     $           106,042 $            107,277

Cash and Foreign Currency consist primarily of cash held by the DON Disbursing Officers to carry out their
payment, collection, and foreign currency accommodation exchange mission. Foreign Currency is also held
in overseas banks in support of contingency operations. The primary source of the amounts reported is the
Disbursing Officers Statements of Accountability. DON Disbursing Officers are agents of the U.S. Treasury.

Restriction on Cash, Foreign Currency, and Other Monetary Assets
Total Cash, Foreign Currency, and Other Monetary Assets reported are nonentity assets that are not available for
DON’s use in normal operations. Therefore, the $106.0 million in Cash and Foreign Currency is restricted as to
its use.


                                 Note 8. Direct Loan and Loan Guarantees
Not applicable.




                                                                                                             55
                                  Note 9. Inventory and Related Property
                              As of September 30                               2011                            2010
     (Amounts in thousands)

     1.	 Inventory, Net                                              $                    - $                            -
     2.	 Operating Materiel & Supplies, Net                                      66,782,595                     62,053,484
     3.	 Stockpile Materiel, Net                                                          -                              -

     4.	Total                                                        $           66,782,595 $                   62,053,484


                                                   Inventory, Net
Not applicable.


                                    Operating Materiel and Supplies, Net
                      As of September 30                                                2011
                                                                          Revaluation                            Valuation
                                                       OM&S Gross Value   Allowance            OM&S, Net          Method

     (Amounts in thousands)


     1.	 OM&S Categories
                                                                                                                 SP, LAC,
        A.	Held for Use                                $   61,924,364 $                 - $     61,924,364        MAC
                                                                                                                 SP, LAC,
        B.	 Held for Repair                                 6,093,922      (1,235,691)           4,858,231        MAC
        C.	 Excess, Obsolete, and Unserviceable             1,163,912      (1,163,912)                     -      NRV
        D.	Total                                       $   69,182,198 $    (2,399,603) $        66,782,595

                      As of September 30                                                2010
                                                                          Revaluation                            Valuation
                                                       OM&S Gross Value   Allowance            OM&S, Net          Method
     (Amounts in thousands)

     1.	 OM&S Categories
                                                                                                                 SP, LAC,
        A.	Held for Use                                $   57,697,650 $                 - $     57,697,650        MAC
                                                                                                                 SP, LAC,
        B.	 Held for Repair                                 6,401,691      (2,045,857)           4,355,834        MAC
        C.	 Excess, Obsolete, and Unserviceable             1,328,957      (1,328,957)                   -        NRV
        D.	Total                                       $   65,428,298 $    (3,374,814) $        62,053,484

      Legend for Valuation Methods:
     LAC = Latest Acquistion Cost	      NRV = Net Realizable Value
     SP = Standard Price		              MAC = Moving Average Cost

General Composition of Operating Materiel and Supplies (OM&S)
The consumption method shall be applied when accounting for OM&S and valued at historical cost or any
method approximating historical cost (e.g. Standard Price or Latest Acquisition Cost). Exceptions to the
consumption method are provided when (1) the OM&S are not significant amounts, (2) they are in the hands of
the end user for use in normal operations, or (3) it is not cost beneficial to apply the consumption method. In any
of these events, the purchases method may be used.

56
OM&S includes spare and repair parts, ammunition, conventional missiles, torpedoes, aircraft configuration
pods, and centrally managed aircraft engines. The categories of OM&S are Ammunitions and Munitions,
Principal End and Secondary Items, Sponsor Owned Materiel (SOM), Realtime Reutilization Asset Management
(RRAM) Materiel, and Other OM&S. The Moving Average Cost valuation method is used for a majority of
the OM&S categories; however Actual Cost and Latest Acquisition Cost are also valuation methods applied
depending on the legacy inventory system used to forecast OM&S cost.

Ammunition and Munitions are maintained in the DON Ordnance Information System and valued at latest
acquisition cost.

Principal End and Secondary Items include OM&S such as shipboard hull, mechanical and electronic equipment,
and uninstalled aircraft engines. They are items of such importance that central inventory control is required.
They normally possess one of the following characteristics: essential for combat or training; high dollar value;
difficult to procure or produce; or critical basic materiel or components. Principal End and Secondary Items are
valued at Moving Average Cost.

SOM is defined as programmatic materiel required in support of Program Managers’ mission requirements for
production, life cycle maintenance, and installation of systems and equipment. The materiel usage may involve,
but is not limited to: item fabrication, assembly, testing, manufacture, development, repair, or research and
development.

Materiel maintained and valued in RRAM is considered excess to the owner or materiel manager responsible for
the materiel, but may not be excess to DON. Standard price is used to value all stock-numbered items. Part-
numbered items are valued by best available information. Stock-numbered items represent common items
available in the supply system. Part-numbered items are older, unique items only used in specific types of
OM&S.

Other OM&S consists primarily of Fleet Hospitals held by the Bureau of Medicine and Surgery and War Reserve
materiel in possession of the U.S. Coast Guard.

Restrictions on the Use of OM&S
There are no known restrictions on the use of OM&S.

Decision Criteria for Identifying the Category to Which OM&S Is Assigned
The DON GF assigns OM&S items to a category based upon the type and condition of the asset. OM&S Held
for Use includes spare and repair parts, clothing and textiles, and petroleum products. OM&S Held for Repair
consists of damaged materiel held as inventory that is more economical to repair than to dispose. Excess,
Obsolete, and Unserviceable OM&S consists of scrap materiel or items that cannot be economically repaired and
are awaiting disposal. Raw Materials consist of items consumed in the production of goods for sale or in the
provision of services for a fee.


                                        Stockpile Materiel, Net
Not applicable.




                                                                                                            57
                                            Note 10. General PP&E, Net
              As of September 30                                                            2011
                                          Depreciation/                                              (Accumulated
                                          Amortization                                               Depreciation/
     (Amounts in thousands)                 Method        Service Life       Acquisition Value       Amortization)       Net Book Value


     1.	 Major Asset Classes
         A.	Land                             N/A             N/A         $            615,579                  N/A $            615,579
         B.	 Buildings, Structures, and
             Facilities                       S/L           20 or 40              40,040,721 $         (22,578,930)          17,461,791
         C.	 Leasehold Improvements           S/L         lease term                   6,530                (2,391)               4,139
         D.	Software                          S/L          2-5 or 10                  10,956               (10,439)                 517
         E.	 General Equipment                S/L           5 or 10               14,718,004            (8,816,331)           5,901,673
         F.	 Military Equipment               S/L           various              374,404,232          (177,473,327)         196,930,905
         G.	Shipbuilding
             (Construction-in-Progress)      N/A             N/A                                 -                   -                    -
         H.	Assets Under Capital
             Lease                            S/L         lease term                             -                   -                    -
         I.	 Construction-in-Progress
             (Excludes Military
             Equipment)                      N/A             N/A                   6,167,963                  N/A             6,167,963
         J.	 Other                                                                 1,193,031                     -            1,193,031
         K.	 Total General PP&E                                          $       437,157,016 $        (208,881,418) $       228,275,598

              As of September 30                                                            2010
                                          Depreciation/                                              (Accumulated
                                          Amortization                                               Depreciation/
     (Amounts in thousands)                 Method        Service Life       Acquisition Value       Amortization)       Net Book Value


     1.	 Major Asset Classes
         A.	Land                             N/A             N/A         $            614,992                  N/A $            614,992
         B.	 Buildings, Structures, and
             Facilities                       S/L           20 or 40              36,123,500 $         (21,104,162)          15,019,338
         C.	 Leasehold Improvements           S/L         lease term                   6,530                (2,079)               4,451
         D.	Software                          S/L          2-5 or 10                  11,594               (10,921)                 673
         E.	 General Equipment                S/L           5 or 10               14,979,935            (6,472,441)           8,507,494
         F.	 Military Equipment               S/L           various              353,215,833          (161,790,209)         191,425,624
         G.	Shipbuilding
             (Construction-in-
             Progress)                       N/A             N/A                                 -                   -                    -
         H.	Assets Under Capital
             Lease                            S/L         lease term                             -                   -                    -
         I.	 Construction-in-Progress
             (Excludes Military
             Equipment)                      N/A             N/A                   3,717,174                  N/A             3,717,174
         J.	 Other                                                                 1,214,773                     -            1,214,773
         K.	 Total General PP&E                                          $       409,884,331 $        (189,379,812) $       220,504,519

      Legend for Valuation Methods:
     S/L = Straight Line	     N/A = Not Applicable

Restrictions on the Use or Convertibility of General Property, Plant, & Equipment (PP&E)
The DON GF has the use of land, buildings, and other overseas facilities that are obtained through various
international treaties and agreements negotiated by the Department of State. Generally, treaty terms allow DON



58
continued use of these properties until the treaties expire. There are no other known restrictions on General
PP&E.

Accounting Standards for Military Equipment
Effective FY 2011, DON GF no longer uses the CAMS-ME for valuing Military Equipment. DPAS is the current
inventory reporting system for Military Equipment. The change in reporting system for reporting Military
Equipment created a significant change in the asset balance from FY 2010 to the ending balance at FY 2011. This
significant change was primarily a result of discrepancies of valuation methods between the two systems and
recording of depreciation. It was determined that a prior period adjustment was not recorded due to the inability
to obtain accurate and sufficient documentation to support the amount recorded in a prior period adjustment.

The DoD identified the universe of Military Equipment by accumulating information relating to program
funding and associated Military Equipment, equipment useful life, program acquisitions, and disposals to
establish a baseline. The Military Equipment baseline is updated using expenditure, acquisition, and disposals
information.

With the audit readiness clean-up efforts, DON identified additional aircraft that were not previously reported as
Military Equipment. These 1,106 aircraft, which are primarily trainers that are being reported for the first time,
have a net book value of approximately $8.0 billion.

During FY 2011, 231 new aircraft were added to the inventory and 156 were retired.

Other General PP&E consists of Real Property held in Caretaker Status. Caretaker is defined as those properties
that Navy still owns, but which are being held awaiting further disposal action, such as BRAC property awaiting
sale or transfer to another Federal agency.

Heritage Assets and Stewardship Land
SFFAS No. 29, Heritage Assets and Stewardship Land, requires note disclosures for these types of assets.
DON GF adheres to DON’s policy to preserve its heritage assets, which are items of historical, cultural,
educational, or artistic importance.

DON differences for Heritage Assets reported for FY 2010 ending and FY 2011 beginning balances are a result of
U.S. Marine Corps audit readiness clean-up efforts.

Heritage Assets within DON consist of buildings and structures, archeological sites, and museum collections.
The DON defines these as follows:

  n	 Buildings and Structures. Buildings and structures that are listed on, or eligible for listing on, the National
     Register of Historic Places, including Multi-Use Heritage Assets.

  n	 Archeological Sites. Sites that have been identified, evaluated, and determined to be eligible for or are listed
     on the National Historical Places in accordance with Section 110 National Historical Preservation Act.

  n	 Museum Collection Items. Items that are unique for one or more of the following reasons: historical or
     natural significance; cultural, educational, or artistic importance; or significant technical or architectural
     characteristics.




                                                                                                                      59
                                                                                      As of                                  As of
                                                                        Measure     September                              September
     Categories                                                         Quantity     30, 2010   Additions   Deletions       30, 2011
     Buildings and Structures                                            Each         23,174          35        13,174       10,035
     Archaeological Sites                                                Each         19,370         371         1,207       18,534
     Museum Collection Items (Objects, Not Including Fine Art)           Each        634,799     18,604          1,777      651,626
     Museum Collection Items (Objects, Fine Art)                         Each         33,069        768             21       33,816

The DON’s stewardship land consists mainly of mission essential land acquired by donation or devise. The DON
held the following acres of land as of September 30, 2011.

                                                    (acres in Thousands)
     Facility                                     As of September 30,                                             As of September 30,
     Code       Facility Title                            2010                Additions         Deletions                 2011

       9110     Government Owned Land                              6                      -                 1                      5
       9111     State Owned Land                                    -                     -                 -                       -
       9120     Withdrawn Public Land                         2,030                       -                 -                 2,030
       9130     Licensed and Permitted Land                       21                      -                 -                     21
       9140     Public Land                                         -                     -                 -                       -
       9210     Land Easement                                       -                     -                 -                       -
       9220     In-Leased Land                                      -                     -                 -                       -
       9230     Foreign Land                                        -                     -                 -                       -
                                                                                                Grand Total                   2,056
                                                                                   TOTAL - All Other Lands                        26
                                                                                TOTAL - Stewardship Lands                     2,030

Relationship of Heritage Assets to DON’s Mission
The overall mission of DON is to control and maintain freedom of the seas, project power beyond the sea, and
influence events and advance U.S. interests across the full spectrum of military operations. As this mission has
been executed, DON has become a large-scale owner of historic buildings, structures, districts, archeological sites
and artifacts, ships, aircraft, other cultural resources, and several hundred installations to include stewardship
land. Protection of these components of the nation’s heritage assets and stewardship land is an essential part of
DON’s mission; DON is committed to responsible cultural resources stewardship.


                                           Assets under Capital Lease
Not applicable.




60
                      Note 11. Liabilities Not Covered by Budgetary Resources
                             As of September 30                            2011                    2010
    (Amounts in thousands)

    1.	 Intragovernmental Liabilities
         A.	Accounts Payable                                    $                     - $                      -
         B.	 Debt                                                                     -                        -
        C.	 Other                                                              553,572                 571,299
        D.	Total Intragovernmental Liabilities                  $              553,572 $               571,299

    2.	 Nonfederal Liabilities
        A.	Accounts Payable                                     $                 88,870 $                77,278
        B.	 Military Retirement and Other Federal Employment
            Benefits                                                          1,654,800              1,692,779
        C.	 Environmental Liabilities                                        21,186,693             19,333,895
        D.	Other Liabilities                                                  4,764,684              4,550,479
        E.	 Total Nonfederal Liabilities                        $            27,695,047 $           25,654,431

    3.	 Total Liabilities Not Covered by Budgetary Resources    $            28,248,619 $           26,225,730

    4.	 Total Liabilities Covered by Budgetary Resources        $             8,582,533 $           11,009,490

    5.	 Total Liabilities                                       $            36,831,152 $           37,235,220

Liabilities Not Covered by Budgetary Resources are liabilities incurred which are not covered by available
budgetary resources. These include liabilities resulting from the receipt of goods or services in the current
or prior periods, or the occurrence of eligible events in the current or prior periods, for which revenues or
other sources of funds necessary to pay the liabilities have not been made available through Congressional
appropriations or earnings of the entity. Notwithstanding an expectation that the appropriations will be made,
whether they in fact will be made is completely at the discretion of the Congress.

Accounts payable not covered by budgetary resources is related to cancelled year accounts payable that are
not budgeted. Military Retirement and Other Federal Employment Benefits are future actuarial liabilities.
Environmental liabilities are estimates related to future events, such as cleanup of nuclear powered assets that
will be budgeted for when those assets are removed from service. Finally, other liabilities include annual leave,
estimated legal contingent liabilities, and the disposal of excess structures that are not currently budgeted for but
will become funded as future events occur.

Military Retirement and Other Federal Employment Benefits consists of unfunded FECA actuarial liabilities
not due and payable during the current fiscal year. Refer to Note 17, Military Retirement and Other Federal
Employment Benefits, for additional details and disclosures.

Intragovernmental Liabilities – Other consists primarily of funded FECA liabilities due to the Department of
Labor and unemployment compensation.

Nonfederal Liabilities – Other consists primarily of liabilities for annual leave, estimated legal contingencies, and
for the disposal of excess and obsolete structures.




                                                                                                                   61
                                            Note 12. Accounts Payable
                       As of September 30                                                 2011
                                                                               Interest, Penalties, and
     (Amounts in thousands)                              Accounts Payable       Administrative Fees       Total


     1.	 Intragovernmental Payables                  $           1,996,758 $                      N/A $     1,996,758
     2.	 Nonfederal Payables (to the Public)                       558,714                         12         558,726
     3.	Total                                        $           2,555,472 $                       12 $     2,555,484

                       As of September 30                                                 2010
                                                                               Interest, Penalties, and
     (Amounts in thousands)                              Accounts Payable       Administrative Fees       Total


     1.	 Intragovernmental Payables                  $           1,657,333 $                      N/A $     1,657,333
     2.	 Nonfederal Payables (to the Public)                     2,682,876                         17       2,682,893
     3.	Total                                        $           4,340,209 $                       17 $     4,340,226

Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received by
DON GF. The DON GF’s systems do not track intragovernmental transactions by customer at the transaction
level. Buyer-side accounts payable are adjusted to agree with interagency seller-side accounts receivable. This is
accomplished by reclassifying amounts between federal and nonfederal cost categories, and accruing additional
costs when necessary.

The DON GF Intragovernmental and Nonfederal Accounts Payable balance is impacted in the DDRS-AFS
accounting system as a result of adjustments recorded for undistributed collections and trading partners which
were required in the preparation of the consolidated statements.


                                                 Note 13. Debt
Not applicable.




62
                   Note 14. Environmental Liabilities and Disposal Liabilities
                                     As of September 30                                        2011           2010
    (Amounts in thousands)

    1.	 Environmental Liabilities–Nonfederal
         A.	Accrued Environmental Restoration Liabilities
            1.	 Active Installations—Installation Restoration Program (IRP) and Building
                Demolition and Debris Removal (BD/DR)                                    $    2,582,351 $    2,464,830
            2.	 Active Installations—Military Munitions Response Program (MMRP)               1,898,185        824,373
            3.	 Formerly Used Defense Sites—IRP and BD/DR                                             -              -
            4.	 Formerly Used Defense Sites–MMRP                                                      -              -

        B.	 Other Accrued Environmental Liabilities—Non-BRAC
            1.	 Environmental Corrective Action                                         $       69,811 $       77,011
            2.	 Environmental Closure Requirements                                             359,376        553,204
            3.	 Environmental Response at Operational Ranges                                    13,999         14,380
            4.	 Asbestos                                                                       348,972        206,305
            5.	 Non-Military Equipment                                                         513,504         78,818
            6.	 Other                                                                              831            810

        C.	 Base Realignment and Closure Installations
            1.	 Installation Restoration Program                                        $     1,413,412 $    1,459,029
            2.	 Military Munitions Response Program                                             163,564        146,931
            3.	 Environmental Corrective Action / Closure Requirements                           24,404         33,814
            4.	 Asbestos                                                                              -              -
            5.	 Non-Military Equipment                                                                -              -
            6.	 Other                                                                                 -              -

        D.	Environmental Disposal for Military Equipment / Weapons Programs
           1.	 Nuclear Powered Military Equipment / Spent Nuclear Fuel                  $    13,637,332 $   13,290,837
           2.	 Non-Nuclear Powered Military Equipment                                                 -              -
           3.	 Other Weapons Systems                                                            160,953        183,553

        E.	 Chemical Weapons Disposal Program
            1.	 Chemical Demilitarization - Chemical Materials Agency (CMA)             $             - $            -
            2.	 Chemical Demilitarization - Assembled Chemical Weapons Alternatives
                (ACWA)                                                                                -              -
            3.	 Other                                                                                 -              -

    2. Total Environmental Liabilities                                                  $    21,186,694 $   19,333,895

The unrecognized portion of the estimated total cleanup costs associated with General PP&E was $2.5 billion for
FY 2011 and $2.5 billion for FY 2010.

The “Other” type of environmental liabilities under Other Accrued Environmental Costs (Line 1.B.6) represents
an environmental estimate for disposal of Polychlorinated Biphenyls (PCBs) transformers located at various
Naval installations.

In addition to the liabilities reported above, the DON GF has the potential to incur costs for restoration initiatives
in conjunction with returning overseas Defense facilities to host nations. The DON is unable to provide a
reasonable estimate at this time because the extent of restoration required is not known.

                                                                                                                         63
1. Applicable Laws and Regulations of Cleanup Requirements

The following is a list of significant laws that affect DON’s conduct of environmental policy and regulations.

     n	 Superfund Amendments and Reauthorization Act of 1986
     n	 The Resource Conservation and Recovery Act of 1976 as amended by the Hazardous and Solid Waste
        Amendments of 1984
     n	 The Clean Water Act of 1977, amended the Federal Water Pollution Control Act
     n	 The Atomic Energy Act of 1954
     n	 The Nuclear Waste Policy Act of 1982
     n	 The Low Level Radioactive Waste Policy Amendments Act of 1986
     n	 The National Environmental Policy Act of 1970 (BRAC only)

2. Methods for Assigning Total Cleanup Costs to Current Operating Periods

Active Installations - Defense Environmental Restoration Program (DERP) Funded: Accrued DERP cleanup
liabilities represent the cost to correct past releases of hazardous constituents to PP&E, including acquired land
and Stewardship Land, as described in DoD FMR, Volume 4, Chapter 6.

Environmental cleanup of past releases is funded by DERP and carried out under applicable regulatory laws and
procedural guidance including the DoD’s “Management Guidance for DERP,” and “Environmental and Non-
Environmental Liabilities,” DoD FMR, Volume 4, Chapter 13.

Environmental restoration activities may be conducted at operating installations (IRP) and at Closed,
Transferred, and Transferring Munitions Ranges (MRP). Determining total environmental cleanup cost
considers, on a current cost basis, the anticipated actions required to complete the cleanup, as well as applicable
legal and/or regulatory requirements. Program management and support costs are also included in the
estimates. The estimate produced is based on site-specific information and use of cost models validated
in accordance with DoD Instruction 5000.61, “DoD Modeling and Simulation, Verification, Validation, and
Accreditation,” of May 2003. The cost estimates are developed and maintained in DON’s Normalization of Data
System (NORM) database. Such cost estimates are based on the current technology available.

MRP liabilities are specific to the identification, investigation and removal and remedial actions to address
environmental contamination at ranges that were closed prior to September 30, 2002. The contamination
may include munitions, chemical residues from military munitions and munitions scrap at ranges on active
installations that pose a threat to human health or the environment. CTC is not estimated until there is sufficient
site-specific data available to estimate the total cost to complete. However, DON uses the cost of the study as the
estimate until the study is completed.

The accrued environmental restoration costs do not include the costs of environmental compliance, pollution
prevention, conservation activities, contamination, or spills associated with current operations or treaty
obligations, all of which are accounted for as part of ongoing operations.

Environmental Disposal for Weapons Systems Programs: This area represents environmental liabilities associated
with the Nuclear Powered Aircraft Carriers and Submarines, Other Nuclear Powered Ships, Conventional
Ships, and Spent Nuclear Fuel. During FY 2006, under the DON Financial Improvement Program (FIP), DON
completed a review of the estimating methodology for determining the cost for disposal of ships and submarines.
This review resulted in an environmental and non-environmental liability estimate that more accurately reflects



64
the true costs of disposal. The estimating methodology is based on average cost per class of ship rather than an
average applied to all ships regardless of class.

3. Description of the Types of Environmental Liabilities and Disposal Liabilities

Active Installation-DERP Funded Accrued Environmental Restoration Liabilities.
The DoD FMR, Volume 6B, Chapter 10 requires that “any estimate produced must be based on site specific
information and use cost models validated in accordance with DoD Instruction 5000.61.” The DON
environmental cleanup cost estimate was based on 3,952 IRP and 330 MRP sites at 280 active installations.
The Marine Corps is included in these programs. As of 4th Quarter, FY 2011, DON estimated and reported
$4.5 billion for environmental restoration liabilities. This amount is comprised of $2.6 billion in Active
Installations-IRP liabilities and $1.9 billion in Active Installations-MRP liabilities.

Other Accrued Environmental Costs (Non-BRAC funds).
The DON defines Non-BRAC environmental units as those sites associated with on-going operations such as
solid waste management unit cleanup, landfill closure, permitted facilities, removal, replacement, retro fill, and/
or disposal of PCBs transformers, underground storage tank remedial investigation and closure. As part of
the DON FIP efforts, the Navy completed surveying, identifying, and estimating Non-BRAC units and began
recognizing the estimated environmental liability 1st Quarter, FY 2007. For 4th Quarter, FY 2011, the total Other
Accrued Environmental Liabilities is $1.3 billion. Of the total, the Navy portion is $1.0 billion while the Marine
Corps portion is $278.8 million.

Base Realignment and Closure.
BRAC environmental sites are environmental sites at DON installations that are or will be closed under the
congressionally mandated BRAC process. For FY 2011, DON estimated and reported $1.6 billion for BRAC
funded environmental liabilities. This amount includes $1.4 billion for IRP, $163.6 million for MMRP, and
$24.4 million for environmental corrective action and closure requirements. MMRP includes military munitions,
chemical residues from military munitions, and munitions scrap at locations on a BRAC installation.

Environmental Disposal for Weapons Systems Programs.
Environmental Disposal for Weapons Systems are those estimates associated with the environmental disposal
costs for DON Nuclear Weapons Programs that includes Nuclear Powered Aircraft Carriers and Submarines
and Other Nuclear Powered Ships, Conventional Ships, and Spent Nuclear Fuel. The DON reported an
environmental disposal liability for Weapons Systems Programs of $13.8 billion in FY 2011. This amount
includes Nuclear Powered Military Equipment of $10.9 billion, Spent Nuclear Fuel (Other) of $2.8 billion, and
Other Weapons Systems of $161.0 million.

4. Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to Inflation,
Deflation, Technology, or Applicable Laws and Regulations

Estimated environmental liabilities are adjusted for price growth (inflation) and increases in labor rates and
materials. Currently, there are no indications that any of the environmental liabilities for any category will be
adjusted due to deflation. As of FY 2011, there are no changes to the environmental liability estimates due to
changes in laws, regulations, and agreements with regulatory agencies. The DON does not have any estimates
that were changed due to advances in technology.




                                                                                                                65
5. Description of the Level of Uncertainty Regarding the Accounting Estimates used to calculate the Reported
Environmental Liabilities

The environmental liabilities for DON are based on accounting estimates, which require certain judgments and
assumptions that are reasonable based upon information available at the time the estimates are calculated. The
actual results may materially vary from the accounting estimates if agreements with regulatory agencies require
remediation to a different degree than when calculating the estimates. Liabilities can be further affected if
investigation of the environmental sites reveals contamination levels that differ from the estimate parameters.

Overall, DON has a reasonable level of confidence in the estimates recognized on the financial statements. This
reasonable level of confidence in the estimates is because the estimates for DERP/BRAC programs are based on
the CTC module of the NORM System. A verification, validation, and accreditation were completed by a third
party for CTC module of NORM, while the environmental program managers continue to validate the data.

For the Weapons systems, the environmental program managers base their environmental disposal estimates
on actual costs for similar projects. A change in the overall methodology in Weapons systems reflects a more
accurate estimate of what it will cost to dispose of the Weapons systems. Given the fact that the planned date for
opening the Department of Energy’s (DOE’s) planned waste repository has been delayed, there is uncertainty
associated with the estimate for spent nuclear fuel. As DOE’s plans are solidified, DON’s estimates for spent
nuclear fuel will change accordingly.

The DON believes that the total current environmental liabilities for BRAC are reasonable, based upon
information available at the time in calculating the estimates. However, as the FY 2005 BRAC closure activities
are implemented over the next several fiscal years, the actual results may vary materially from the required
reportable estimates. The variance will depend on additional information obtained from planned or ongoing
studies of the extent and concentration of site environmental contamination and based on property disposal
requirements to meet community needs. In addition to the possibility of the estimates changing on current
identified sites, DON may incur additional environmental cleanup and restoration costs if new sites are
identified as BRAC activities are implemented.

The DON believes that the current environmental liabilities for Other Accrued Environmental Liabilities (Non-
DERP) for 4th Quarter, FY 2011 are reasonable, based upon the information available at the time in calculating
the estimates and completing the fence to fence survey. However, as internal controls are implemented to sustain
this effort, changes to some of the estimates could occur. In addition to the possibility of some of the estimates
changing for the current list of identified units, DON may incur additional units and changes to estimates as the
inventory of units are reviewed annually. The BRAC Program Management Office has been notified that a status
change was made in the Other Environmental Liabilities (OEL) database. BRAC is developing eligibility criteria
for the reporting of these OEL units.




66
                                        Note 15. Other Liabilities
                     As of September 30                                                     2011
(Amounts in thousands)                                       Current Liability     Noncurrent Liability         Total


1.	Intragovernmental
    A.	Advances from Others                              $             286,402 $                    - $             286,402
    B.	 Deposit Funds and Suspense Account Liabilities                 386,464                      -               386,464
    C.	 Disbursing Officer Cash                                        107,433                      -               107,433
    D.	Judgment Fund Liabilities                                         6,605                      -                 6,605
    E.	 FECA Reimbursement to the Dept. of Labor                       164,436                217,859               382,295
    F.	 Custodial Liabilities                                        3,501,764                      -             3,501,764
    G.	Employer Contribution and Payroll Taxes
        Payable                                                         30,004                            -          30,004
    H.	Other Liabilities                                               168,220                            -         168,220

   I.	 Total Intragovernmental Other Liabilities         $           4,651,328 $              217,859 $           4,869,187

2.	Nonfederal
   A.	Accrued Funded Payroll and Benefits                $             398,789 $                          - $       398,789
   B.	 Advances from Others                                            550,805                            -         550,805
   C.	 Deferred Credits                                                      -                            -               -
   D.	Deposit Funds and Suspense Accounts                              (25,423)                           -         (25,423)
   E.	 Temporary Early Retirement Authority                                  -                            -               -
   F.	 Nonenvironmental Disposal Liabilities
       (1)	Military Equipment (Nonnuclear)                              12,844                207,551               220,395
       (2)	Excess/Obsolete Structures                                    3,218                535,369               538,587
       (3)	Conventional Munitions Disposal                                   -                      -                     -
   G.	Accrued Unfunded Annual Leave                                  2,896,018                      -             2,896,018
   H.	Capital Lease Liability                                                -                      -                     -
   I.	 Contract Holdbacks                                               71,252                      -                71,252
   J.	 Employer Contribution and Payroll Taxes
       Payable                                                          19,677                      -                19,677
   K.	 Contingent Liabilities                                           13,395              1,871,643             1,885,038
   L.	 Other Liabilities                                                 9,630                      -                 9,630

   M.	Total Nonfederal Other Liabilities                 $           3,950,205 $            2,614,563 $           6,564,768

3.	 Total Other Liabilities                              $           8,601,533 $            2,832,422 $         11,433,955




                                                                                                                               67
                          As of September 30                                                   2010
     (Amounts in thousands)                                     Current Liability     Noncurrent Liability         Total


     1.	Intragovernmental
         A.	Advances from Others                            $             302,441 $                    - $             302,441
         B.	 Deposit Funds and Suspense Account Liabilities               421,725                      -               421,725
         C.	 Disbursing Officer Cash                                      109,657                      -               109,657
         D.	Judgment Fund Liabilities                                      26,687                      -                26,687
         E.	 FECA Reimbursement to the Dept. of Labor                     168,025                214,077               382,102
         F.	 Custodial Liabilities                                      3,481,236                      -             3,481,236
         G.	Employer Contribution and Payroll Taxes Payable                77,587                      -                77,587
         H.	Other Liabilities                                             193,271                      -               193,271

        I.	 Total Intragovernmental Other Liabilities      $            4,780,629 $              214,077 $           4,994,706

     2.	Nonfederal
        A.	Accrued Funded Payroll and Benefits              $           1,091,417 $                          - $     1,091,417
        B.	 Advances from Others                                          689,422                            -         689,422
        C.	 Deferred Credits                                                     -                           -               -
        D.	Deposit Funds and Suspense Accounts                                  -                            -               -
        E.	 Temporary Early Retirement Authority                                -                            -               -
        F.	 Nonenvironmental Disposal Liabilities
            (1)	Military Equipment (Nonnuclear)                             8,792                245,247               254,039
            (2)	Excess/Obsolete Structures                                105,813                131,335               237,148
            (3)	Conventional Munitions Disposal                                 -                      -                     -
        G.	Accrued Unfunded Annual Leave                                2,904,512                      -             2,904,512
        H.	Capital Lease Liability                                              -                      -                     -
        I.	 Contract Holdbacks                                             77,852                      -                77,852
        J.	 Employer Contribution and Payroll Taxes Payable                70,995                      -                70,995
        K.	 Contingent Liabilities                                         10,679              1,524,164             1,534,843
        L.	 Other Liabilities                                              13,314                      -                13,314

        M.	Total Nonfederal Other Liabilities              $            4,972,796 $            1,900,746 $           6,873,542

     3.	 Total Other Liabilities                           $            9,753,425 $            2,114,823 $         11,868,248

Intragovernmental Other Liabilities (Line 1.H) consists primarily of Unemployment Compensation unfunded
liabilities.

Contingent Liabilities includes $775.0 million related to contracts authorizing progress payments based on cost
as defined in the FAR. In accordance with contract terms, specific rights to the contractors’ work vests with the
Federal Government when a specific type of contract financing payment is made. This action protects taxpayer
funds in the event of contract nonperformance. These rights should not be misconstrued as rights of ownership.
The DON GF is under no obligation to pay contractors for amounts greater than the amounts authorized in
contracts until delivery and government acceptance. Due to the probability the contractors will complete their
efforts and deliver satisfactory products, and because the amount of potential future payments are estimable,
the DON GF has recognized a contingent liability for estimated future payments which are conditional pending
delivery and government acceptance.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated
costs incurred to date by contractors and amounts authorized to be paid under progress payments based on


68
cost provisions within the FAR. Estimated contractor-incurred costs are calculated by dividing the cumulative
unliquidated progress payments based on cost by the contract-authorized progress payment rate. The balance of
unliquidated progress payments based on cost is deducted from the estimated total contractor-incurred costs to
determine the contingency amount.

Contingent Liabilities also include Overseas Contingency Operations (OCO), consisting of programs providing
funding for unexpected disasters overseas and within the United States. The programs involved in this effort are
as follows:

Japan Earthquake/Tsunami        China Earthquake                              Operation Noble Eagle
Guam Relocation                 Hurricane Gustav & Tropical Storm Hanna       OEF (Afghanistan)
Hurricane Katrina               Hurricane Ike                                 OEF (Horn of Africa)
Hurricane Rita                  H1N1 Influenza Effort                         OEF (Philippines)
Hurricane Wilma                 Pacific Natural Disaster Relief               OEF (Other)
Pakistan Earthquake             Haiti Earthquake Relief Effort                Operation Iraqi Freedom (OIF)
Hurricane Stan (Guatemala)      Haiti Migrant Operational Support             Operation New Dawn
Sigonella Flood                 Deepwater Horizon Oil Spill                   ODF (Bosnia No Fly Zone)
Hurricane 2006                  Tennessee Flooding                            IJF (Kosovo Peacekeeping)
Lebanon Evacuation              Pakistan Flooding                             HGE Georgia
Typhoon Ioke                    Typhoon Megi (Philippines)                    GWOT Cost Transfer From (-)
California Fires 2007           Natural Disaster Cost Transfer From (-)       Reimbursable
Northwest Flood 2007            Libyan Unrest                                 Capitol Police
Burma Relief                    Natural Disaster Reimbursable                 Bahrain Unrest

The DON GF FY 2011 Overseas Contingency Operations funding was obligated and expended as follows:

Bahrain Evacuation (BE) obligations incurred $594.0 thousand and total disbursements $576.0 thousand.

Operation Pacific (Japan) Passage obligations incurred $27.8 million and total disbursements $27.2 million.

Operation Tomodachi (Japan) obligations incurred $51.9 million and total disbursements $6.1 million.
Reimbursable OHDACA obligations incurred $23.1 million and total disbursements $22.0 million.


                                         Capital Lease Liability
Not applicable.


                             Note 16. Commitments and Contingencies
The DON is a party in various administrative proceedings and legal actions related to claims for environmental
damage, equal opportunity matters, and contractual bid protests, which may ultimately result in settlements
or decisions adverse to the Federal Government. These proceedings and actions arise in the normal course of
operations and their ultimate disposition is unknown. The DON has accrued contingent liabilities for legal
actions where the Office of General Counsel (OGC) considers an adverse decision probable and the amount of
the loss is measurable. In the event of an adverse judgment against the Government, some of the liabilities may
be payable from the U.S. Treasury Judgment Fund. The DON GF records contingent liabilities in Note 15, Other
Liabilities.



                                                                                                              69
For FY 2011, DON GF materiality threshold for reporting litigation, claims, or assessments is $49.3 million. The
DON OGC conducts a review of litigation and claims threatened or asserted involving DON GF to which the
OGC attorneys devoted substantial attention in the form of legal consultation or representation.

The DON currently has 16 cases that meet the existing FY 2011 DON GF materiality threshold. DON legal
counsel was unable to express an opinion concerning the likely outcome on 12 of 16 cases.

Due to the inherent uncertainties of litigation, lawyers generally refrain from expressing judgments as to
outcomes except in those relatively few clear cases. In response to a Department of Defense (DOD) Inspector
General Audit, “DoD Process for Reporting Contingent Legal Liabilities,” DON developed a methodology to
determine an estimate for contingent legal liabilities. DON recognized and disclosed an estimate for contingent
legal liabilities. The methodology considers the likelihood of an unfavorable outcome or potential liability and
provides an overall assessment of all cases currently pending and not on an individual case basis. The likelihood
of an unfavorable or potential liability was determined by using an average of the data from the current year-
to-date and the preceding two years. The total dollar amount of the cases closed was divided by the total dollar
amount claimed in those closed cases for each of the last two years plus current year, which were then used to
calculate the average. This average is based entirely on historical data and represents the percentage that has
historically been paid on claims. The merits of each individual case have not been taken into consideration.
The estimate for those cases considered reasonably possible to result in an adverse judgment against DON is
$496.6 million. Until sufficient historical data can be collected for the Navy Working Capital Fund, the DON GF
estimate will consider all DON funding sources together.

The DON is a party in numerous individual contracts that contain clauses, such as price escalation, award fee
payments, or dispute resolution, that may result in a future outflow of expenditures. Currently, DON has limited
automated system processes by which it captures or assesses these potential liabilities; therefore, the amounts
reported may not fairly present DON’s contingent liabilities.




70
            Note 17. Military Retirement and Other Federal Employment Benefits
                    As of September 30                                                       2011
                                                                          Assumed Interest   (Less: Assets Available to
    (Amounts in thousands)                              Liabilities           Rate (%)              Pay Benefits)          Unfunded Liabilities



    1.	 Pension and Health Actuarial Benefits
         A.	Military Retirement Pensions           $                  -                      $                       - $                          -
         B.	 Military Retirement Health Benefits                      -                                              -                            -
         C.	 Military Medicare-Eligible Retiree
             Benefits                                                 -                                              -                            -
         D.	Total Pension and Health Actuarial
             Benefits                              $                  -                      $                       - $                          -

    2.	 Other Actuarial Benefits
        A.	FECA                                     $      1,654,801                         $                    - $              1,654,801
        B.	 Voluntary Separation Incentive Programs                -                                              -                        -
        C.	 DoD Education Benefits Fund                            -                                              -                        -
        D.	Other                                                 218                                           (218)                       -
        E.	 Total Other Actuarial Benefits          $      1,655,019                         $                 (218) $             1,654,801

    3.	 Other Federal Employment Benefits          $                  -                      $                       - $                          -
    4.	 Total Military Retirement and Other
        Federal Employment Benefits:               $       1,655,019                         $                 (218) $            1,654,801

                    As of September 30                                                       2010
                                                                          Assumed Interest   (Less: Assets Available to
    (Amounts in thousands)                              Liabilities           Rate (%)              Pay Benefits)          Unfunded Liabilities



    1.	 Pension and Health Actuarial Benefits
         A.	Military Retirement Pensions           $                  -                      $                       - $                          -
         B.	 Military Retirement Health Benefits                      -                                              -                            -
         C.	 Military Medicare-Eligible Retiree
             Benefits                                                 -                                              -                            -
         D.	Total Pension and Health Actuarial
             Benefits                              $                  -                      $                       - $                          -

    2.	 Other Actuarial Benefits
        A.	FECA                                     $      1,692,779                         $                     - $             1,692,779
        B.	 Voluntary Separation Incentive Programs                -                                               -                       -
        C.	 DoD Education Benefits Fund                            -                                               -                       -
        D.	Other                                                  72                                             (72)                      -
        E.	 Total Other Actuarial Benefits          $      1,692,851                         $                   (72) $            1,692,779

    3.	 Other Federal Employment Benefits          $                  -                      $                       - $                          -
    4.	 Total Military Retirement and Other
        Federal Employment Benefits:               $       1,692,851                         $                   (72) $           1,692,779

Actuarial Cost Method Used and Assumptions:
The DON’s actuarial liability for workers’ compensation benefits is developed by the Department of Labor and
provided to DON only at the end of each fiscal year.

The estimate for future workers’ compensation (FWC) benefits includes the expected liability for death,
disability, medical, and miscellaneous costs for approved compensation cases, plus a component for incurred

                                                                                                                                                      71
but not reported claims. The liability is determined using a method that utilizes historical benefit payment
patterns related to a specific incurred period to predict the ultimate payments related to that period. Consistent
with past practice, these projected annual benefit payments have been discounted to present value using the
Office of Management and Budget’s economic assumptions for 10-year Treasury notes and bonds. Interest rate
assumptions utilized for discounting were as follows:

              Discount Rates
              3.535% in Year 1
              4.025% in Year 2 and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits,
wage inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer price index
medical or CPIMs) were applied to the calculation of projected future benefits. The actual rates for these factors
for the charge back year (CBY) 2011 were also used to adjust the methodology’s historical payments to current
year constant dollars. The compensation COLAs and CPIMs used in the projections for various CBY were as
follows:

CBY	        COLA	CPIM
2011 	      N/A 	   N/A
2012 	      2.10% 	 3.07%
2013 	      2.53% 	 3.62%
2014 	      1.83% 	 3.66%
2015 	      1.93% 	 3.73%
2016 	      2.00% 	 3.73%

The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis
was based on four tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of
the percentage change in the liability amount to the percentage change in the actual incremental payments,
(3) a comparison of the incremental paid losses per case (a measure of case-severity) in CBY 2011 to the average
pattern observed during the most current three charge back years, and (4) a comparison thereafter of the
estimated liability per case in the 2011 projection to the average pattern for the projections of the most recent
three projections.


                     Note 18. Disclosures Related to the Statement of Net Cost
     Intragovernmental Costs and Exchange Revenue
                              As of September 30                            2011                    2010
     (Amounts in thousands)

     1.	 Intragovernmental Costs                                 $           50,201,170 $            47,048,345
     2.	 Public Costs                                                       131,198,281             113,303,648
     3.	 Total Costs                                             $          181,399,451 $           160,351,993

     4.	 Intragovernmental Earned Revenue                        $           (3,546,706) $           (3,633,777)
     5.	 Public Earned Revenue                                               (8,916,321)             (1,613,218)
     6.	 Total Earned Revenue                                    $          (12,463,027) $           (5,246,995)

     7.	 Net Cost of Operations                                  $          168,936,424 $           155,104,998




72
The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal
Government supported by appropriations or other means. The intent of the SNC is to provide gross and net cost
information related to the amount of output or outcome for a given program or organization administered by a
responsible reporting entity. The DoD’s current processes and systems do not capture and report accumulated
costs for major programs based upon the performance measures as required by the Government Performance
and Results Act. The DoD is in the process of reviewing available data and developing a cost reporting
methodology as required by the SFFAS No. 4, Managerial Cost Accounting Concepts and Standards for the
Federal Government, as amended by SFFAS No. 30, Inter-entity Cost Implementation.

Intragovernmental costs and revenue represent transactions made between two reporting entities within the
Federal Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The DON GF systems do not track intragovernmental transactions by customer at the transaction level. Buyer-
side expenses are adjusted to agree with internal seller-side revenues. Expenses are generally adjusted by
(1) reclassifying amounts between federal and nonfederal expenses or (2) accruing additional accounts payable
and expenses. Intradepartmental revenues and expenses are then eliminated.

The DON GF’s financial management systems are unable to meet all of the requirements for full accrual
accounting. Many of DON’s financial and nonfinancial feeder systems and processes were designed and
implemented prior to the issuance of USGAAP for federal agencies. Most of DON’s legacy systems were
designed to record information on a budgetary basis, and do not track intragovernmental transactions by
customer at the transaction level. Considering these systems limitations, DON GF is unable to accurately
compare its intragovernmental costs and revenues with the corresponding balances of its intragovernmental
trading partners. Buyer-side accounts payable and expenses were adjusted to match seller-side accounts
receivable and revenues. This is accomplished by reclassifying amounts between federal and public cost
categories, and accruing additional costs when necessary. Intradepartmental revenues and expenses are then
eliminated.

In conjunction with the DoD, DON has undertaken efforts to determine the actions required to bring its financial
and nonfinancial feeder systems and processes into compliance with all elements of GAAP. One such action
is the revision of its accounting systems to record transactions based on the USSGL. Until such time as all of
the DON’s financial and nonfinancial feeder systems and processes are updated to collect and report financial
information as required by GAAP, DON GF’s financial data will be largely based on budgetary transactions
(obligations, disbursements, and collections), transactions from nonfinancial feeder systems, and adjustments for
known accruals of major items such as payroll expenses, accounts payable, and environmental liabilities.

The DON’s accounting systems generally do not capture information relative to Heritage Assets separately and
distinctly from normal operations.

General Disclosures Related to the SNC Note 18
Revenues:
Earned revenue (line 1.B) increased causing a net change of $7.2 billion. This increase is due to the recording of
OM&S assets to no year appropriations within Navy ERP which were not previously recorded within the legacy
system.

Other Gains increased by $6.0 billion and Unrealized Gains increased by $1.7 billion resulting from Navy ERP
postings to no year appropriations.


                                                                                                               73
Gross Costs:
Gross costs (line 1.A) increased causing a net change of $21.0 billion consisting primarily of Construction in
Progress (CIP), Military Equipment, Personal Property and Real Property.


         Note 19. Disclosures Related to the Statement of Changes in Net Position
Unexpended Appropriations represents the amount of spending authorized as of year-end that is unliquidated
or unobligated and has not lapsed, been rescinded, or withdrawn. No-year appropriations remain available for
obligation until expended. Annual appropriations remain available for upward or downward adjustment of
obligations until expended.

Cumulative Results of Operations represents the net results of operations since inception. Included as a reduction
in Cumulative Results of Operations are accruals for which related expenses require funding from future
appropriations. These future funding requirements include, among others (a) accrued annual leave earned
but not taken, (b) accrued salaries, (c) expenses for contingent liabilities, and (d) expenses for environmental
liabilities.

Appropriations Received on the Statement of Change in Net Position (SCNP) does not agree with Appropriations
Received on the Statement of Budgetary Resources (SBR) due to differences between proprietary and budgetary
accounting concepts and reporting requirements. The difference of $18.5 million is due to certain cash receipts
recorded as “Appropriations Received” on the SBR but recognized as exchange or non-exchange revenue (usually
in special and trust fund accounts) and reported on the SCNP in accordance with SFFAS No. 7, Accounting for
Revenue and Other Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting.

In the SCNP, all offsetting balances (i.e. transfers-in, transfers-out, revenue and expenses) for general fund
activity between earmarked and other (nonearmarked) funds are reported on the same lines. Therefore, the
Eliminations column contains all appropriate elimination entries, which net to zero within each respective line,
except for intra-entity imputed financing costs.

Description of Lines for Statement of Changes in Net Position
Donations and forfeitures of cash and property decreased by $13.0 million, as a result of a reduction of donations
to the government by a nonfederal entity, of financial resources, such as cash or nonfinancial resources such as
land or buildings. This reduction occurred in five appropriations within the DON GF.

Transfers-in/out without reimbursement decreased by a net effect of $1.0 billion, as a result of property transfers
in and out of NAVFAC.

Prior Period Adjustments made in the prior fiscal year are not appropriately reflected in the comparative
period. There was a prior period adjustment recorded for Marine Corps of $574.0 million in FY 2010, therefore
the reduction of prior period adjustments from FY 2010 to FY 2011 represents one hundred percent of that
adjustment.

Other Adjustments represent an increase of $370.0 million due to change in budget authority and rescissions in
accordance with Public Law.

For Other Financing Sources-Other, DON GF sustained a valuation gain of $16.7 billion for Military Equipment,
Operating Materiel & Supplies, and Real Property. This gain was a result of a change in inventory reporting
system. See note 10 for additional details in the inventory reporting system.



74
           Note 20. Disclosures Related to the Statement of Budgetary Resources
                             As of September 30                           2011                   2010

    (Amounts in thousands)

    1.	 Net Amount of Budgetary Resources Obligated for
        Undelivered Orders at the End of the Period                $       148,297,754 $          137,981,530
    2.	 Available Borrowing and Contract Authority at the End of
        the Period                                                                  -                        -

Apportionment Categories for Obligations Incurred
On the SBR: Obligations Incurred includes $189.1 billion of Direct Program Obligations and $9.3 billion of
Reimbursable Program Obligations.

On the Report on Budget Execution (SF-133):
 n	 Direct Obligations, Category A, amounts apportioned quarterly, are $109.7 billion.
 n	 Direct Obligations, Category B, amounts apportioned on a basis other than quarterly, are $79.3 billion.
 n	 Total Direct Obligations are therefore $189.1 billion.
 n	 The $5.9 million difference in direct obligations between the SBR and SF-133 is due to adjustments on the
     SBR to recognize fringe benefits, reclassify reimbursable obligations as noted below, and recognize other
     adjustments not captured in the field accounting systems.
 n	 Category A Reimbursable Obligations are $(449.2) thousand.
 n	 Category B Reimbursable Obligations are $9.3 billion.
 n	 Total Reimbursable Obligations are therefore $9.3 billion.

Other Disclosures
The SBR includes intraentity transactions because the statements are presented as combined.

As noted above, in terms of obligations, differences exist between the SF-133 and the SBR for a number of
reasons; including accruals recorded for fringe benefits, liabilities recorded for the Judgment Fund, and accruals
recorded for trading partner advances and liabilities.

Appropriations Received on the SCNP does not agree with Appropriations Received on the SBR due to
differences between proprietary and budgetary accounting concepts and reporting requirements. The difference
of $18.5 million is due to Trust Funds and Special Receipt Accounts included in the Appropriations Received line
of the SBR.

Legal limitations and restrictions affect the use of the unobligated balance of budget authority based upon
program and fiscal year in the applicable appropriation language or in the alternative provisions section at the
end of the appropriations act.

Permanent, Indefinite Appropriations
The National Defense Sealift Fund (NDSF) is operated under the authority of 10 U.S. Code 2218, which provides
for the construction (including design of vessels), purchase, alteration, and conversion of Department of Defense
(DoD) sealift vessels; operation, maintenance, and lease or charter of DoD vessels for national defense purposes;
installation and maintenance of defense features for national defense purposes on privately owned and operated
vessels that are constructed in the United States and documented under the laws of the United States; research
and development relating to national defense sealift; and expenses for maintaining the National Defense Reserve



                                                                                                                 75
Fleet, including the acquisition, alteration or conversion of vessels. During FY 2011, there was one transfer for
$1.3 million to NDSF.

The Environmental Restoration, Navy (ER, N) appropriation is a transfer account that funds environmental
restoration, reduction, and recycling of hazardous waste, removal of unsafe buildings and debris, and similar
purposes. Funds remain available until transferred and remain available for the same purpose and same
time period as the appropriations to which transferred. For FY 2011, there were four transfers from ER, N for
$303.8 million to the Operation and Maintenance, Navy appropriation. There were no transfers into ER, N during
FY 2011.


                    Note 21. Reconciliation of Net Cost of Operations to Budget
                                   As of September 30                                    2011             2010
     (Amounts in thousands)

     Resources Used to Finance Activities:
          Budgetary Resources Obligated:
             1.	 Obligations incurred                                             $    198,389,702 $    190,611,070
             2.	 Less: Spending authority from offsetting collections and
                 recoveries (-)                                                        (21,756,944)     (24,286,156)
             3.	 Obligations net of offsetting collections and recoveries              176,632,758      166,324,914
             4.	 Less: Offsetting receipts (+/-)                                            36,444         (141,386)
             5.	 Net obligations                                                       176,669,202      166,183,528
          Other Resources:
             6.	 Donations and forfeitures of property                                         652            5,258
             7.	 Transfers in/out without reimbursement (+/-)                              225,126        1,243,648
             8.	 Imputed financing from costs absorbed by others                           881,374          884,867
             9.	 Other (+/-)                                                            12,764,061       (3,959,432)
             10.	Net other resources used to finance activities                         13,871,213       (1,825,659)
     11.	Total Resources Used to Finance Activities                               $    190,540,415 $    164,357,869

     Resources Used to Finance Items not Part of the Net Cost of Operations:
             12.	Change in budgetary resources obligated for goods, services, and
                 benefits ordered but not yet provided:
                     12a.	Undelivered Orders (-)                                   $   (10,316,024) $    (8,050,975)
                     12b.	Unfilled Customer Orders                                        (622,769)        (606,655)
             13.	Resources that fund expenses recognized in prior periods (-)             (182,244)      (2,110,921)
             14.	Budgetary offsetting collections and receipts that do not affect
                 Net Cost of Operations                                                    (36,444)         141,386
             15.	Resources that finance the acquisition of assets (-)                  (16,206,440)     (21,358,668)
             16.	Other resources or adjustments to net obligated resources that do
                 not affect Net Cost of Operations:
                     16a.	Less: Trust or Special Fund Receipts Related to exchange
                          in the Entity’s Budget (-)                                             -                -
                     16b.	Other (+/-)                                                  (12,989,838)       2,710,529
     17.	Total resources used to finance items not part of the Net Cost of
         Operations                                                                $   (40,353,759) $   (29,275,304)
     18.	Total resources used to finance the Net Cost of Operations                $    150,186,656 $   135,082,565




76
                                  As of September 30                                   2011             2010
    (Amounts in thousands)

    Components of the Net Cost of Operations that will not Require or
        Generate Resources in the Current Period:
         Components Requiring or Generating Resources in Future Period:
            19.	Increase in annual leave liability                                $       30,795 $      1,702,301
            20.	Increase in environmental and disposal liability                       1,891,194          819,497
            21.	Upward/Downward reestimates of credit subsidy expense                          -                -
            22.	Increase in exchange revenue receivable from the public (-)               27,231         (189,330)
            23.	Other (+/-)                                                              283,146          699,205
            24.	Total components of Net Cost of Operations that will Require or
                Generate Resources in future periods                              $    2,232,366 $      3,031,673
         Components not Requiring or Generating Resources:
            25.	Depreciation and amortization                                     $   19,729,331 $     12,292,840
            26.	Revaluation of assets or liabilities (+/-)                            (6,173,204)         413,703
            27.	Other (+/-)
                    27a.	Trust Fund Exchange Revenue                                            -               -
                    27b.	Cost of Goods Sold                                                     -               -
                    27c.	Operating Materiel and Supplies Used                           5,527,002       4,349,363
                    27d.	Other                                                         (2,565,727)        (65,146)
            28.	Total Components of Net Cost of Operations that will not
                Require or Generate Resources                                     $   16,517,402 $     16,990,760
    29.	Total components of Net Cost of Operations that will not Require or
        Generate Resources in the Current Period                                  $    18,749,768 $    20,022,433
    30.	Net Cost of Operations                                                    $   168,936,424 $   155,104,998

The Reconciliation of Net Cost of Operations to Budget is designed to provide information about the total
resources used by an entity, to explain how those resources were used to finance orders for goods and services
not yet delivered, to acquire assets and liabilities, and to fund the entity’s net cost of operations. It is designed
to report the differences and facilitate the reconciliation of accrual based amounts used in the Statement of Net
Cost (SNC) and obligation-based amounts used in the Statement of Budgetary Resources. The computations and
presentation of items in the Reconciliation of Net Cost of Operations to Budget demonstrate that the budgetary
and proprietary information in an entity’s financial management system agrees.

Due to the DON financial system limitations, budgetary data does not agree with proprietary expenses and
capitalized assets. Differences between budgetary and proprietary data are previously identified deficiencies.
This causes a difference in net cost between the SNC and the Reconciliation of Net Cost of Operations to
Budget that requires an adjustment to the Reconciliation of Net Cost of Operations to Budget. For 4th Quarter,
FY 2011, an adjustment of ($106.0 million) was made to Resources that Finance the Acquisition of Assets so that
proprietary accounts reconcile with the budgetary accounts.

The Reconciliation of Net Cost of Operations to Budget is presented as a consolidated statement. However, the
following lines are presented as combined instead of consolidated due to interagency budgetary transactions not
being eliminated:

Obligations Incurred
Less: Spending Authority from Offsetting Collections and Recoveries
Obligations Net of Offsetting Collections and Recoveries
Less: Offsetting Receipts
Net Obligations
Undelivered Orders
Unfilled Customer Orders


                                                                                                                     77
Description of Other Lines
Resources Used to Finance Activities - Budgetary Resources Obligated:
The balance of $12.8 billion represents the data call net gains and losses recorded in relation to the capitalization
of assets such as Real Property, Operating Materiel and Supplies, and Military Equipment.

Resources Used to Finance Items not Part of the Net Cost of Operations:
The balance of ($13.0 billion) reflects net gains and losses recorded in relation to the net change of the value of
assets such as Military Construction, Ammunition, Real Property, and Shipbuilding and Conversion.

Components Requiring or Generating Resources in Future Periods:
The balance of $283.1 million consists primarily of accrued expenses for Contingent Legal Liabilities and
Environmental Liabilities.

Components Not Requiring or Generating Resources:
The balance of ($2.6 billion) consists primarily of crosswalk change for CIP reporting.


               Note 22. Disclosures Related to Incidental Custodial Collections
Not applicable.




78
                                       Note 23. Earmarked Funds
                                                                                                 2011
                                                                    Medicare Eligible
                                                     Military      Retiree Health Care   Other Earmarked
    BALANCE SHEET                                Retirement Fund          Fund                Funds        Eliminations       Total

As of September 30
(Amounts in thousands)
ASSETS
Fund balance with Treasury                       $            -                    -           21,541                     -    21,541
Investments                                                   -                    -            9,289                     -     9,289
Accounts & Interest Receivable                                -                    -                                      -         -
Other Assets                                                  -                    -                                      -         -
Total Assets                                     $            -                    -           30,830                     -    30,830

LIABILITIES and NET POSITION
Military Retirement Benefits and Other Federal
   Employment Benefits                           $            -                    -                -                     -          -
Other Liabilities                                             -                    -            5,285                     -      5,285
Total Liabilities                                $            -                    -            5,285                     -      5,285

Unexpended Appropriations                                     -                    -                -                     -         -
Cumulative Results of Operations                              -                    -           25,545                     -    25,545
Total Liabilities & Net Position                 $            -                    -           30,830                     -    30,830


    STATEMENT OF NET COST
For the period ended September 30
Program Costs                                    $            -                    -           26,678                     -    26,678
Less Earned Revenue                                           -                    -                -                     -         -
Net Program Costs                                $            -                    -           26,678                     -    26,678
Less Earned Revenues Not Attributable to
   Programs                                                   -                    -                -                     -         -
Net Cost of Operations                           $            -                    -           26,678                     -    26,678

STATEMENT OF CHANGES IN NET
POSITION
For the period ended September 30
Net Position Beginning of the Period             $            -                    -           33,682                     -    33,682
Net Cost of Operations                                        -                    -           26,678                     -    26,678
Budgetary Financing Sources                                   -                    -           18,541                     -    18,541
Other Financing Sources                                       -                    -                -                     -         -
Change in Net Position                           $            -                    -           (8,137)                    -    (8,137)

Net Position End of Period                       $            -                    -           25,545                     -    25,545




                                                                                                                                         79
                                                                                                      2010
                                                                         Medicare Eligible
                                                          Military      Retiree Health Care   Other Earmarked
         BALANCE SHEET                                Retirement Fund          Fund                Funds        Eliminations       Total

     As of September 30
     (Amounts in thousands)
     ASSETS
     Fund balance with Treasury                       $            -                    -           25,823                     -    25,823
     Investments                                                   -                    -            9,465                     -     9,465
     Accounts & Interest Receivable                                -                    -                -                     -         -
     Other Assets                                                  -                    -                -                     -         -
     Total Assets                                     $            -                    -           35,288                     -    35,288

     LIABILITIES and NET POSITION
     Military Retirement Benefits and Other Federal
        Employment Benefits                           $            -                    -                -                     -          -
     Other Liabilities                                             -                    -            1,606                     -      1,606
     Total Liabilities                                $            -                    -            1,606                     -      1,606

     Unexpended Appropriations                                     -                    -                -                     -         -
     Cumulative Results of Operations                              -                    -           33,682                     -    33,682
     Total Liabilities & Net Position                 $            -                    -           35,288                     -    35,288


         STATEMENT OF NET COST
     For the period ended September 30
     Program Costs                                    $            -                    -           20,135                     -    20,135
     Less Earned Revenue                                           -                    -                -                     -         -
     Net Program Costs                                $            -                    -           20,135                     -    20,135
     Less Earned Revenues Not Attributable to
        Programs                                                   -                    -                -                     -         -
     Net Cost of Operations                           $            -                    -           20,135                     -    20,135

     STATEMENT OF CHANGES IN NET
     POSITION
     For the period ended September 30
     Net Position Beginning of the Period             $            -                    -           26,171                     -    26,171
     Net Cost of Operations                                        -                    -           20,135                     -    20,135
     Budgetary Financing Sources                                   -                    -           27,644                     -    27,644
     Other Financing Sources                                       -                    -                2                     -         2
     Change in Net Position                           $            -                    -            7,511                     -     7,511

     Net Position End of Period                       $            -                    -           33,682                     -    33,682

Earmarked funds are financed by specifically identified revenues and are required by statute to be used for
designated activities or purposes. The DON has seven earmarked funds. Four are categorized as Special Funds
and three are categorized as Trust Funds. A list of these earmarked funds and a brief description of each follows
below. There have been no changes in legislation during or subsequent to the reporting period that significantly
changes the purpose of any of the seven funds or that redirects a material portion of the accumulated balances
of any of the seven funds. Generally, revenues for DON’s earmarked funds are inflows of resources to the
Government.




80
Special Earmarked Funds

Wildlife Conservation, Military Reservations, Navy –
This fund, authorized by 16 United States Code 670b, provides for the development and conservation of fish and
wildlife and recreational facilities on military installations. Proceeds from the sale of fishing and hunting permits
are used for these programs at Navy and Marine Corps installations charging such user fees. These programs are
carried out through cooperative plans agreed upon by the local representatives of the Secretary of Defense, the
Secretary of the Interior, and the appropriate agency of the State in which the installation is located.

Kaho’olawe Island Conveyance, Remediation and Environmental Restoration Fund, Navy –
This fund, authorized by 107 Statute 1483, was established to recognize and fulfill the commitments made on
behalf of the United States to the people of Hawaii and to return to the State of Hawaii the Island of Kaho’olawe.
Congress has found it to be in the national interest and an essential element in the Federal Government’s
relationship with the State of Hawaii the conveyance, clearance, or removal of unexploded ordnance,
environmental restoration, control of access to the Island and future use of the Island be undertaken in a manner
consistent with the enhancement of that relationship, the Department of Defense’s military mission, the federal
interest, and applicable provisions of law. This fund is financed by congressional appropriations.

Rossmoor Liquidating Trust Settlement Account –
The Rossmoor Liquidating Trust account was established by Section 2208 of Public Law 104-106; the National
Defense Authorization Act of 1996. Per the statute, monies awarded the United States when litigation is settled in
favor of the Rossmoor Liquidating Trust is deposited into this account. The monies are made available to DON
solely for the acquisition or construction of military family housing in, or in the vicinity of, San Diego, California.

Ford Island Improvement Account –
The Ford Island Improvement fund is authorized by 10 United States Code 2814 and was established to carry
out improvements to property and facilities that will deliver overall benefits to DON at the Pearl Harbor Naval
Complex at Ford Island, Hawaii. Ford Island is a central feature in the Pearl Harbor National Historic Landmark.
The Ford Island legislation allows DON to sell or lease properties in Hawaii and use the proceeds to develop
Ford Island.

Trust Earmarked Funds

DON General Gift Fund –
This trust fund is authorized by 10 United States Code 2601. Under the provisions of this statute, the Secretary
of the Navy may accept, hold, administer, and spend any gift, devise, or bequest of real or personal property,
made on the condition that it be used for the benefit, or in connection with the establishment, operation, or
maintenance of a school, hospital, library, museum, cemetery, or other institution under the jurisdiction of DON.

Ships Stores Profit, Navy –
This trust fund is authorized by 10 United States Code 7220. Deposits to this fund are derived from profits
realized through the operation of ships’ stores and from gifts accepted for providing recreation, amusement, and
contentment for enlisted members of the Navy and Marine Corps.

U.S. Naval Academy General Gift Fund –
This trust fund is authorized by 10 United States Code 6973. Under the provisions of this statute, the Secretary of
the Navy may accept, hold, administer, and spend any gift, devise, or bequest of personal property, made on the
condition that it be used for the benefit of, or in connection with, the United States Naval Academy, or the Naval
Academy Museum, its collections, or its services.


                                                                                                                   81
                                              Note 24. Fiduciary Activities
                        For the period ended September 30                 2011                   2010
     (Amounts in thousands)

     1.	   Fiduciary net assets, beginning of year               $                28,384 $          26,731
     2.	   Fiduciary revenues                                                          -                 -
     3.	   Contributions                                                          47,803            39,172
     4.	   Investment earnings                                                     2,905             2,319
     5.	   Gain (Loss) on disposition of investments, net                              -                 -
     6.	   Administrative and other expenses                                           -                 -
     7.	   Distributions to and on behalf of beneficiaries                       (46,323)          (39,838)
     8.	   Increase/(Decrease) in fiduciary net assets           $                 4,385 $           1,653

     9.	 Fiduciary net assets, end of period                     $               32,769 $           28,384

                        For the period ended September 30                 2011                   2010
     (Amounts in thousands)

     Fiduciary Assets
        1.	 Cash and cash equivalents                            $               32,769 $           28,384
        2.	 Investments                                                               -                  -
        3.	 Other Assets                                                              -                  -

     Fiduciary Liabilities
        4.	 Less: Liabilities                                    $                    - $                -

     Total Fiduciary Net Assets                                  $               32,769 $           28,384

The Department of the Navy’s Fiduciary Activity consists of funds in the Savings Deposit Program. Under 10,
USC, §1035, and Department of Defense Financial Management Regulation, Volume 7A, Chapter 51, deployed
service members of both the Navy and Marine Corps can earn 10 percent interest on up to $10 thousand
deposited into the program. Funds are held in the program during the member’s tour of duty and are paid out
within 90 days after the member leaves the eligible region. The accounts included in the balance are 17X6025 for
Navy and 17X6026 for Marine Corps.




82
                                             Note 25. Other Disclosures
                  As of September 30                                                2011
    (Amounts in thousands)                        Land and Buildings   Equipment           Other             Total


    1. Entity as Lessee - Operating Leases
        Future Payments Due
            Fiscal Year
                    2012                          $        146,970 $               - $             5,824 $     152,794
                    2013                                   150,845                 -               5,970       156,815
                    2014                                   154,830                 -               6,119       160,949
                    2015                                   158,928                 -               6,272       165,200
                    2016                                   163,143                 -               6,429       169,572
                    After 5 Years                          167,479                 -               6,589       174,068

    Total Future Lease Payments Due               $        942,195 $               - $        37,203 $         979,398


                                               Note 26. Restatements
Not applicable.




                                                                                                                         83
DON General Fund Required Supplementary Stewardship Information

                                  Investments in Research and Development
                               Yearly Investment in Research and Development
                                         For Fiscal Years 2007 through 2011
                                                  ($ in Millions)

Categories                                                  FY11          FY10           FY09         FY08         FY07
   Basic Research                                         $     547     $     552      $     523    $     452    $     448
   Applied Research                                             728           752            854          748          781
   Development
   	 Advanced Technology Development                             821             859          883          752          801
   	 Advanced Component Development and Prototypes             4,080           3,910        3,464        3,329        3,229
   	 System Development and Demonstration                      6,429           7,325        8,288        8,141        8,731
   	 Research, Development, Test, and Evaluation
      Management Support                                       1,285           1,293        1,245        1,112        1,034
  	 Operational Systems Development                            4,285           4,505        4,249        3,943        3,810
Totals                                                    $   18,175    $     19,196   $   19,506   $   18,477   $   18,834

Investments in Research and Development
Investment values are based on Research and Development outlays (expenditures). Outlays are used because
current Department of the Navy (DON) systems are unable to fully capture and summarize costs in accordance
with standards promulgated by the Federal Accounting Standards Advisory Board.

Research and Development (R&D) programs are classified as Basic Research, Applied Research, and
Development. The definition of each R&D category and subcategory is explained below.

A. Basic Research
Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of
phenomena and of observable facts without specific applications, processes, or products in mind. Basic Research
involves the gathering of a fuller knowledge or understanding of the subject under study. Major outputs are
scientific studies and research papers.

The following are two representative program examples for the Basic Research category.

Training Science & Technology:
The Office of Naval Research’s (ONR) game and simulation-based training research focuses on the design and
development of frameworks for training and assessing complex performance in non-linear, 3D computer-based
games and simulations.

Central to these unique frameworks is the incorporation of domain ontology with Bayesian networks. This
combination enables the framework for both 1.) identifying what cognitive constructs need to be taught, and
2.) predicting player competencies based on observed sequences of actions within the game. Current research
examines the damage control domain related to firefighting and flooding aboard naval ships. The key constructs
being assessed are communication, situational awareness and decision-making.

The Navy’s need for high-quality instruction and reliable assessment of complex performances necessitates the
need for consistent and valid methodologies, which often include the use of games and simulations. However,

84
assessing performance in these settings can be difficult—particularly in nonlinear simulations where more than
one pathway to success or failure exists. The challenge lies not in capturing the raw data from game-play, but
in interpreting what a player’s actions and decisions mean in the broader context of cognitive readiness for a
particular job function or task.

ONR is investigating game-based training with the support of the Center for Naval Engineering in Norfolk and
San Diego. A third generation damage control game/simulation is being built to assess situational awareness,
communication abilities and decision-making skills. This environment challenges the player to manage a
main space fire and flood casualty from the perspective of multiple roles aboard a Flight II DDG. It assesses
the player’s ability to organize personnel, manage resources, follow established protocols, and coordinate
containment actions across multiple events. This next-generation trainer will be used in classroom assessments as
well as for practice among damage control teams aboard Navy ships.

What this research will accomplish:
 n	 These advanced training systems will yield insights about personnel skill sets, either individually or in a
     team environment, that are otherwise difficult to assess through conventional means, such as observed
     actions.
 n	 Its automation will reduce the demands placed on instructors and human evaluators of performance.

Undersea Medicine:
The Office of Naval Research has funded research in Undersea Medicine since the early 1950’s, and in 2007,
Undersea Medicine was designated as a National Naval Responsibility (NNR). Efforts have shifted from defining
safety/performance windows for undersea operations to leveraging new biomedical and electrophysiological
technologies to directly address and explore novel approaches to undersea disorders and performance
challenges.

The Undersea Medicine Program seeks innovative biomedical approaches to reduce the medical risks of
operation in the hostile undersea environment, improve undersea mission flexibility and efficiency, and decrease
the medical logistic burden of undersea operations.

The program explores novel interventions against decompression sickness, hyperbaric oxygen toxicity,
innovations to decrease the medical logistic burden for undersea operations, and new approaches to improve the
health, safety, and performance of submarine forces and divers.

The Undersea Medicine Program is working on specific technologies to predict/prevent hyperbaric oxygen
toxicity, ensure safe submarine escape and rescue, ensure safe diving in contaminated water, monitor submarine
atmospheric conditions, monitor carbon dioxide levels in re-breathers, and interventions against underwater
sound/blast effects.

What this research will accomplish:
 n	 The capability to operate deeper, longer, safer, and cheaper- depends on our ability to develop novel
     approaches to undersea biomedical issues.
 n	 Improve capability to operate safely in a hostile environment, increase mission flexibility/efficiency and
     decrease the logical burden of treating injuries while decreasing the morbidity and mortality of undersea
     operations.

B. Applied Research
Applied Research is the systematic study to gain knowledge or understanding necessary for determining the
means by which a recognized and specific need may be met. It is the practical application of such knowledge

                                                                                                              85
or understanding for the purpose of meeting the recognized need. This research points toward specific military
needs with a view toward developing and evaluating the feasibility and practicability of proposed solutions and
determining their parameters. Major outputs are scientific studies, investigations, and research papers, hardware
components, software codes, and limited construction of, or part of, a weapon system to include non system
specific development efforts.

The following are two representative program examples for the Applied Research category.

Solid State Fiber Laser:
The Office of Naval Research’s Solid-State Fiber Laser provides Incoherent Fiber Lasers for short asymmetric
threat engagement and Coherent Combined Fiber Lasers for long range aircraft self protection. This future fiber
laser weapon system is being designed to be game changing and fit into aircraft pods. The capability of having
speed of-light delivery for a wide range of missions and threats is a key element of a future aircraft layered
defense.

A “fiber” laser is a laser in which the active gain medium is an optical fiber doped with rare earth elements such
as erbium, ytterbium, neodymium, dysprosium, praseodymium and thulium. Light is kept in the “core” of the
optical fiber by total internal reflection. This causes the fiber to act as a waveguide. Fibers that support many
propagation paths or transverse modes are called multi-mode fibers (MMF). Fibers that support only a single
mode are called single mode fibers (SMF). MMFs generally have a large diameter core, and are used for short
distance communication links or for applications where high power must be transmitted. Single mode fibers are
used for most communication links longer than 200 meters.

Understanding the physics for modeling and simulation is necessary for effective testing of smaller and lighter
high power solid state lasers. This technology is scalable, has high optical quality, and has a highly compact
modular design for high efficiency.

What this research will accomplish:
 n	 Improved efficiency, reduction in weight, volume, prime power, etc., defines a fiber laser as the best
     pathway to provide Naval aviation / Navy a 100 kW laser weapon.
 n	 The ability for aircraft self protection, time critical strike, precision engagements, graduated lethality,
     low collateral damage, and asymmetric threat engagement allow for significant increases in warfighter
     capability.

Submarine Payload Tube Actuator:
An Office of Naval Research SwampWorks program developed a complete, power-dense, electric actuator system
(EAS) for submarine payload tubes, with benefits in reliability and total cost reduction over legacy hydraulic
actuator systems. This program targets the maximum torque capacity and density to replace hydraulic actuators
in the same ship layout space. Torque capacity, stroke and actuation speed was demonstrated in laboratory
testing in December 2010. The electric actuator includes a fully submersible, high torque, scalable motor. This
electric actuator enables location external to the pressure hull, simplifying and reducing hull penetrations, as well
as associated maintenance costs.

Acquisition and life cycle cost reduction is a Navy priority for future submarine platforms. Current controls are
hydraulic and mechanical, requiring piping and ancillary systems that contribute significantly to construction
and maintenance costs. In addition to the high life cycle costs associated with the hydraulic system, the method
of transmitting force and torque is costly due to the alignment-critical nature of the linkages, bearings, guide
tubes, pushrods, pressure-hull penetrations, and hydraulic rams. Arrangement constraints also make it difficult
to have multiple actuator configurations that might otherwise be desired.

86
ONR is investing in electric actuation to support low-cost technology insertions to satisfy this need for submarine
control surfaces. Electrically actuated systems offer the potential for construction and in-service cost reduction
through elimination of shipboard hydraulic systems and ancillary equipment. Systems will also support future
condition-based maintenance with integrated sensors and prognostics.

Recent accomplishments include a full-scale, proof-of-concept linear actuator developed collaboratively with
General Atomics, which achieved 90,000 lbf thrust and a 26-inch stroke in 20 seconds in laboratory testing. It is
expected the next phase of this effort will include testing through relevant force profiles of the actuator using a
linear dynamometer, and finally testing a pre-manufacturing prototype in submarine relevant environments.

What this research will accomplish:
 n	 The Submarine Payload Tube Electric Actuator demonstrates technologies to meet the challenge of
     submarine actuator electrification. It establishes a Navy vendor base for electric actuation, reduces the
     number of pressure hull penetrations, and enables opportunities to reduce total ownership costs.

C. Development
Development takes what has been discovered or learned from basic and applied research and uses it to establish
technological feasibility, assessment of operability, and production capability. Development is comprised of five
stages, as defined below.

  1. 	 Advanced Technology Development is the systematic use of the knowledge or understanding gained from
       research directed toward proof of technological feasibility and assessment of operational and production
       rather than the development of hardware for service use. It employs demonstration activities intended to
       prove or test a technology or method.

  2. 	 Advanced Component Development and Prototypes evaluates integrated technologies in as realistic an
       operating environment as possible to assess the performance or cost reduction potential of advanced
       technology. Programs in this phase are generally system specific. Major outputs of Advanced Component
       Development and Prototypes are hardware and software components or complete weapon systems ready
       for operational and developmental testing and field use.

  3. 	 System Development and Demonstration concludes the program or project and prepares it for production.
       It consists primarily of preproduction efforts, such as logistics and repair studies. Major outputs are
       weapons systems finalized for complete operational and developmental testing.

  4. 	 Research, Development, Test, and Evaluation Management Support is support for installations and
       operations for general research and development use. This category includes costs associated with test
       ranges, military construction maintenance support for laboratories, operation and maintenance of test
       aircraft and ships, and studies and analyses in support of the Research and Development program.

  5. 	 Operational Systems Development is concerned with development projects in support of programs or
       upgrades that are still in engineering and manufacturing development. These projects have received
       approval for production, for which production funds have been budgeted in subsequent fiscal years.

The following are four representative program examples for the Development category.

Autonomous Aerial Cargo Utility System:
The Autonomous Aerial Cargo/Utility Systems (AACUS) program explores advanced autonomous capabilities
for reliable resupply/retrograde and casualty evacuation by unmanned air cargo utility systems under adverse

                                                                                                                 87
conditions. Integrated autonomous capability for unmanned vertical takeoff and landing (VTOL) aircraft
would feature capability modules for approach/landing zone selection; operations to/from slopes, unprepared
terrain and ships; waypoint navigation, contingency management and mission planning; obstacle detection and
avoidance; threat sensing and avoidance; and ground control and interface systems.

The AACUS is an Innovative Naval Prototype program that will start in fiscal year 2012. This builds on the
small business technology transfer effort, Autonomous Landing at Unprepared Sites for a Cargo Unmanned Air
System. VTOL systems have significant advantages over other means of resupply and evacuation, including
avoidance of improvised explosive devices, greater speed over trucks, and improved affordability and
availability over manned rotorcraft. AACUS will develop advanced autonomous capabilities to enable unmanned
and optionally manned VTOL air systems to be fully capable of reliable, responsive cargo delivery to distributed
small units in demanding conditions. AACUS will lead the way in developing autonomous capabilities with
sufficient reliability to be entrusted with evacuating human casualties from remote sites.

A number of efforts, including the Marine Corps Immediate Cargo Unmanned Air System, are underway to
develop unmanned VTOL air systems capable of cargo delivery. The AACUS program will work in parallel
with these complementary programs, and will provide the advanced autonomous capabilities needed for
revolutionary capability enhancements for these and future platforms.

What this research will accomplish:
 n	 This program will develop an open architecture autonomous capability for VTOL aircraft capable of launch
     and recovery using unprepared landing zones with little or no human supervision.
 n	 Systems will provide reliable resupply and casualty evacuation in ship operations to sea state 4, adverse
     weather and degraded visual environments, GPS-denied conditions and at night.
 n	 It will enhance survivability in the presence of threats.

Tactical Microsatellite:
TacSat-4 is a Navy-led joint mission to provide relevant capabilities and to enable Operationally Responsive
Space. TacSat-4 provides ten Ultra High Frequency (UHF) channels, which can be used for any combination of
communications, data ex-filtration, or Blue Force tracking. Notably, TacSat-4 provides communications-on-the-
move with legacy radios and provides a wide band channel for early testing.

TacSat-4 uses relatively low-cost, small satellite and launch vehicle technologies. The spacecraft is 450kg with a
1000W solar array and a 12 foot diameter payload antenna to provide high gain, enabling most communications-
on-the-move to be supported without ground antenna pointing. A “low HEO” (highly elliptical orbit) with a
4 hour period (6 orbits per day) provides long dwells over theaters. TacSat-4 payload technologies include a
12-foot UHF deployable antenna, advanced thermal control using several heat pipe technologies, and compact
ten channel transponder electronics, all provided at a lower cost point for spacecraft. Development areas include
spacecraft bus standards, long dwell orbits, dynamic tasking, and net-centric operations.

The Minotaur-IV launch vehicle will be used to achieve orbit. A single satellite can provide 2 hours of coverage
three times a day over a given theater (2000nm diameter), as well as support multiple theaters throughout the
world each day. Users will use their existing equipment or early wide-band radios, when applicable.

The Blossom Point (BP) Ground Station in Maryland provides the command and control for TacSat-4 and
maintains its user tasking system. BP’s flexible common ground architecture allows rapid transitions and enables
net-centric operations. Payload tasking will be performed via the SIPRNET-based Virtual Mission Operations
Center, with frequencies allocated by the Joint Task Force-Global Network Operations and theater managers, as
appropriate.

88
What this research will accomplish:
 n	 TacSat-4 will augment operational communications. Ten UHF channels will allow communication-on-the-
     move, data-exfiltration, and Blue Force tracking.
 n	 The unique orbit augments geosynchronous communications by allowing near global, but not continuous,
     coverage including the high latitudes.

Small Unit Mobility Enhancement Technology:
The Small Unit Mobility Enhancement Technologies (SUMET) program aims to increase the platform
capability and affordability of unmanned, ground vehicle-enabling technologies to include low-cost, video-
based perception systems, advanced video processing techniques, cognitive reasoning architectures and novel
algorithm coding methodologies.

The SUMET science and technology effort aims to introduce increased unmanned ground platform autonomous
capability into the Marine Corps at an affordable cost.

Commenced in October 2009, collaborative program leverages robotic efforts taking place in every department,
or code, within the ONR. The SUMET perception system and video processing effort classifies objects by
examining certain material characteristics in a spatial scene at the pixel level while utilizing advanced processing
techniques. The program develops a cognitive reasoning architecture emphasizing unified cognition theory
and learning working memory. Finally, significant emphasis is also placed on developing advanced behavior
generation and novel coding techniques such as physicomimetics and genetic programming.

Key ONR technology programs contributing technology research include Image Understanding and Robotic
Perception; Unmanned Underwater Systems; Developing Autonomy for Unmanned Surface Vehicles by Using
Virtual Environments; Natural-language Dialogue with Autonomous Systems, and; Intelligent Autonomy for
Unmanned Autonomous Systems Mission Control Interfaces.

Additional collaboration occurs with several other organizations. Performers include the Naval Research
Laboratory, University of Maryland, Southwest Research Institute, SOAR Technologies, Nevada Automotive Test
Center, and Carnegie Mellon University.

What this research will accomplish:
 n	 SUMET will decrease the Navy and Marine Corps’ reliance on costly sensors
 n	 Enable systems to maneuver with greater autonomy in complex terrain and decreases algorithm
     development time.
 n	 Addresses the need for advanced unmanned systems to perform logistic functions in the distributed battle-
     space, removing the logistic burden from the individual Marine.

Software reprogrammable Payload:
The Software Reprogrammable Payload (SRP) is an open-architecture, government owned reference design for a
flexible, in-operational reconfigurable software radio designed to meet current and future needs for USMC UAS
systems supporting a wide variety of missions.

The USMC SRP effort started to satisfy urgent needs to improve battlefield communications. The app-oriented
modular design allows the SRP to support a wide variety of requirements to include ISR, Electronic Warfare,
and other processing and data handling functions. The initial capability of SRP to the Marine Corps Shadow
includes a jam resistant IP Router for netted communications on the move and a SINCGARS Relay that are both
fully compatible with the current inventory of tactical radios. In addition, the SRP provides an RF collection
application for the Automatic Identification System used for vessel tracking.

                                                                                                                89
During a typical mission, the operator can use a simple drag-and-drop interface to select an application while on
route to a convoy surveillance support mission. Once on station, the payload could do SIGINT collection while
simultaneously performing beyond-line-of-sight UHF communications relay. If interference is detected on the
communications channel the operator can select an interference mitigation filter, applied similarly to a Photoshop
filter, or reprogram the communications channel from a pre-selected frequency plan.

Two key elements of the SRP are its non-proprietary design and a software developer’s tool kit that enables the
widest community to develop applications. Non-proprietary, government defined standards, and government-
owned applications reduce the cost of acquisition by “solving the problem once.” Department of Defense
acquisition programs benefit from efficiency of re-use when applications developed for one platform may be
re-hosted on another without re-inventing common components and functions. The software development tool
kit can be provided to academia, industry, and government laboratories and thereby stimulate innovation and
competition to bring new and effective communications and collection applications to the Marine Corps.

The delivery of the USMC Shadow SRP is the completion of the “initial capability.” Additional pre-planned
product improvements (P3I) are in the pipeline with new capabilities coming online over the next two years.
Several demonstrations are planned in the future, including UAS platforms as well as manned systems for both
USMC and Navy requirements.

What this research will accomplish:
 n	 Provide the USMC with robust, flexible, reconfigurable payload operation with their Shadow UAS
 n	 Four baseline applications are part of the initial capability: automated identification system; UHF
     communications relay with interference mitigation; UHF IP router capability for legacy radios; SINCGARS
     relay; and additional applications are on a parallel development path.

NON-FEDERAL PHYSICAL PROPERTY
The DON General Fund does not fund this type of Activity.




90
DON General Fund Required Supplementary Information

                                                      Department of the Navy
                                               General Property, Plant, and Equipment
                                           Real Property Deferred Maintenance and Repair
                                                      For Fiscal Year Ended September 30, 2011
                                                                     ($ in Thousands)

                                                                                            2. Required Work (Deferred
       Property Type                                      1. Plant Replacement Value         Maintenance and Repair)                 3. Percentage
       Category 1: Enduring Facilities
         Navy                                    $         137,137,110                        $                 38,149,290                      27.82%
         Marine Corps                            $          44,724,778                        $                  1,102,280                       2.46%
       Category 2: Excess Facilities or Planned for Replacement
         Navy                                    $           1,096,970                        $                    467,350                      42.60%
         Marine Corps                            $             845,844                        $                          -                        0.0%
       Category 3: Heritage Assets
         Navy                                    $                   -                        $                          -                         0.0%
         Marine Corps                            $           4,442,483                        $                    109,285                        2.46%
      	
      NOTE: In the table above, Navy real property deferred maintenance and repair data represent both Department of the Navy General Fund and Navy
      Working Capital Fund (NWCF). Similarly, Marine Corps real property deferred maintenance and repair data represent both the United States Marine
      Corps General Fund and NWCF-Marine Corps.


1.	The method used to assess facilities condition is a combination of commercial Infrastructure Condition
   Assessment Program (ICAP) software and facilities inspection. The method used to assess Marine Corps
   facilities conditions is a facilities inspection, which categorizes buildings as Adequate, Substandard, or
   Inadequate and also by direct inspection using the BUILDER methodology developed by the Army. The
   Navy’s Quality rating (Q-rating) is calculated using the below formula:

                                                            Q = 1 - (Requirements) X 100
                                                                        PRV

	 The Navy models the “Requirements” value from the condition rating and configuration rating. Condition
  Index for those Marine Corp buildings with BUILDER ratings are used directly for the Q rating. For those
  facilities without Condition Index ratings the Adequate Substandard and Inadequate ratings are converted to
  Q-ratings by assessing facilities that are rated as Adequate and less than 25 years old as Q1; facilities that are
  over 25 years old and rated as Adequate as Q2; facilities rated as Substandard as Q3; and Inadequate facilities
  as Q4. Since last year Marine Corps began using Condition Index ratings from BUILDER for most buildings
  replacing the interim process of converting Adequate, Substandard and Inadequate ratings into Q ratings. The
  Marine Corps has also made an effort to identify all Heritage assets, which greatly increased that number as a
  percentage of total.

2.	The condition rating is a measure (0 -100) of an asset’s physical condition at a particular point in time. The
   Navy uses condition modeling software to capture condition assessment data to model system/component
   condition ratings. The condition assessment data is supplemented by eyes-on condition assessments that
   capture accurate facility components and confirm as-built condition. The condition assessment program
   has not been expanded to include utility systems yet. Therefore, the condition ratings are inaccurate and the
   deferred maintenance and repair backlog is understated for utility systems.




                                                                                                                                                          91
3.	The configuration rating is a measure (0 - 100) of the asset’s capability to support the current occupant or
   mission with respect to functionality. The Configuration Rating is calculated in the internet Navy Facility
   Assets Data Store (iNFADS) from an algorithm that weights configuration deficiency codes (code compliance,
   functional/space criteria, location/siting criteria or inadequate capacity/coverage) collected during Asset
   Evaluations. Deficiency codes identify impacts to the suitability of spaces for their intended use, including
   obsolescence of facility components that do not meet new standards.

4.	The Navy’s Q-rating is represented by the bands: 100%-90% Q1; 90%-80% Q2; 80%-60% Q3; and less than
   60% Q4.

5.	The FY 2011 target Q-rating value representing full investment requirement for the Navy is Q1. The
   Department of the Navy (DON) follows the Office of the Secretary of Defense installation strategic plan goal
   of having facilities at a Q2 level on average as an acceptable rating. This represents an average level of 15%
   of Plant Replacement Value (PRV) as an acceptable level of deferred maintenance. The table above shows
   that deferred maintenance for the Navy is valued at 27.82%, 42.60% and 0% of PRV for categories 1 through 3,
   respectively. The deferred maintenance and repair estimates are based on the facility Q-ratings found in the
   Navy’s real property inventory.

	 The table above shows that deferred maintenance for the Marine Corps is valued at approximately 2.46% of
  PRV for categories 1 and 3. This represents 2.46% over the acceptable 15% level. The percentage for category
  1 and 3 facilities is the same because Marine Corps cannot separate the deferred maintenance between those
  categories at this time. Category 2 is zero because Marine Corps do not hold deferred maintenance backlogs on
  facilities to be demolished.

6.	The Facility Readiness Evaluation System (FRES) application was used to generate the Deferred Maintenance
   and Repair Report. FRES is updated with iNFADS data on a weekly basis and at the end of the fiscal year. The
   PRV and deferred maintenance and repair estimates for all three categories are reported for CNIC installations
   only, and only the Maintenance Fund Sources listed below are included. Facilities maintained by BUMED,
   defense agencies, and Family Housing, Navy are excluded from the estimates.

     n	   Operation and Maintenance, Navy
     n	   Operation and Maintenance, Navy Reserve
     n	   Research, Development, Test, and Evaluation
     n	   Navy Working Capital Fund

7.	Category 1 excludes facilities identified in Categories 2 and 3. During FY 2010, Category 2 facilities were
   identified by facilities assigned an Excess Action Code in iNFADS. During FY 2011, the Excess Action Code
   data element was deleted from iNFADS. The Navy currently identifies Category 2 facilities as follows:
   facilities assigned a RPA Operational Status Code of excess or surplus and RPA Interest Type Code Fee, ONST,
   ONFG, or Lease. Excess is defined as “property under the control of a federal agency that the head of the
   agency determines is not required to meet the agency’s needs or responsibilities.” The source for this definition
   is CFT Title 40 USC 102. Category 3 includes facilities that are single-use Heritage Assets. iNFADS does not
   identify any Navy facilities as single-use Heritage Assets; therefore, the amounts recorded for this category are
   zero.

Description of Property Type categories:
 n	 Category 1 – Buildings, Structures, and Utilities that are enduring and required to support an ongoing
     mission, including multi-use Heritage Assets.



92
 n	 Category 2 – Buildings, Structures, and Utilities that are excess to requirements or planned for replacement
    or disposal, including multi-use Heritage Assets.
 n	 Category 3 – Buildings, Structures, and Utilities that are Heritage Assets.

                                              Military Equipment Deferred Maintenance
                                                     For Fiscal Year Ended September 30, 2011
                                                                     ($ in Thousands)

              Major Category                                                  OP30 Amounts              Adjustments                  Totals
              1.	 Aircraft                                                          $326,766                $(326,766)                          $-
              2.	 Automotive Equipment                                                14,561                   (2,266)                      12,295
              3.	 Combat Vehicles                                                     11,871                   (6,986)                       4,885
              4.	 Construction Equipment                                               8,160                     (322)                       7,838
              5.	 Electronics and Communications Systems                               1,469                     (866)                         603
              6.	 Missiles                                                            93,998                     6,916                     100,914
              7.	 Ships                                                              189,107                 (175,954)                      13,153
              8.	 Ordnance Weapons and Munitions                                      18,331                    87,386                     105,717
              9.	 All Other Items Not Identified Above                               120,318                     8,558                     128,876
               Total                                                                    $784,581               $(410,300)                $374,281
          Note: The deferred maintenance amounts reported in the Budget Exhibit Operations (OP) Depot Maintenance (30) that accompanied
          the most recent President’s Budget was used as the basis to identify and report amounts in the Military Equipment Deferred Maintenance.
          Material amounts of deferred maintenance beyond the scope of the OP-30 Budget Exhibit, that warrant reporting are in the “Adjustments”
          column.


Aircraft Deferred Maintenance
Four sub-categories comprise aircraft deferred maintenance: airframe rework and maintenance (active and
reserve), engine rework and maintenance (active and reserve), component repair, and software maintenance.
The airframe rework deferred maintenance calculation reflects unfunded requirements, which represent aircraft
that failed Aircraft Service Period Adjustment (ASPA) inspections or reached fixed Period End Date (PED) at
year-end. The engine rework deferred maintenance calculation reflects year-end actual requirements minus
actual funded units. Component repair deferred maintenance represents the difference between the validated
requirements minus corresponding funding. The $326,766 adjustment in the table above represents aircraft
maintenance shortfall that was reduced with additional funds.

Airframe rework and maintenance (active and reserve) is currently performed under both the Standard Depot
Level Maintenance (SDLM) and Integrated Maintenance Concept (IMC) programs. Currently, the AV-8B, C-130,
C-2, E-2, E-6, EA-6B, F-5, F/A-18, H-1, H-46, H-53, H-60, P-3, and S-3 aircraft programs have been incorporated
under the IMC concept. The IMC concept uses Planned Maintenance Intervals (PMI), performing more
frequent depot maintenance, but with smaller work packages, thereby reducing out-of-service time. The goal
of this program is to improve readiness while reducing operating and support costs. The Naval Air Systems
Command’s (NAVAIR) Industrial Strategy is to maintain the minimum level of organic capacity consistent with
force levels that is necessary to sustain peacetime readiness and maintain fighting surge capability. NAVAIR
works in partnership with private industry to make maximum use of industry’s production capabilities and for
non-core related aviation depot maintenance.

Combat Vehicles Deferred Maintenance
The combat vehicles category refers to deferred vehicle maintenance for the active and reserve Marine Corps
assets. The combat vehicle category consists of weapons systems such as the M1A1 Tank, the Amphibious
Assault Vehicle, the Hercules Recovery Vehicle, and the Light Armored Vehicle. The total requirement is
the planned quantity of combat vehicles that require depot level maintenance in a year as determined by

                                                                                                                                                     93
program managers and the operating forces with requirements validated by a modeling process. The deferred
maintenance is the difference between the validated requirements and funding received for that fiscal year. The
adjustment of $6,986 in the table above represents the deferred maintenance shortfall reduced with supplemental
funding.

Construction Equipment
The construction equipment category refers to deferred equipment maintenance for active and reserve Marine
Corps assets. This category consists of maintenance performed on a variety of tractors and earth moving
equipment. In part, the equipment includes the Aardvark Tactical, the 277C Multi-Terrain Loader, the Medium
Crawler Tractor, the Armored Excavator with Brush Hog, and Bridge Erection equipment. The total requirement
is the planned quantity of equipment that requires depot level maintenance in a year as determined by
program managers and the operating forces. The deferred maintenance is the difference between the validated
requirements and funding received for that fiscal year.

Electronics and Communications Systems
The electronics and communications systems category refers to deferred systems maintenance for active and
reserve Navy and Marine Corps assets. This category consists of maintenance performed on a variety of
radar, radio, and wire and communications equipment. In part, the systems include or are associated with
the Surveillance Towed-Array Sensor System (SURTASS), P-3 Beartrap, satellite subsystems, the Multi-Band
Deployable Antenna, the Multi-Mode Inter/Intra Team Radio, and a variety of radio and radar sets used within
the Department of the Navy. The total requirement is the planned quantity of systems and their components that
require depot level maintenance in a year as determined by program managers and the operating forces. The
deferred maintenance is then the difference between the validated requirements and funding received for that
fiscal year.

Missiles Deferred Maintenance
Four categories are used to determine missile maintenance: missiles, tactical missiles, software maintenance, and
other. Deferred maintenance is defined as the difference between the total weapon maintenance requirement
as determined by requirements modeling processes and the weapon maintenance that is funded in accordance
with the annual budget controls for the missile maintenance program. The maintenance requirements model
projects the quantity of missiles and missile components per weapon system that are required to be maintained
or reworked annually.

Ships Deferred Maintenance
Fleet Type Commanders provide deferred ship maintenance data. Data is collected from the Current Ships’
Maintenance Plan (CSMP) database, which captures maintenance actions at all levels (organizational,
intermediate, depot) for active and reserve ships. Only depot level deferred maintenance is provided in the
calculation of ship deferred maintenance. This includes maintenance actions deferred from actual depot
maintenance work-packages as well as maintenance deferred before inclusion in a work package due to fiscal,
operational, or capacity constraints. Although there are some deferred maintenance actions, no ships fall into
the category of “unacceptable operating condition.” Any ship that would be at risk of being in unacceptable
operating condition would receive priority for maintenance funding to maintain acceptable operating condition.
The adjustment of $175,954 in the table above represents ship maintenance shortfall reduced with additional
funds.

Ordnance Weapons and Munitions Deferred Maintenance
Ordnance weapons and munitions are part of a broader category, Other Weapons Systems. This category
is comprised of ordnance, end item maintenance for support equipment, camera equipment, landing aids,

94
calibration equipment, air traffic control equipment, target systems, expeditionary airfield equipment,
special weapons, target maintenance, and repair of repairable components. Three categories define ordnance
maintenance: ordnance maintenance, software maintenance, and other. Although the various programs vary in
the methodology in defining requirements, all programs define deferred maintenance as the difference between
validated requirements and funding. The adjustment in the table above represents the increase in deferred
maintenance due to reduced supplemental funding.

Deferred Maintenance on All Other Items Not Identified Above
This category comprises deferred maintenance for software, arrest gear, lighting and surfacing equipment,
and EFTM (external fuel transfer module). The deferred maintenance is the difference between the validated
requirements and funding received for that fiscal year. The automotive equipment adjustment of $2,266
represents the deferred maintenance shortfall reduced by supplemental funding.

Software maintenance includes the operational and system test software that runs in the airborne avionics
systems (e.g., mission computer, display computer, radar) and the software that runs the ground-based support
labs used to perform software sustainment (e.g., compilers, editors, simulation, configuration management).

Heritage Assets Condition Information
The methodology used to report the condition of the heritage assets was a combination of visual assessment
of the objects, historic value to the DON collection, and general display and storage standards for historic
collections. The overall condition of the collection objects is good.




                                                                                                               95
                                                    Department of Defense - Department of the Navy

                STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
                                                   For the periods ended September 30, 2011 and 2010
                                                                   ($ in Thousands)
                                                                                       Research,                                                     Family Housing
                                                                                  Development, Test &                                                  & Military
BUDGETARY FINANCING ACCOUNTS                                                          Evaluation            Procurement     Military Personnel        Construction
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                                   $      2,776,115      $     27,056,805    $       604,845      $        2,686,689
Recoveries of prior year unpaid obligations                                                581,685             4,269,412          4,034,039               1,314,788
Budget authority
    Appropriation                                                                       17,841,084            47,790,304         47,168,496               3,551,612
    Borrowing authority                                                                          -                     -                  -                       -
    Contract authority                                                                           -                     -                  -                       -
    Spending authority from offsetting collections
        Earned
                 Collected                                                                 310,161               787,499            381,011               1,333,271
                 Change in receivables from Federal sources                                (31,437)               38,521              2,049                 (93,494)
        Change in unfilled customer orders
                 Advance received                                                          (59,167)                    -                 73                (143,285)
                 Without advance from Federal sources                                      (90,116)              (13,780)             4,003                (313,413)
        Anticipated for rest of year, without advances                                           -                     -                  -                       -
        Previously unavailable                                                                   -                     -                  -                       -
        Expenditure transfers from trust funds                                                   -                     -                  -                       -
    Subtotal                                                                            17,970,525            48,602,544         47,555,632               4,334,691
Nonexpenditure transfers, net, anticipated and actual                                      305,365             1,215,345            384,368                   2,318
Temporarily not available pursuant to Public Law                                                 -                     -                  -                       -
Permanently not available                                                                 (270,475)           (1,022,146)          (300,407)                (83,240)
Total Budgetary Resources                                                         $     21,363,215 $          80,121,960 $       52,278,477 $             8,255,246

Status of Budgetary Resources:
Obligations incurred:
    Direct                                                                        $     18,255,992      $     54,209,680    $    51,337,914      $        3,514,052
    Reimbursable                                                                           224,956               822,981            386,943               2,057,442
    Subtotal                                                                            18,480,948            55,032,661         51,724,857               5,571,494
Unobligated balance:
    Apportioned                                                                          2,603,771            24,294,140            103,291               2,585,458
    Exempt from apportionment                                                                    -                     -                  -                       -
    Subtotal                                                                             2,603,771            24,294,140            103,291               2,585,458
Unobligated balance not available                                                          278,495               795,160            450,329                  98,293
Total status of budgetary resources                                               $     21,363,214      $     80,121,961    $    52,278,477      $        8,255,245

Change in Obligated Balance:
Obligated balance, net
    Unpaid obligations, brought forward, October 1                                $     10,051,107      $     59,494,873    $     2,505,192      $        5,491,609
    Less: Uncollected customer payments from Federal sources, brought forward,
        October 1                                                                         (255,489)             (220,499)             6,001              (1,055,440)
    Total unpaid obligated balance                                                       9,795,618            59,274,374          2,511,193               4,436,169
Obligations incurred net (+/-)                                                          18,480,948            55,032,661         51,724,858               5,571,494
Less: Gross outlays                                                                    (18,446,638)          (45,254,104)       (48,513,372)             (3,971,311)
Obligated balance transferred, net
    Actual transfers, unpaid obligations (+/-)                                                   -                     -                  -                       -
    Actual transfers, uncollected customer payments from Federal sources (+/-)                   -                     -                  -                       -
    Total Unpaid obligated balance transferred, net                                              -                     -                  -                       -
Less: Recoveries of prior year unpaid obligations, actual                                 (581,685)           (4,269,412)        (4,034,039)             (1,314,788)
Change in uncollected customer payments from Federal sources (+/-)                         121,553               (24,742)            (6,053)                406,906
Obligated balance, net, end of period
    Unpaid obligations                                                                   9,503,731            65,004,018          1,682,639               5,777,004
    Less: Uncollected customer payments (+/-) from Federal sources (-)                    (133,936)             (245,242)               (52)               (648,533)
    Total, unpaid obligated balance, net, end of period                                  9,369,795            64,758,776          1,682,587               5,128,471

Net Outlays:
    Gross outlays                                                                       18,446,638            45,254,104         48,513,372               3,971,311
    Less: Offsetting collections                                                          (250,994)             (787,499)          (381,084)             (1,189,984)
    Less: Distributed Offsetting receipts                                                        -                     -                  -                       -
Net Outlays                                                                       $     18,195,644 $          44,466,605 $       48,132,288 $             2,781,327

 96
                                                    Department of Defense - Department of the Navy

               STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
                                                   For the periods ended September 30, 2011 and 2010
                                                                   ($ in Thousands)
                                                                                                         Operations,
                                                                                                         Readiness &
BUDGETARY FINANCING ACCOUNTS                                                                               Support           2011 Combined        2010 Combined
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                                                      $      1,878,220    $      35,002,674    $      27,048,361
Recoveries of prior year unpaid obligations                                                                 3,969,514           14,169,438           16,099,877
Budget authority
    Appropriation                                                                                          58,759,449          175,110,945          174,202,102
    Borrowing authority                                                                                             -                    -                    -
    Contract authority                                                                                              -                    -                    -
    Spending authority from offsetting collections
        Earned
                 Collected                                                                                  5,575,236            8,387,178            8,853,881
                 Change in receivables from Federal sources                                                   (92,540)            (176,901)             (60,947)
        Change in unfilled customer orders
                 Advance received                                                                              47,721             (154,658)             (24,024)
                 Without advance from Federal sources                                                         (54,807)            (468,113)            (582,631)
        Anticipated for rest of year, without advances                                                              -                    -                    -
        Previously unavailable                                                                                      -                    -                    -
        Expenditure transfers from trust funds                                                                      -                    -                    -
    Subtotal                                                                                               64,235,059          182,698,451          182,388,381
Nonexpenditure transfers, net, anticipated and actual                                                         700,214            2,607,610            2,589,140
Temporarily not available pursuant to Public Law                                                                    -                    -                    -
Permanently not available                                                                                  (1,206,322)          (2,882,590)          (2,512,014)
Total Budgetary Resources                                                                            $     69,576,685 $        231,595,583 $        225,613,745

Status of Budgetary Resources:
Obligations incurred:
    Direct                                                                                           $     61,790,662    $     189,108,300    $     179,434,110
    Reimbursable                                                                                            5,789,080            9,281,402           11,176,960
    Subtotal                                                                                               67,579,742          198,389,702          190,611,070
Unobligated balance:
    Apportioned                                                                                               216,405           29,803,065           31,804,999
    Exempt from apportionment                                                                                       -                    -                    -
    Subtotal                                                                                                  216,405           29,803,065           31,804,999
Unobligated balance not available                                                                           1,780,539            3,402,816            3,197,676
Total status of budgetary resources                                                                  $     69,576,686    $     231,595,583    $     225,613,745

Change in Obligated Balance:
Obligated balance, net
    Unpaid obligations, brought forward, October 1                                                   $     24,058,895    $     101,601,676    $     101,403,501
    Less: Uncollected customer payments from Federal sources, brought forward,
        October 1                                                                                          (1,629,470)          (3,154,897)          (3,798,476)
    Total unpaid obligated balance                                                                         22,429,425           98,446,779           97,605,025
Obligations incurred net (+/-)                                                                             67,579,741          198,389,702          190,611,070
Less: Gross outlays                                                                                       (62,158,476)        (178,343,901)        (174,313,017)
Obligated balance transferred, net
    Actual transfers, unpaid obligations (+/-)                                                                      -                    -                    -
    Actual transfers, uncollected customer payments from Federal sources (+/-)                                      -                    -                    -
    Total Unpaid obligated balance transferred, net                                                                 -                    -                    -
Less: Recoveries of prior year unpaid obligations, actual                                                  (3,969,514)         (14,169,438)         (16,099,877)
Change in uncollected customer payments from Federal sources (+/-)                                            147,346              645,010              643,578
Obligated balance, net, end of period
    Unpaid obligations                                                                                     25,510,647          107,478,039          101,601,677
    Less: Uncollected customer payments (+/-) from Federal sources (-)                                     (1,482,124)          (2,509,887)          (3,154,898)
    Total, unpaid obligated balance, net, end of period                                                    24,028,523          104,968,152           98,446,779

Net Outlays:
    Gross outlays                                                                                          62,158,476          178,343,901          174,313,017
    Less: Offsetting collections                                                                           (5,622,955)          (8,232,516)          (8,829,857)
    Less: Distributed Offsetting receipts                                                                      36,444               36,444             (141,386)
Net Outlays                                                                                          $     56,571,965 $        170,147,829 $        165,341,774

                                                                                                                                                            97
Appropriations, Funds, and Accounts Included in the Principal Statements

Entity Accounts
General Funds
	17X0380	     Coastal Defense Augmentation, Navy
	 17 0703	    Family Housing, Navy and Marine Corps
	 17 0730	    Family Housing Construction, Navy and Marine Corps
	 17 0735	    Family Housing Operation and Maintenance, Navy and Marine Corps
	17X0810	     Environmental Restoration, Navy
	 17 1000	    Medicare-Eligible Retiree Health Fund Contribution, Navy
	 17 1001	    Medicare-Eligible Retiree Health Fund Contribution, Marine Corps
	 17 1002	    Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Navy
	 17 1003	    Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Marine Corps
	17X1105	     Military Personnel, Marine Corps
	 17 1105	    Military Personnel, Marine Corps
	17X1106	     Operations and Maintenance, Marine Corps
	 17 1106	    Operation and Maintenance, Marine Corps
	 17 1107	    Operation and Maintenance, Marine Corps Reserve
	 17 1108 	   Reserve Personnel, Marine Corps
	 17 1109 	   Procurement, Marine Corps
	 17 1116 	   Operation and Maintenance - Recovery Act, Marine Corps
	 17 1117 	   Operation and Maintenance - Recovery Act, Marine Corps Reserve
	17X1205 	    Military Construction, Navy and Marine Corps
	 17 1205 	   Military Construction, Navy and Marine Corps
	 17 1206 	   Military Construction - Recovery Act, Navy and Marine Corps
	 17 1235 	   Military Construction, Naval Reserve
	17X1236 	    Payments to Kaho Olawe Island Conveyance, Remediation, and Environmental Restoration Fund,
              Navy
	 17 1319 	   Research, Development, Test, and Evaluation, Navy
	 17 1320 	   Research, Development, Test and Evaluation - Recovery Act, Navy
	 17 1405 	   Reserve Personnel, Navy
	17X1453 	    Military Personnel, Navy
	 17 1453 	   Military Personnel, Navy
	 17 1506 	   Aircraft Procurement, Navy
	17X1507 	    Weapons Procurement, Navy
	 17 1507 	   Weapons Procurement, Navy
	 17 1508 	   Procurement of Ammunition, Navy and Marine Corps
	17X1611	     Shipbuilding and Conversion, Navy
	 17 1611 	   Shipbuilding and Conversion, Navy
	17X1804	     Operation and Maintenance, Navy
	 17 1804 	   Operation and Maintenance, Navy
	 17 1805 	   Operation and Maintenance - Recovery Act, Navy
	17X1806 	    Operations and Maintenance, Navy Reserve
	 17 1806 	   Operation and Maintenance, Navy Reserve
	 17 1807 	   Operation and Maintenance - Recovery Act, Navy Reserve
	17X1810 	    Other Procurement, Navy
	 17 1810 	   Other Procurement, Navy


98
Revolving Funds
	17X4557 	 National Defense Sealift Fund, Navy
	 17 4557 	 National Defense Sealift Fund, Navy

Earmarked Trust Funds
	17X8716 	 Department of the Navy General Gift Fund
	17X8723 	 Ships Stores Profits, Navy
	17X8733 	 United States Naval Academy General Gift Fund

Earmarked Special Funds
	17X5095 	    Wildlife Conservation, etc., Military Reservations, Navy
	17X5185 	    Kaho Olawe Island Conveyance, Remediation, and Environmental Restoration Fund, Navy
	17X5429 	    Rossmoor Liquidating Trust Settlement Account
	17X5562 	    Ford Island Improvement Account

General Fund Non- Entity Accounts
Deposit Funds
	17X6001 	    Proceeds of Sales of Lost, Abandoned, or Unclaimed Personal Property, Navy (T)
	17X6002 	    Personal Funds of Deceased, Mentally Incompetent or Missing Personnel, Navy (T)
	17X6025 	    Pay of the Navy, Deposit Fund (T)
	17X6026 	    Pay of the Marine Corps, Deposit Fund (T)
	17X6434	     Servicemen’s Group Life Insurance Fund, Suspense, Navy
	17X6705 	    Civilian Employees Allotment Account, Navy
	17X6706 	    Commercial Communication Service, Navy
	 17 6763 	   Gains and Deficiencies on Exchange Transactions, Navy
	17X6850 	    Housing Rentals, Navy
	17X6999 	    Accounts Payable, Check Issue Underdrafts, Navy




                                                                                                    99
100
Working Capital Fund Principal Statements

Department of the Navy Fiscal Year 2011
Annual Financial Report
      Principal Statements
      The Fiscal Year 2011 Navy Working Capital Fund (NWCF) principal statements and
      related notes are presented in the format prescribed by the Department of Defense
      Financial Management Regulation 7000.14, Volume 6B. The statements and related notes
      summarize financial information for individual funds and accounts within the Navy
      Working Capital Fund for the fiscal year ending September 30, 2011, and are presented
      on a comparative basis with information previously reported for the fiscal year ending
      September 30, 2010.

      The following statements comprise the Navy Working Capital Fund principal statements:

       n	   Consolidated Balance Sheet
       n	   Consolidated Statement of Net Cost
       n	   Consolidated Statement of Changes in Net Position
       n	   Combined Statement of Budgetary Resources

      The principal statements and related notes have been prepared to report financial
      position pursuant to the requirements of the Chief Financial Officers Act of 1990, as
      amended by the Government Management Reform Act of 1994. The accompanying notes
      should be considered an integral part of the principal statements.




102
                                                        Department of Defense - Navy Working Capital Fund

                                               CONSOLIDATED BALANCE SHEET
                                                                 As of September 30, 2011 and 2010
                                                                        ($ in Thousands)
                                                                                                     2011 Consolidated          2010 Consolidated
 ASSETS (Note 2)
   Intragovernmental:
       Fund Balance with Treasury (Note 3)                                                      $               1,247,786   $                992,689
       Accounts Receivable (Note 5)                                                                               894,434                    965,699
       Other Assets (Note 6)                                                                                           10                        227
   Total Intragovernmental Assets                                                                               2,142,230                  1,958,615

     Cash and Other Monetary Assets (Note 7)                                                                        2,452                      1,531
     Accounts Receivable, Net (Note 5)                                                                             39,995                     70,615
     Inventory and Related Property, Net (Note 9)                                                              20,519,479                 14,264,715
     General Property, Plant, and Equipment, Net (Note 10)                                                      2,340,475                  2,554,317
     Other Assets (Note 6)                                                                                      1,021,730                    401,392
     TOTAL ASSETS                                                                               $              26,066,361   $             19,251,185
     Stewardship Property, Plant, and Equipment (Note 10) *

LIABILITIES (Note 11)
  Intragovernmental:
      Accounts Payable (Note 12)                                                                $                 181,490   $                159,514
      Other Liabilities (Note 15 & Note 16)                                                                       631,748                    428,926
  Total Intragovernmental Liabilities                                                                             813,238                    588,440

  Accounts Payable (Note 12)                                                                                    2,799,892                  2,828,324
  Military Retirement and Other Federal
  Employment Benefits (Note 17)                                                                                   739,256                    770,309
  Other Liabilities (Note 15 & Note 16)                                                                         1,174,979                  1,752,328
TOTAL LIABILITIES                                                                                               5,527,365                  5,939,401
Commitments and Contingencies (Note 16) *

NET POSITION
  Unexpended Appropriations - Other Funds                                                                           1,254                     28,521
  Cumulative Results of Operations - Other Funds                                                               20,537,742                 13,283,263
TOTAL NET POSITION                                                                                             20,538,996                 13,311,784

TOTAL LIABILITIES AND NET POSITION                                                              $              26,066,361   $             19,251,185

* - Disclosure but no value required per Federal Accounting Standards.

The accompanying notes are an integral part of the statements.




                                                                                                                                                103
                                                        Department of Defense - Navy Working Capital Fund

                                    CONSOLIDATED STATEMENT OF NET COST
                                                         For the Years Ended September 30, 2011 and 2010
                                                                       ($ in Thousands)
                                                                                                   2011 Consolidated           2010 Consolidated
 Program Costs
    Gross Costs
       Operations, Readiness, & Support                                                        $             46,240,534    $             27,458,067

     (Less: Earned Revenue)                                                                                 (54,714,590)                (30,276,489)
Net Cost of Operations                                                                         $             (8,474,056)   $             (2,818,422)

The accompanying notes are an integral part of the statements.




104
                                                        Department of Defense - Navy Working Capital Fund

                CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                         For the Years Ended September 30, 2011 and 2010
                                                                       ($ in Thousands)
                                                                                                   2011 Consolidated           2010 Consolidated
 CUMULATIVE RESULTS OF OPERATIONS
   Beginning Balances                                                                          $             13,283,263    $             10,385,207
   Prior Period Adjustments:
      Correction of errors (+/-)                                                                                      -                     473,378
   Beginning Balances, as adjusted                                                                           13,283,263                  10,858,585
   Budgetary Financing Sources:
      Appropriations used                                                                                        27,267                     205,977
      Nonexchange Revenue                                                                                             -                         212
   Other Financing Sources:
      Transfers in/out without reimbursement (+/-)                                                              (85,696)                    (62,137)
      Imputed financing from costs absorbed by others                                                           578,014                     591,919
      Other (+/-)                                                                                            (1,739,162)                 (1,129,715)
   Total Financing Sources                                                                                   (1,219,577)                   (393,744)
   Net Cost of Operations (+/-)                                                                              (8,474,056)                 (2,818,422)
   Net Change                                                                                                 7,254,479                   2,424,678
   Cumulative Results of Operations                                                            $             20,537,742    $             13,283,263

UNEXPENDED APPROPRIATIONS
  Beginning Balances                                                                           $                 28,521    $                 30,954
  Prior Period Adjustments:
     Correction of errors (+/-)                                                                                       -                           -
  Beginning Balances, as adjusted                                                                                28,521                      30,954
  Budgetary Financing Sources:
     Appropriations received                                                                                          -                     203,544
     Appropriations used                                                                                        (27,267)                   (205,977)
  Total Budgetary Financing Sources                                                                             (27,267)                     (2,433)
  Unexpended Appropriations                                                                                       1,254                      28,521
  Net Position                                                                                 $             20,538,996    $             13,311,784

The accompanying notes are an integral part of the statements.




                                                                                                                                               105
                                                        Department of Defense - Navy Working Capital Fund

                        COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                         For the Years Ended September 30, 2011 and 2010
                                                                       ($ in Thousands)
                                                                                                   2011 Combined              2010 Combined
 BUDGETARY FINANCING ACCOUNTS
   Budgetary Resources:
      Unobligated balance, brought forward, October 1                                          $             2,900,938    $            3,554,313
      Recoveries of prior year unpaid obligations                                                              564,486                   660,572
      Budget Authority:
            Appropriations received                                                                                  -                   203,544
            Contract Authority                                                                               7,218,237                 6,139,859
            Spending authority from offsetting collections:
             Earned
                  Collected                                                                                 28,314,017                26,273,602
                  Change in receivables from Federal sources                                                   (70,383)                  369,979
             Change in unfilled customer orders
                  Advances received                                                                            241,308                  (223,167)
                  Without advance from Federal sources                                                       1,192,068                   444,790
            Subtotal                                                                                        36,895,247                33,208,607
      Permanently not available                                                                             (8,318,066)               (7,736,410)
   Total Budgetary Resources                                                                                32,042,605                29,687,082

     Status of Budgetary Resources:
        Obligations incurred:
               Direct                                                                                           26,561                         -
               Reimbursable                                                                                 28,851,960                26,786,142
               Subtotal                                                                                     28,878,521                26,786,142
        Unobligated balance:
               Apportioned                                                                                   3,145,928                         -
               Exempt from Apportionment                                                                             -                 2,888,744
               Subtotal                                                                                      3,145,928                 2,888,744
        Unobligated balances not available                                                                      18,156                    12,196
     Total Status of Budgetary Resources                                                       $            32,042,605    $           29,687,082

The accompanying notes are an integral part of the statements.




106
                                                        Department of Defense - Navy Working Capital Fund

                        COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                         For the Years Ended September 30, 2011 and 2010
                                                                       ($ in Thousands)
                                                                                                   2011 Combined               2010 Combined
RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
 Change in Obligated Balance:
   Obligated balance, net
      Unpaid obligations, brought forward, October 1                                           $            12,105,212     $           12,411,972
      Less: Uncollected customer payments from Federal sources, brought
         forward, October 1                                                                                  (9,724,859)               (8,910,090)
      Total Unpaid Obligated Balance                                                                          2,380,353                 3,501,882
   Obligations incurred, net (+/-)                                                                           28,878,521                26,786,142
   Less: Gross outlays                                                                                      (28,300,227)              (26,432,333)
   Less: Recoveries of prior year unpaid obligations, actual                                                   (564,486)                 (660,572)
   Change in uncollected customer payments from Federal sources (+/-)                                        (1,121,687)                 (814,771)
   Obligated balance, net, end of period
      Unpaid obligations                                                                                     12,119,020                12,105,209
      Less: Uncollected customer payments from Federal sources                                              (10,846,546)               (9,724,861)
      Total Unpaid Obligated Balance, net, end of period                                                      1,272,474                 2,380,348

Net Outlays:
  Gross Outlays                                                                                              28,300,227                26,432,333
  Less: Offsetting collections                                                                              (28,555,323)              (26,050,433)
Net Outlays                                                                                    $               (255,096)   $              381,900

The accompanying notes are an integral part of the statements.




                                                                                                                                               107
                               Note 1. Significant Accounting Policies
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of
the Department of the Navy (DON) NWCF, as required by the Chief Financial Officers (CFO) Act of 1990,
expanded by the Government Management Reform Act of 1994, and other appropriate legislation. The financial
statements have been prepared from the books and records of the NWCF in accordance with, and to the extent
possible, U.S. generally accepted accounting principles (USGAAP) promulgated by the Federal Accounting
Standards Advisory Board; the Office of Management and Budget (OMB) Circular No. A-136, Financial
Reporting Requirements; and the Department of Defense (DoD), Financial Management Regulation (FMR). The
accompanying financial statements account for all resources for which the NWCF is responsible unless otherwise
noted.

The NWCF is unable to fully implement all elements of USGAAP and OMB Circular No. A-136, due to
limitations of financial and nonfinancial management processes and systems that support the financial
statements. The NWCF derives reported values and information for major asset and liability categories
largely from nonfinancial systems, such as inventory and logistic systems. These systems were designed to
support reporting requirements for maintaining accountability over assets and reporting the status of federal
appropriations rather than preparing financial statements in accordance with USGAAP. The NWCF continues to
implement process and system improvements addressing these limitations. DON is currently converting legacy
systems to Navy Enterprise Resource Planning (ERP) and developing plans to ensure accurate and complete
financial records.

The NWCF currently has 13 auditor identified financial statement weaknesses as stated in the Department of
Defense Inspector General (DoDIG) issued audit report dated November 9, 2011: (1) DON financial management
systems do not comply with USGAAP and the U.S. Government Standard General Ledger at the transaction
level; (2) Defense Working Capital Fund (DWCF) activities do not reconcile cash accounts to the Department
of the Treasury cash account balance on a regular basis; (3) DON does not reconcile subsidiary records to
corresponding general ledger accounts on a regular basis; (4) DON does not have adequate data, processes,
and methodologies to make accurate conversion of inventory balances from latest acquisition cost to historical
cost; (5) DON cannot establish or support ownership and valuation of General Equipment; (6) Unmatched
disbursement are transferred to accounts payable using journal vouchers; (7) DON needs to resolve unsupported,
undistributed disbursement as well as analyze contract accruals to determine these amounts are properly
posted to Other Liabilities; (8) the Statement of Budgetary Resources is populated from proprietary accounts
at a business-area-level and guidance and training need to be provided on appropriate accounts that should be
maintained; (9) Intragovernmental eliminations; (10) Unsupported accounting entries; (11) Operating Materiel
and Supplies; (12) Statement of Net Cost; and (13) Reconciliation of net cost of operations to budget.

Relative to the identified financial statement weaknesses, the DON has documented in its Statement of Assurance
dated August 26, 2011 the following corrective actions: (1) In FY 2011, DON has made significant progress in
reconciling its Fund Balance with Treasury (FBWT) for the Working Capital Fund (WCF) through the use of the
Cash Reconciliation Tool (CRT); (2) the Navy is completing conversion of Inventory records from legacy systems
into Navy ERP and once fully converted, the Navy plans on sample testing to ensure Inventory records are
accurate and complete; and (3) DON has developed a plan to ensure the existence of adequate documentation to
support accurate and timely Real Property estimates and valuations.

1.B. Mission of the Reporting Entity
The DON was created on April 30, 1798 by an act of Congress (I Stat. 533; 5 U.S.C. 411-12). The overall mission
of DON is to maintain, train, and equip combat-ready Navy and Marine Corps forces capable of winning wars,

108
deterring aggression, and maintaining freedom of the seas. The DON consists of eight reporting commands to
include the Naval Sea Systems Command (NAVSEA); Naval Air Systems Command (NAVAIR); Space and Naval
Warfare Systems Command (SPAWAR); Naval Facilities Engineering Command (NAVFAC); Naval Research Lab
(NRL); Military Sealift Command (MSC); Naval Supply Systems Command (NAVSUP); and the Marine Corp
(MC). The NWCF provides goods, services, and infrastructure to DON and other DoD customers to help ensure
our military forces are mobile, ready, and have the most advanced technology.

1.C. Appropriations and Funds
The NWCF receives appropriations and funds as working capital (revolving) funds. The NWCF uses these
appropriations and funds to execute its mission and subsequently report on resource usage.

WCF received funding to establish an initial corpus through an appropriation or a transfer of resources from
existing appropriations or funds. The corpus finances operations which result in transactions that flow through
the fund. The WCF resources the goods and services sold to customers on a reimbursable basis and maintain the
corpus. Reimbursable receipts fund future operations and generally are available in their entirety for use without
further congressional action. At various times, Congress provides additional appropriations to supplement the
WCF as an infusion of cash when revenues are inadequate to cover costs within the corpus.

1.D. Basis of Accounting
The NWCF’s financial management systems are unable to meet all full accrual accounting requirements. Many
of the NWCF’s financial and nonfinancial feeder systems and processes were designed and implemented prior to
the issuance of USGAAP. These systems were not designed to collect and record financial information on the full
accrual accounting basis as required by USGAAP. Most of NWCF’s financial and nonfinancial legacy systems
were designed to record information on a proprietary basis.

The financial statements and supporting trial balances are compiled from the underlying financial data and
trial balances of the sub-entities. The underlying data is largely derived from proprietary transaction from
nonfinancial feeder systems, and accruals made for major items such as payroll expenses, accounts payable,
Federal Employees’ Compensation Act (FECA) liabilities, and unbilled revenue. Some of the sub-entity level
trial balances may reflect known abnormal balances resulting largely from business and system processes. At
the consolidated level, these abnormal balances may not be evident. Disclosures of abnormal balances are made
in the applicable footnotes, but only to the extent that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes
into compliance with USGAAP. One such action is the conversion DON’s legacy systems to Navy ERP which
will be designed to modernize and standardize Navy’s business practices. Navy ERP will also be developed
within the U.S. Standard General Ledger (USSGL) account structure and be in compliance with applicable
financial management requirements.

1.E. Revenues and Other Financing Sources
The NWCF’s mission includes Depot Maintenance, Supply Management, Research and Development, Base
Support, and Transportation. Each of the NWCF programs recognizes revenues and other financing sources in
the manner described below.

Depot Maintenance WCF activities recognize revenue according to the percentage of completion method.
Supply Management WCF activities recognize revenue from the sale of inventory items. Research and
Development WCF activities recognize revenue according to the percentage of completion method or as actual
costs are incurred and billed. Base Support WCF activities recognize revenue at the time service is rendered.


                                                                                                                109
Transportation WCF activities recognize revenue on either a reimbursable or per diem basis. The majority of
per diem projects are billed and collected in the month services are rendered. The remaining per diem projects
accrue revenue in the month the services are rendered. For reimbursable projects, costs and revenue are
recognized in the month services are rendered.

The NWCF does not include nonmonetary support provided by U.S. allies for common defense and mutual
security in the amount reported in the Statement of Net Cost and Note 21, Reconciliation of Net Cost of
Operations to Budget. The U.S. has cost-sharing agreements with countries having a mutual or reciprocal
defense agreement, where U.S. troops are stationed, or where the U.S. Fleet is in a port.

1.F. Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period
incurred. Current financial and nonfinancial feeder systems were not designed to collect and record financial
information on the full accrual accounting basis. Estimates are made for major items, such as payroll expenses,
accounts payable, FECA liabilities, and unbilled revenue. Operating Materiel & Supplies (OM&S), operating
expenses are generally recognized when the items are purchased. Efforts are underway to transition to the
consumption method for recognizing OM&S expenses. Under the consumption method, OM&S would be
expensed when consumed. Due to system limitations, some expenditures for capital and other long-term
assets may be recognized as operating expenses. The NWCF continues to implement process and system
improvements to address these limitations.

1.G. Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intraentity activity and balances from consolidated
financial statements in order to prevent overstatement for business with itself. However, the NWCF cannot
accurately identify intragovernmental transactions by customer because NWCF’s systems do not track buyer
and seller data at the transaction level. Generally, seller entities within the DoD provide summary seller-side
balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal DoD accounting
offices. In most cases, the buyer-side records are adjusted to agree with DoD seller-side balances and are then
eliminated. The DoD is implementing replacement systems and a standard financial information structure
that will incorporate the necessary elements that will enable DoD to correctly report, reconcile, and eliminate
intragovernmental balances.

The U.S. Treasury’s Federal Intragovernmental Transactions Accounting Policy Guide and Treasury Financial
Manual Part 2 – Chapter 4700, Agency Reporting Requirements for the Financial Report of the United States
Government, provide guidance for reporting and reconciling intragovernmental balances. While NWCF is
unable to fully reconcile intragovernmental transactions with all federal agencies, NWCF is able to reconcile
balances pertaining to FECA transactions with the Department of Labor, and benefit program transactions with
the Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included.
The Federal Government does not apportion debt and its related costs to federal agencies. The DoD’s financial
statements do not report any public debt, interest, or source of public financing, whether from issuance of debt or
tax revenues.

1.H. Transactions with Foreign Governments and International Organizations
Each year, NWCF sells defense articles and services to foreign governments and international organizations
under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, DoD has
authority to sell defense articles and services to foreign countries and international organizations generally at no
profit or loss to the Federal Government. Payment in U.S. dollars is required in advance.
110
1.I. Funds with the U.S. Treasury
The NWCF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of the Defense
Finance and Accounting Service (DFAS), the Military Services, the U.S. Army Corps of Engineers (USACE),
and the Department of State’s financial service centers process the majority of the NWCF’s cash collections,
disbursements, and adjustments worldwide. Each disbursing station prepares monthly reports that provide
information to the U.S. Treasury on checks issued, electronic fund transfers, interagency transfers, and deposits.
The disbursing station monthly reports are consolidated at the disbursing office level for financial reporting
purposes.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation
on interagency transfers, collections received, and disbursements issued. The U.S. Treasury records these
transactions to the applicable FBWT account. On a monthly basis, FBWT is adjusted to agree with the U.S.
Treasury accounts.

1.J. Cash and Foreign Currency
Not applicable.

1.K. Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable, claims receivable, and
refunds receivable. In accordance with Statement of Federal Financial Accounting Standards (SFFAS) No. 1,
Accounting for Selected Assets and Liabilities, the methodology for losses due to uncollectable amounts are
based on an individual account analysis and/or group analysis. The analysis is based on three years of receivable
data. This data is used to determine the historical percentage of collections in each age category of receivables.
The DoD does not recognize an allowance for estimated uncollectible amounts from other federal agencies.
Claims against other federal agencies are to be resolved between the agencies in accordance with dispute
resolution procedures defined in the Intragovernmental Business Rules published in the Treasury Financial
Manual Bulletin No. 2011-08.

1.L. Direct Loans and Loan Guarantees
Not applicable.

1.M. Inventory and Related Property
The NWCF values approximately 92% of its resale inventory using the Moving Average Cost (MAC) method.
The NWCF reports the remaining 8% of resale inventories at an approximation of historical cost using Latest
Acquisition Cost (LAC) adjusted for holding gains and losses. The latest acquisition cost method is used because
legacy inventory systems were designed for materiel management rather than accounting. Materiel is a unique
term that relates to military force management, and includes items such as ships, tanks, self-propelled weapons,
aircraft, etc., and related spares, repair parts, and support equipment. Although these systems provide visibility
and accountability over inventory items, they do not maintain historical cost data necessary to comply with
SFFAS No. 3, Accounting for Inventory and Related Property. Additionally, these systems cannot produce
financial transactions using the USSGL, as required by the Federal Financial Management Improvement Act of
1996 (P.L. 104-208) (FFMIA). The NWCF is continuing to transition the balance of the inventories to the moving
average cost method through the implementation of Navy ERP. Most transitioned balances, however, were not
baselined to auditable historical cost and remain noncompliant with SFFAS No. 3.

The NWCF manages only military or government-specific materiel under normal conditions. Items commonly
used in and available from the commercial sector are not managed in NWCF’s materiel management activities.
Operational cycles are irregular and the military risks associated with stock-out positions have no commercial

                                                                                                              111
parallel. The NWCF holds materiel based on military need and support for contingencies. The DoD is currently
developing a methodology to be used to account for “inventory held for sale” and “inventory held in reserve for
future sale,” under the provisions of SFFAS No. 3, Accounting for Inventory and Related Property.

Related property includes OM&S. NWCF OM&S is categorized as (1) operating materiel and supplies held for
use, (2) operating materiel and supplies held in reserve for future use (including munitions not held for sale) and
(3) excess, obsolete and unserviceable operating materiel and supplies. The OM&S, including munitions not held
for sale, are valued at standard purchase price. The NWCF uses both the consumption method and the purchase
method of accounting for OM&S. Items that are centrally managed and stored, such as engines, are generally
recorded using the consumption method and are reported on the Balance Sheet as OM&S. When current systems
cannot fully support the consumption method, NWCF uses the purchase method. Under this method, materiel
and supplies are expensed when purchased. During FY 2011 and FY 2010, NWCF expensed significant amounts
using the purchase method because the systems could not support the consumption method or management
deemed that the item was in the hands of the end user. This is a material weakness for the DoD and long-term
system corrections are in process. Once the proper systems are in place, these items will be accounted for under
the consumption method of accounting.

The NWCF recognizes excess, obsolete, and unserviceable inventory and OM&S at a Net Realizable Value of $0
pending development of an effective means of valuing such materiel.

The NWCF is in agreement with SFFAS No. 3, Interpretation 7, “Items Held for Remanufacture,” that inventory
held for repair should be accounted for as inventory held for remanufacture. Inventory available and purchased
for resale includes consumable spare and repair parts and repairable items owned and managed by NWCF.
This inventory is retained to support military or national contingencies. Inventory held for repair is damaged
inventory that requires repair to make it suitable for sale. Often, it is more economical to repair these items
rather than to procure them. The NWCF often relies on weapon systems and machinery no longer in production
and held for repair, as a result, NWCF supports a process that encourages the repair and rebuilding of weapon
systems and machinery. This repair cycle is essential to maintaining a ready, mobile, and armed military force.
Work in process balances include (1) costs related to the production or servicing of items, including direct
material, labor, applied overhead; (2) the value of finished products or completed services that are yet to be
placed in service; and (3) munitions in production and depot maintenance work with its associated costs incurred
in the delivery of maintenance services.

1.N. Investments in U.S. Treasury Securities
Not applicable.

1.O. General Property, Plant and Equipment
Federal Property, Plant, and Equipment (PP&E) consists of four categories: General PP&E, Federal Mission
PP&E, Heritage Assets, and Stewardship Land. Military Equipment, Heritage Assets and Stewardship Land are
reported on the financial statements of the DON’s General Fund (GF). The WCF classifies all PP&E assets in the
General PP&E category. The NWCF’s General PP&E capitalization threshold is $100 thousand except for real
property, which is $20 thousand.

With the exception of USACE Civil Works and WCF, General PP&E assets are capitalized (in accordance with
SFFAS No. 6, Accounting for Property, Plant, and Equipment) at historical acquisition cost when an asset has a
useful life of two or more years and when the acquisition cost equals or exceeds DoD’s capitalization threshold.
The DoD also requires the capitalization of improvements to existing General PP&E assets if the improvements
equal or exceed the capitalization threshold and extend the useful life or increase the size, efficiency, or capacity
of the asset. The DoD depreciates all General PP&E, other than land, on a straight-line basis.

112
When it is in the best interest of the government, the NWCF provides government property to contractors to
complete contract work. The NWCF either owns or leases such property, or it is purchased directly by the
contractor for the government based on contract terms. When the value of contractor-procured General PP&E
meets or exceeds the DoD capitalization threshold, federal accounting standards require that it be reported on
NWCF’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished equipment that
provides appropriate General PP&E information for financial statement reporting in accordance with Federal
Acquisition Regulations (FAR). The DoD requires NWCF to maintain, in their property systems, information
on all property furnished to contractors. These actions are structured to capture and report the information
necessary for compliance with federal accounting standards. The NWCF has not fully implemented this policy
primarily due to system limitations.

1.P. Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy as
prescribed in SFFAS No. 1, Accounting for Selected Assets and Liabilities is to record advances or prepayments
in accordance with USGAAP. As such, payments made prior to the receipt of goods and services should be
reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when
the related goods and services are received. The NWCF has not implemented this policy primarily due to system
limitations.

1.Q. Leases
In accordance with SFFAS No. 5, Accounting for Liabilities of the Federal Government, lease payments for the
rental of equipment and operating facilities are classified as either capital or operating leases. When a lease is
essentially equivalent to an installment purchase of property (a capital lease), and the value equals or exceeds
the current capitalization threshold, NWCF records the applicable asset as though purchased, with an offsetting
liability, and depreciates it. The NWCF records the asset and the liability at the lesser of the present value of the
rental and other lease payments during the lease term (excluding portions representing executory costs paid to
the lessor) or the asset’s fair market value. The discount rate for the present value calculation is either the lessor’s
implicit interest rate or the government’s incremental borrowing rate at the inception of the lease. The NWCF, as
the lessee, receives the use and possession of leased property, for example real estate or equipment, from a lessor
in exchange for a payment of funds. An operating lease does not substantially transfer all the benefits and risk of
ownership. Payments for operating leases are expensed over the lease term as they become payable.

Office space and leases entered into by NWCF are the largest component of operating leases and are based
on costs gathered from existing leases, General Services Administration (GSA) bills, and interservice support
agreements. Future year projections use the Consumer Price Index.

1.R. Other Assets
Other assets include nonfederal advances and prepayments, military and civil service employee pay advances,
travel advances, and certain contract financing payments that are not reported elsewhere on NWCF’s Balance
Sheet.

Due to inconsistencies in the posting logic for Nonfederal Advances and Prepayments, NWCF is noncompliant
with the FFMIA, which requires agencies to comply with the Federal financial management systems
requirements, standards promulgated by the Federal Accounting Standards Advisory Board (FASAB), and the
USSGL at the transaction level.



                                                                                                                   113
The NWCF conducts business with commercial contractors under two primary types of contracts: fixed price
and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts
can cause, NWCF may provide financing payments. Contract financing payments are defined in the Federal
Acquisition Regulations, Part 32, as authorized disbursements to a contractor prior to acceptance of supplies
or services by the Government. Contract financing payments clauses are incorporated in the contract terms
and conditions and may include advance payments, performance-based payments, commercial advances and
interim payments, progress payments based on cost, and interim payments under certain cost-reimbursement
contracts. It is DoD policy to record certain contract financing payments as other assets. The NWCF has not fully
implemented this policy primarily due to system limitations.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental
payments, or progress payments based on a percentage or stage of completion. The Defense Federal Acquisition
Regulation Supplement authorizes progress payments based on a percentage or stage of completion only for
construction of real property, shipbuilding, and ship conversion, alteration, or repair. Progress payments based
on percentage or stage of completion are reported as Construction in Progress.

1.S. Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12,
Recognition of Contingent Liabilities Arising from Litigation, defines a contingency as an existing condition,
situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will
be resolved when one or more future events occur or fail to occur. The NWCF recognizes contingent liabilities
when past events or exchange transactions occur, a future loss is probable, and the loss amount can be reasonably
estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but
there is at least a reasonable possibility of incurring a loss or additional losses. The NWCF’s risk of loss and
resultant contingent liabilities arise from pending or threatened litigation or claims and assessments due to
events such as aircraft, ship and vehicle accidents; medical malpractice; property or environmental damages; and
contract disputes.

1.T. Accrued Leave
Military leave, compensatory and annual leave earned by civilians, but not yet used, is reported as accrued
liabilities. The accrued balance is adjusted annually to reflect current pay rates. Any portions of the accrued leave
for which funding is not available, are recorded as an unfunded liability. Sick leave for civilians is expensed as
taken.

1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
Appropriations represent the amounts of budget authority that are unobligated and have not been rescinded
or withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for
payments have not been incurred. Cumulative Results of Operations represent the net difference between
expenses and losses, and financing sources (including appropriations, revenue, and gains), since inception.
The cumulative results of operations also include donations and transfers in and out of assets that were not
reimbursed.

1.V. Treaties for Use of Foreign Bases
The DoD has the use of land, buildings, and other overseas facilities that are obtained through various
international treaties and agreements negotiated by the Department of State. The NWCF purchases capital assets

114
overseas with appropriated funds; however, the host country retains title to the land and capital improvements.
Treaty terms generally allow NWCF continued use of these properties until the treaties expire. In the event
treaties or other agreements are terminated, use of the foreign bases is prohibited and losses are recorded for the
value of any nonretrievable capital assets. The settlement due to the U.S. or host nation is negotiated and takes
into account the value of capital investments and may be offset by the cost of environmental cleanup.

1.W. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections
matched at the transaction level to specific obligations, payables, or receivables in the source systems and those
reported by the U.S. Treasury.

Supported undistributed disbursements and collections are evidenced by corroborating documentation.
Unsupported undistributed disbursements and collections do not have supporting documentation for the
transaction and most likely would not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and
nonfederal categories based on the percentage of distributed federal and nonfederal accounts payable and
accounts receivable. Supported undistributed disbursements and collections are then applied to reduce accounts
payable and receivable accordingly. Unsupported undistributed disbursements are recorded as disbursements
in transit and reduce nonfederal accounts payable. Unsupported undistributed collections are recorded in
nonfederal other liabilities.

1.X. Fiduciary Activities
Not applicable.

1.Y. Military Retirement and Other Federal Employment Benefits
The Department applies SFFAS No. 33, Pensions, Other Retirement Benefits, and Other Postemployment Benefits:
Reporting the Gains and Losses from Changes in Assumptions and Selecting Discount Rates and Valuation
Dates, in selecting the discount rate and valuation date used in estimating actuarial liabilities. In addition, gains
and losses from changes in long-term assumptions used to estimate the actuarial liability are presented on Note
17, Military Retirement and Other Federal Employment Benefits and Note 18, General Disclosures Related to the
Statement of Net Cost, for additional information.

1.Z. Significant Events
Not applicable.




                                                                                                                115
                                               Note 2. Nonentity Assets
                                As of September 30                        2011               2010
      (Amounts in thousands)

      1.	 Intragovernmental Assets
           A.	Fund Balance with Treasury                       $                    - $                 -
           B.	 Accounts Receivable                                                  -                   -
           C.	 Other Assets                                                         -                   -
           D.	Total Intragovernmental Assets                   $                    - $                 -

      2.	 Nonfederal Assets
          A.	Cash and Other Monetary Assets                    $                     - $                -
          B.	 Accounts Receivable                                                6,513              6,480
          C.	 Other Assets                                                           -                  -
          D.	Total Nonfederal Assets                            $                6,513 $            6,480

      3.	 Total Nonentity Assets                                $                6,513 $            6,480

      4.	 Total Entity Assets                                   $          26,059,848 $        19,244,705

      5.	 Total Assets                                          $          26,066,361 $        19,251,185

Nonentity assets are assets for which the NWCF maintains stewardship accountability and reporting
responsibility, but are not available for the NWCF’s normal operations.

The Nonentity Nonfederal Accounts Receivable amount represents interest, penalties, fines and administrative
fees that will be deposited directly into a Treasury general fund receipts account upon collection.


                                      Note 3. Fund Balance with Treasury
                                As of September 30                        2011               2010
      (Amounts in thousands)

      1.	 Fund Balances
           A.	Appropriated Funds                               $                    - $                -
           B.	 Revolving Funds                                              1,247,786            992,689
           C.	 Trust Funds                                                          -                  -
           D.	Special Funds                                                         -                  -
           E.	 Other Fund Types                                                     -                  -
           F.	 Total Fund Balances                             $            1,247,786 $          992,689

      2.	 Fund Balances Per Treasury Versus Agency
           A.	Fund Balance per Treasury                        $            1,247,787 $          992,689
           B.	 Fund Balance per DON                                         1,247,786            992,689

      3.	 Reconciling Amount                                   $                    1 $                0




116
                                    Status of Fund Balance with Treasury
                               As of September 30                        2011                  2010
     (Amounts in thousands)

     1.	 Unobligated Balance
         A.	Available                                         $            3,145,928 $            2,888,745
         B.	 Unavailable                                                      18,156                 12,194

     2.	 Obligated Balance not yet Disbursed                              12,119,020             12,105,210

     3.	 Nonbudgetary FBWT                                                          -                      -

     4.	 NonFBWT Budgetary Accounts                                       (14,035,318)          (14,013,460)

     5.	Total                                                 $            1,247,786 $             992,689

The Status of FBWT reflects the budgetary resources to support FBWT and is a reconciliation between budgetary
and proprietary accounts. It primarily consists of unobligated and obligated balances. The balances reflect the
budgetary authority remaining for disbursement against current and future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary
authority that has not been set aside to cover outstanding obligations.

Obligated Balance not yet disbursed represents funds that have been obligated for goods and services not
received, and those received but not paid.

NonFBWT Budgetary Accounts reduces the Status of FBWT. This amount is comprised of contract authority,
accounts receivable, and unfilled orders without advance from customers for the NWCF.


                                 Note 4. Investments and Related Interest
Not applicable.




                                                                                                               117
                                          Note 5. Accounts Receivable
                       As of September 30                                               2011
                                                                            Allowance For Estimated
      (Amounts in thousands)                             Gross Amount Due        Uncollectibles       Accounts Receivable, Net


      1.	 Intragovernmental Receivables              $            894,434                    N/A $                  894,434
      2.	 Nonfederal Receivables (From the Public)                 58,413                 (18,418)                   39,995

      3.	 Total Accounts Receivable                  $            952,847 $               (18,418) $                934,429

                       As of September 30                                               2010
                                                                            Allowance For Estimated
      (Amounts in thousands)                             Gross Amount Due        Uncollectibles       Accounts Receivable, Net


      1.	 Intragovernmental Receivables              $            965,699                    N/A $                  965,699
      2.	 Nonfederal Receivables (From the Public)                 70,615                       -                    70,615

      3.	 Total Accounts Receivable                  $           1,036,314 $                      - $             1,036,314

The DON is currently working on an effort to drive compliance with OMB Circular A-11, Section 20.4(b)(4).
Non-compliance results in unsupported departmental level adjustments which negatively impacts achievement
of the DON’s audit readiness goals for its Statement of Budgetary Resources. DON is partnering with its service
providers to clarify guidance, resolve funding issues and standardize business practices. In addition, the DON
and DFAS are aggressively pursuing collection mechanisms for amounts currently due from the public. Since
the DON is at risk of not collecting on these public accounts receivable, the DON is recognizing an allowance for
uncollectible amounts. NWCF recognized an allowance for estimated uncollectible of $18.4M as compared to
FY 2010 when the methodology was not used. The methodology used in determining the allowance amount is
discussed in Note 1.K.

The NWCF Intragovernmental Accounts Receivable balance is $1,214.5 million in the accounting system prior
to adjustments recorded for trading partners and undistributed collections required in the preparation of the
NWCF consolidated statements.

The NWCF Nonfederal Accounts Receivable balance is $61.5 million in the accounting systems prior to
adjustments recorded for trading partners, undistributed collections, or interest, penalties, and administrative
fees required in the preparation of the NWCF consolidated statements.

Claims with other federal agencies are resolved in accordance with the Intragovernmental Business Rules.




118
                                                Note 6. Other Assets
                             As of September 30                           2011                    2010
    (Amounts in thousands)

    1.	 Intragovernmental Other Assets
         A.	Advances and Prepayments                           $                   10 $                  227
         B.	 Other Assets                                                           -                      -
         C.	 Total Intragovernmental Other Assets              $                   10 $                  227

    2.	 Nonfederal Other Assets
        A.	Outstanding Contract Financing Payments             $               461,867 $              293,838
        B.	 Advances and Prepayments                                           558,464                103,024
        C.	 Other Assets (With the Public)                                       1,399                  4,530
        D.	Total Nonfederal Other Assets                       $             1,021,730 $              401,392

    3.	 Total Other Assets                                     $             1,021,740 $              401,619

The balance of Outstanding Contract Financing Payments includes $430.6 million in contract financing
payments and an additional $31.3 million in estimated future funded payments to contractors upon delivery and
Government acceptance of a satisfactory product. (See additional discussion in Note 15, Other Liabilities)

Contract terms and conditions for certain types of contract financing payments convey certain rights to the
NWCF that protect the contract work from state or local taxation, liens or attachment by the contractor’s
creditors, transfer of property, or disposition in bankruptcy. However, these rights should not be misconstrued
to mean that ownership of the contractor’s work has transferred to the Federal Government. The Federal
Government does not have the right to take the work, except as provided in contract clauses related to
termination or acceptance, and NWCF is not obligated to make payment to the contractor until delivery and
acceptance of a satisfactory product.

Nonfederal Other Assets - Advances and Prepayments are cash outlays and payments made by the NWCF to
contractors, grantees, or others to cover the recipients’ anticipated and periodic expenses before those expenses
are incurred. Advances and prepayments are reduced when goods and services are received, contract terms are
met, progress is made on a contract, or prepaid expenses expire.

There are two factors driving the large increase in Nonfederal Advances and Prepayments: (1) Nonfederal Other
Assets - Advances and Prepayments increased $455.4 million primarily attributable to Navy Supply Management
due to a reclassification of Federal Advances and Prepayments to Nonfederal Advances and Prepayments in
order to reconcile seller side trading partner data; and (2) The Navy ERP proprietary posting logic is not correctly
relieving advances which caused the Federal advances account to be overstated due to the posting logic’s
noncompliance with USSGL. The issue has been logged in the Navy ERP Program Management Office Quality
Center and NWCF will continue to work on a resolution.

Other Assets (With the Public) consists of prepayments made to vendors and travel advances.




                                                                                                                119
                                  Note 7. Cash and Other Monetary Assets
                               As of September 30                      2011                   2010
      (Amounts in thousands)

      1.	Cash                                                     $           2,452 $                1,531
      2.	 Foreign Currency                                                        -                      -
      3.	 Other Monetary Assets                                                   -                      -

      4.	 Total Cash, Foreign Currency, & Other Monetary Assets   $           2,452 $                1,531

NWCF Cash consists of coins, paper currency and readily negotiable instruments. There are no restrictions on
cash.


                                  Note 8. Direct Loan and Loan Guarantees
Not applicable.


                                   Note 9. Inventory and Related Property
                               As of September 30                      2011                   2010
      (Amounts in thousands)

      1.	 Inventory, Net                                          $      20,315,654 $          14,044,853
      2.	 Operating Materiel & Supplies, Net                                203,825               219,862
      3.	 Stockpile Materiel, Net                                                 -                     -

      4.	Total                                                    $      20,519,479 $          14,264,715




120
                                                    Inventory, Net
                    As of September 30                                                     2011
                                                        Inventory Gross    Revaluation
     (Amounts in thousands)                                  Value         Allowance         Inventory, Net    Valuation Method



     1.	 Inventory Categories
          A.	Available and Purchased for Resale     $        9,870,424 $        834,387 $         10,704,811     LAC, MAC
        B.	 Held for Repair                                  9,446,780          103,362            9,550,142     LAC, MAC
        C.	 Excess, Obsolete, and Unserviceable                582,729         (582,729)                   -        NRV
        D.	Raw Materiel                                              -                -                    -    MAC, SP, LA
        E.	 Work in Process                                     60,701                -               60,701         AC


        F.	 Total                                   $      19,960,634 $         355,020 $         20,315,654

                    As of September 30                                                     2010
                                                        Inventory Gross    Revaluation
     (Amounts in thousands)                                  Value         Allowance         Inventory, Net    Valuation Method


     1.	 Inventory Categories
          A.	Available and Purchased for Resale     $      26,013,203 $     (16,247,006) $         9,766,197     LAC, MAC
          B.	 Held for Repair                               7,133,683        (3,070,881)           4,062,802     LAC, MAC
          C.	 Excess, Obsolete, and Unserviceable           1,031,765        (1,031,765)                   -        NRV
          D.	Raw Materiel                                           -                 -                    -    MAC, SP, LA
          E.	 Work in Process                                 215,854                 -              215,854         AC


        F.	 Total                                   $      34,394,505 $     (20,349,652) $        14,044,853

      Legend for Valuation Methods:
     LAC = Latest Acquistion Cost	        NRV = Net Realizable Value	           MAC = Moving Average Cost
     SP = Standard Price		                LCM = Lower of Cost or Market
     AC = Actual Cost			                  O = Other

There are no restrictions on the use, sale, or disposition of inventory except in the following situations:

  1)	 Distributions without reimbursement are made when authorized by DoD directives;

  2)	 War reserve materiel in the amount of $59.4 thousand includes repair items that are considered restricted;
      and

  3)	 Inventory, with the exception of safety stocks, may be sold to foreign, state, and local governments;
      private parties; and contractors in accordance with current policies and guidance or at the direction of the
      President.

There are no known restrictions on disposition of inventory as related to environmental or other liabilities.

Inventory available and purchased for resale includes consumable spare and repair parts as well as reparable
items owned and managed by the NWCF and includes all materiel available for customer purchase. Inventory
held for repair consists of damaged materiel that requires repair to make it usable and all economically reparable
materiel. Excess inventory includes scrap materiels or items that are uneconomical to repair and are awaiting
disposal. Work in process includes costs related to the production or servicing of items, including direct materiel,



                                                                                                                                  121
direct labor, applied overhead, and other direct costs. Work in process also includes the value of finished
products or completed services pending the submission of bills to the customer.

Federal Accounting Standards require disclosure of the amount of inventory held for “future sale.” The NWCF
currently has $526.2 million reported for 4th Quarter, FY 2011 in Inventory Held for Sale, Net.

Inventory is assigned to categories based upon condition of the inventory items, or in the case of raw materiel
and work-in-process based upon stage of fabrication.

Supply Management’s inventory is reported using two methods: the approximation of historical cost method
and Moving Average Cost (MAC). The approximation of historical cost is calculated by using the Latest
Acquisition Cost (LAC) less the allowance for holding gains and losses. MAC is calculated each time costs are
incurred for a purchase or a repairable item is remanufactured by dividing the cost of total units available at
the time by the number of total units available at that time. Legacy inventory systems were designed to capture
materiel management information rather than accounting data. Although these systems provide visibility
and accountability over inventory items, they do not maintain historical cost data necessary to comply with
the SFFAS No. 3, Accounting for Inventory and Related Property. The Office of Under Secretary of Defense,
Comptroller (OUSD (C)) Cost of Goods Sold Model revalued inventory causing NWCF to be non-compliant with
SFFAS No. 3. The Navy ERP system values inventory at MAC in accordance with generally accepted accounting
principles. At the end of FY11, 92% of NWCF inventory was valued at MAC. For compliance, the revaluation of
the inventory to MAC occurred in the field accounting system to be compliant with SFFAS No. 3.

The conversion of wholesale inventory from legacy systems into Navy ERP contributed to the NWCF abnormal
balance of $834.4 million in the Allowance for Available and Purchased for Resale. Included in the allowance
account are losses that occurred as a result of converting inventory from LAC to MAC. Furthermore, we are
in the process of converting retail inventory into Navy ERP which is projected to be completed by the end of
FY 2012. Upon the completion of the retail conversion in FY 2012, Supply Management, Navy will develop a
plan to address abnormal balances that remain in the legacy systems.




122
                                   Operating Materiel and Supplies, Net
                      As of September 30                                                2011
                                                                          Revaluation                        Valuation
    (Amounts in thousands)                             OM&S Gross Value   Allowance            OM&S, Net      Method


    1.	 OM&S Categories
                                                                                                             SP, LAC,
        A.	Held for Use                                $      203,825 $                 - $        203,825    MAC
                                                                                                             SP, LAC,
        B.	 Held for Repair                                         -                   -                -    MAC
        C.	 Excess, Obsolete, and Unserviceable                     -                   -                -    NRV
        D.	Total                                       $      203,825 $                 - $        203,825


                      As of September 30                                                2010
                                                                          Revaluation                        Valuation
    (Amounts in thousands)                             OM&S Gross Value   Allowance            OM&S, Net      Method


    1.	 OM&S Categories
                                                                                                             SP, LAC,
        A.	Held for Use                                $      219,862 $                 - $        219,862    MAC
                                                                                                             SP, LAC,
        B.	 Held for Repair                                         -                   -                -    MAC
        C.	 Excess, Obsolete, and Unserviceable                     -                   -                -    NRV
        D.	Total                                       $      219,862 $                 - $        219,862

    Legend for Valuation Methods:
    LAC = Latest Acquistion Cost	       NRV = Net Realizable Value
    SP = Standard Price		               MAC = Moving Average Cost

OM&S held for use consists of property that is consumed during normal operations and includes consumable
spare and repair parts for use on customer work by various activities.

There are no restrictions with regard to the use, sale, or disposition of OM&S applicable to NWCF activities.

The NWCF determines categories to which OM&S are assigned based upon readiness for issue and use as
determined by condition of the individual inventory items.

SFFAS No. 3 require disclosure of the amount of OM&S held for “future use.” The NWCF reports that $0 of
OM&S is held for future use and is included in the “held for use” category. These items are not readily available
in the market and there is a more than remote chance that they will eventually be needed.


                                              Stockpile Materiel, Net
Not applicable.




                                                                                                                         123
                                              Note 10. General PP&E, Net
                  As of September 30                                                       2011
                                                Depreciation/                                      (Accumulated
                                                Amortization                                       Depreciation/
      (Amounts in thousands)                      Method        Service Life   Acquisition Value   Amortization)       Net Book Value



      1.	 Major Asset Classes
          A.	Land                                  N/A             N/A         $        31,269              N/A $             31,269
          B.	 Buildings, Structures, and
              Facilities                            S/L           20 or 40          6,642,569 $       (5,095,377)          1,547,192
          C.	 Leasehold Improvements                S/L         lease term                  -                  -                   -
          D.	Software                               S/L          2-5 or 10            402,760           (311,388)             91,372
          E.	 General Equipment                     S/L           5 or 10           2,656,854         (2,152,881)            503,973
          F.	 Military Equipment                    S/L           various                   -                  -                   -
          G.	Shipbuilding (Construction-in-
              Progress)                            N/A             N/A                         -                   -                -
          H.	Assets Under Capital Lease            S/L          lease term                     -                   -                -
          I.	 Construction-in-Progress
              (Excludes Military Equipment)        N/A             N/A                166,657               N/A              166,657
          J.	 Other                                N/A             N/A                     12                  -                  12
          K.	 Total General PP&E                                               $    9,900,121 $       (7,559,646) $        2,340,475

                  As of September 30                                                       2010
                                                Depreciation/                                      (Accumulated
                                                Amortization                                       Depreciation/
      (Amounts in thousands)                      Method        Service Life   Acquisition Value   Amortization)       Net Book Value


      1.	 Major Asset Classes
          A.	Land                                  N/A             N/A         $        37,317              N/A $             37,317
          B.	 Buildings, Structures, and
              Facilities                            S/L           20 or 40          6,550,506 $       (4,812,815)          1,737,691
          C.	 Leasehold Improvements                S/L         lease term                 46                (14)                 32
          D.	Software                               S/L          2-5 or 10            477,773           (369,301)            108,472
          E.	 General Equipment                     S/L           5 or 10           2,585,375         (2,086,154)            499,221
          F.	 Military Equipment                    S/L           various                   -                  -                   -
          G.	Shipbuilding (Construction-in-
              Progress)                            N/A             N/A                         -                   -                -
          H.	Assets Under Capital Lease            S/L          lease term                     -                   -                -
          I.	 Construction-in-Progress
              (Excludes Military Equipment)        N/A             N/A                170,078               N/A              170,078
          J.	 Other                                N/A             N/A                  1,506                  -               1,506
          K.	 Total General PP&E                                               $    9,822,601 $       (7,268,284) $        2,554,317

      Legend for Valuation Methods:
      S/L = Straight Line	     N/A = Not Applicable

There are no known restrictions on the use or convertibility of General PP&E.

The acquisition cost for General PP&E is captured and maintained in the applicable property accountability
systems. There are no material amounts or types of General PP&E for which the acquisition cost is unknown.

General PP&E, Other consists of $11.5 thousand of assets awaiting disposal.



124
Military equipment, heritage assets and stewardship land are reported on the financial statements of the
DON GF.


                                            Assets under Capital Lease
Not applicable.


                      Note 11. Liabilities Not Covered by Budgetary Resources
                             As of September 30                            2011                   2010
        (Amounts in thousands)

    1.	 Intragovernmental Liabilities
         A.	Accounts Payable                                    $                    - $                    -
         B.	 Debt                                                                    -                      -
         C.	 Other                                                             161,605                163,568
         D.	Total Intragovernmental Liabilities                 $              161,605 $              163,568

    2.	 Nonfederal Liabilities
        A.	Accounts Payable                                     $                   - $                      -
        B.	 Military Retirement and Other Federal Employment
            Benefits                                                           739,256                770,308
        C.	 Environmental Liabilities                                                -                      -
        D.	Other Liabilities                                                         -                      -
        E.	 Total Nonfederal Liabilities                        $              739,256 $              770,308

    3.	 Total Liabilities Not Covered by Budgetary Resources    $              900,861 $              933,876

    4.	 Total Liabilities Covered by Budgetary Resources        $            4,626,504 $             5,005,525

    5.	 Total Liabilities                                       $            5,527,365 $             5,939,401

Liabilities Not Covered by Budgetary Resources include liabilities for which congressional action is needed
before budgetary resources can be provided.

Other Intragovernmental Liabilities consist of the unfunded portion of FECA liability that will be funded by
future year’s budgetary resources.

Military Retirement and Other Federal Employment Benefits consists of various employee actuarial liabilities
not due and payable during the current fiscal year. These liabilities primarily consist of FECA Actuarial liability
of $739.2 million. Refer to Note 17, Military Retirement and Other Federal Employment Benefits, for additional
details and disclosures.




                                                                                                                 125
                                            Note 12. Accounts Payable
                       As of September 30                                                2011
                                                                               Interest, Penalties, and
      (Amounts in thousands)                            Accounts Payable        Administrative Fees        Total


      1.	 Intragovernmental Payables                $              181,490 $                      N/A $        181,490
      2.	 Nonfederal Payables (to the Public)                    2,799,892                           -       2,799,892
      3.	Total                                      $            2,981,382 $                         - $     2,981,382

                       As of September 30                                                2010
                                                                               Interest, Penalties, and
      (Amounts in thousands)                            Accounts Payable        Administrative Fees        Total


      1.	 Intragovernmental Payables                $              159,514 $                      N/A $        159,514
      2.	 Nonfederal Payables (to the Public)                    2,828,324                           -       2,828,324
      3.	Total                                      $            2,987,838 $                         - $     2,987,838

Accounts Payable includes amounts owed to federal and nonfederal entities for goods and services received by
NWCF. The NWCF’s systems do not track intra-governmental transactions by customer at the transaction level.
As a result, in the intra-governmental eliminations process, buyer-side accounts payable are adjusted to agree
with supportable intra-agency seller-side accounts receivable. Accounts payable was adjusted by reclassifying
amounts between federal and nonfederal accounts payable.

The NWCF Intragovernmental Accounts Payable balance is $1,216.8 million in the accounting system prior to
adjustments recorded for intra-governmental eliminations and undistributed disbursements required in the
preparation of the NWCF consolidated statements.

The NWCF Nonfederal Accounts Payable balance is $2,355.3 million in the accounting systems prior to
adjustments recorded for undistributed disbursements required in the preparation of the NWCF consolidated
statements.


                                                 Note 13. Debt
Not applicable.


                    Note 14. Environmental Liabilities and Disposal Liabilities
The NWCF Environmental Liabilities are reported under the DON GF.




126
                                       Note 15. Other Liabilities
                      As of September 30                                                   2011
(Amounts in thousands)                                        Current Liability   Noncurrent Liability     Total


1. Intragovernmental
     A.	Advances from Others                              $            441,336 $                   - $        441,336
     B.	 Deposit Funds and Suspense Account Liabilities                      -                     -                -
     C.	 Disbursing Officer Cash                                             -                     -                -
     D.	Judgment Fund Liabilities                                            -                     -                -
     E.	 FECA Reimbursement to the Dept. of Labor                       69,616                91,988          161,604
     F.	 Custodial Liabilities                                           6,513                     -            6,513
     G.	Employer Contribution and Payroll Taxes Payable                 22,295                     -           22,295
     H.	Other Liabilities                                                    -                     -                -

   I.	 Total Intragovernmental Other Liabilities          $            539,760 $              91,988 $        631,748

2.	Nonfederal
   A.	Accrued Funded Payroll and Benefits                 $            910,890                       - $      910,890
   B.	 Advances from Others                                            232,077                       -        232,077
   C.	 Deferred Credits                                                      -                       -              -
   D.	Deposit Funds and Suspense Accounts                               (2,502)                      -         (2,502)
   E.	 Temporary Early Retirement Authority                                  -                       -              -
   F.	 Nonenvironmental Disposal Liabilities
       (1)	Military Equipment (Nonnuclear)                                    -                    -                    -
       (2)	Excess/Obsolete Structures                                         -                    -                    -
       (3)	Conventional Munitions Disposal                                    -                    -                    -
   G.	Accrued Unfunded Annual Leave                                           -                    -                    -
   H.	Capital Lease Liability                                                 -                    -                    -
   I.	 Contract Holdbacks                                                 1,186                    -                1,186
   J.	 Employer Contribution and Payroll Taxes Payable                    2,020                    -                2,020
   K.	 Contingent Liabilities                                                 -               31,308               31,308
   L.	 Other Liabilities                                                      -                    -                    -

   M.	Total Nonfederal Other Liabilities                  $          1,143,671 $              31,308 $      1,174,979

3.	 Total Other Liabilities                               $          1,683,431 $             123,296 $      1,806,727




                                                                                                                            127
                            As of September 30                                                  2010
      (Amounts in thousands)                                       Current Liability   Noncurrent Liability     Total


      1.	Intragovernmental
          A.	Advances from Others                              $            204,262 $                   - $        204,262
          B.	 Deposit Funds and Suspense Account Liabilities                      -                     -                -
          C.	 Disbursing Officer Cash                                             -                     -                -
          D.	Judgment Fund Liabilities                                            -                     -                -
          E.	 FECA Reimbursement to the Dept. of Labor                       71,969                91,600          163,569
          F.	 Custodial Liabilities                                           6,480                     -            6,480
          G.	Employer Contribution and Payroll Taxes Payable                 54,615                     -           54,615
          H.	Other Liabilities                                                    -                     -                -

         I.	 Total Intragovernmental Other Liabilities         $            337,326 $              91,600 $        428,926

      2.	Nonfederal
         A.	Accrued Funded Payroll and Benefits                $          1,002,417 $                     - $    1,002,417
         B.	 Advances from Others                                           235,076                       -        235,076
         C.	 Deferred Credits                                                     -                       -              -
         D.	Deposit Funds and Suspense Accounts                                  25                       -             25
         E.	 Temporary Early Retirement Authority                                 -                       -              -
         F.	 Nonenvironmental Disposal Liabilities
             (1)	Military Equipment (Nonnuclear)                                  -                     -                -
             (2)	Excess/Obsolete Structures                                       -                     -                -
             (3)	Conventional Munitions Disposal                                  -                     -                -
         G.	Accrued Unfunded Annual Leave                                         -                     -                -
         H.	Capital Lease Liability                                               -                     -                -
         I.	 Contract Holdbacks                                                 850                     -              850
         J.	 Employer Contribution and Payroll Taxes Payable                  1,292                     -            1,292
         K.	 Contingent Liabilities                                         485,395                27,273          512,668
         L.	 Other Liabilities                                                    -                     -                -

         M.	Total Nonfederal Other Liabilities                 $          1,725,055 $              27,273 $      1,752,328

      3.	 Total Other Liabilities                              $          2,062,381 $             118,873 $      2,181,254

Contingent Liabilities includes $31.3 million related to contracts authorizing progress payments based on cost
as defined in the FAR. In accordance with contract terms, specific rights to the contractor’s work vest with
the Federal Government when a specific type of contract financing payment is made. This action protects
taxpayer funds in the event of contract nonperformance. These rights should not be misconstrued as the rights
of ownership. The NWCF is under no obligation to pay the contractor for amounts greater than the amounts
authorized in the contract until delivery and government acceptance. Due to the probability the contractor will
complete their efforts and deliver satisfactory products, and because the amount of potential future payments are
estimable, the NWCF has recognized a contingent liability for estimated future payments which are conditional
pending delivery and government acceptance.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated
costs incurred to date by contractors and amounts authorized to be paid under progress payments based on
cost provisions within the FAR. Estimated contractor-incurred costs are calculated by dividing the cumulative
unliquidated progress payments based on cost by the contract-authorized progress payment rate. The balance of



128
unliquidated progress payments based on cost is deducted from the estimated total contractor-incurred costs to
determine the contingency amount.


                                          Capital Lease Liability
Not applicable.


                              Note 16. Commitments and Contingencies
A loss contingency is an existing condition, situation, or set of circumstances involving uncertainty as to
possible loss to an entity. The uncertainty will ultimately be resolved when one or more future events occur or
fail to occur. A loss contingency is a liability when a past event or exchange transaction has occurred; a future
outflow or other sacrifice of resources is probable; and the future outflow or sacrifice of resources is measurable.
In addition to loss contingencies, the DON also discloses (1) an estimate of obligations related to cancelled
appropriations for which the reporting entity has a contractual commitment for payment, and (2) amounts for
contractual arrangements that may require future financial obligations. Examples of claims or other contingencies
include: (1) indemnity agreements –reimbursements due to licensees or contractors for losses incurred in support
of federal activities; (2) claims against the federal government that are in process of judicial proceedings; (3) the
unfunded portion of total liabilities to international organizations; and (4) litigation addressing claims for equity
relief or non-monetary judgments whereby claimants are seeking specific actions by the DON.

The DON is a party in various administrative proceedings and legal actions, related to claims for environmental
damage, equal opportunity matters, and contractual bid protests.

The DON has accrued contingent liabilities for legal actions where the Office of General Counsel (OGC)
considers an adverse decision probable and the amount of loss is measurable. In the event of an adverse
judgment against the Government, some of the liabilities may be payable from the U.S. Treasury Judgment Fund.
The DON records Contingent liabilities in Note 15, Other Liabilities.

For FY 2011, the NWCF materiality threshold for reporting litigation, claims, or assessments is $2.6 million. The
DON WCF currently has 4 cases that meet the existing FY 2011 DON WCF threshold. The DON OGC was unable
to express an opinion concerning the likely outcome of 3 of the 4 cases.

Due to the inherent uncertainties of litigation, lawyers generally refrain from expressing judgments as to
outcomes except in those relatively few clear cases. In response to a DoDIG, “DoD Process for Reporting
Contingent Legal Liabilities,” DON developed a methodology to determine an estimate for contingent legal
liabilities. Beginning with 1st Quarter, FY 2007 DON recognized and disclosed an estimate for contingent
legal liabilities. The methodology considers the likelihood of an unfavorable outcome or potential liability and
is provided as an overall assessment of all cases currently pending and not on an individual case basis. The
likelihood of an unfavorable or potential liability was determined by using an average of the data from the
current year-to-date and the preceding four years. The total dollar amount of the cases closed was divided by
the total dollar amount claimed in those closed cases for each of the last four years plus current year, which
were then used to calculate the average. This average is based entirely on historical data and represents the
percentage that has historically been paid on claims for all DON cases. The merits for each individual case have
not been taken into consideration. As a result, estimates cannot be allocated between NWCF and DON GF.
Until sufficient historical data can be collected for the NWCF, the DON GF will disclose the entire amount of the
estimate.



                                                                                                                129
              Note 17. Military Retirement and Other Federal Employment Benefits
                      As of September 30                                                          2011
                                                                           Assumed Interest   (Less: Assets Available to
      (Amounts in thousands)                             Liabilities           Rate (%)              Pay Benefits)          Unfunded Liabilities



      1.	 Pension and Health Actuarial Benefits
           A.	Military Retirement Pensions           $                 -                      $                       - $                          -
           B.	 Military Retirement Health Benefits                     -                                              -                            -
           C.	 Military Medicare-Eligible Retiree
               Benefits                                                -                                              -                            -
           D.	Total Pension and Health Actuarial
               Benefits                              $                 -                      $                       - $                          -

      2.	 Other Actuarial Benefits
          A.	FECA                                    $         739,256                        $                       - $              739,256
          B.	 Voluntary Separation Incentive
              Programs                                               -                                               -                       -
          C.	 DoD Education Benefits Fund                            -                                               -                       -
          D.	Total Other Actuarial Benefits          $         739,256                        $                      - $               739,256

      3.	 Other Federal Employment Benefits          $                 -                      $                      - $                           -
      4.	 Total Military Retirement and Other
          Federal Employment Benefits:               $         739,256                        $                      - $               739,256

                      As of September 30                                                          2010
                                                                           Assumed Interest   (Less: Assets Available to
      (Amounts in thousands)                             Liabilities           Rate (%)              Pay Benefits)          Unfunded Liabilities



      1.	 Pension and Health Actuarial Benefits
           A.	Military Retirement Pensions           $                 -                      $                       - $                          -
           B.	 Military Retirement Health Benefits                     -                                              -                            -
           C.	 Military Medicare-Eligible Retiree
               Benefits                                                -                                              -                            -
           D.	Total Pension and Health Actuarial
               Benefits                              $                 -                      $                       - $                          -

      2.	 Other Actuarial Benefits
          A.	FECA                                    $         770,309                        $                       - $              770,309
          B.	 Voluntary Separation Incentive
              Programs                                               -                                               -                       -
          C.	 DoD Education Benefits Fund                            -                                               -                       -
          D.	Total Other Actuarial Benefits          $         770,309                        $                      - $               770,309

      3.	 Other Federal Employment Benefits          $                 -                      $                      - $                           -
      4.	 Total Military Retirement and Other
          Federal Employment Benefits:               $         770,309                        $                      - $               770,309




130
Actuarial Cost Method Used and Assumptions:
The DON actuarial liability for workers’ compensation benefits is developed by the Department of Labor and
provided to DON at the end of each fiscal year. The liability is distributed between the NWCF and DON GF
based upon the number of civilian employees funded in each entity as reported in the Navy Budget Tracking
System. The liability includes the expected liability for death, disability, medical, and miscellaneous costs for
approved compensation cases. The liability is determined using a method that utilizes historical benefit payment
patterns related to a specific incurred period to predict the ultimate payments related to that period. The
estimated actuarial liability is updated only at the end of each fiscal year.

The assumptions relate to FECA. Consistent with past practice, the projected annual benefit payments are
discounted to the present value using Office of Management and Budget’s economic assumptions for ten year
U.S. Treasury notes and bonds.

The interest rate assumptions utilized when discounting were as follows:

             Discount Rates
             3.535% in Year 1
             4.025% in Year 2 and thereafter

To provide more specificity concerning the effects of inflation on the liability for future workers’ compensation
benefits, wage inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer
price index medical or CPIMs) were applied to the calculation of projected future benefits. The actual rates for
these factors for the charge back year (CBY) 2011 were also used to adjust the methodology’s historical payments
to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

CBY	         COLA	CPIM
2011	        N/A	   N/A
2012	        2.10%	3.07%
2013	        2.53%	3.62%
2014	        1.83%	3.66%
2015	        1.93%	 3.73%
2016	        2.00%	3.73%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. The analysis was
based on four tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the
percentage change in the liability amount to the percentage change in the actual incremental payments, (3) a
comparison of the incremental paid losses per case (a measure of case-severity) in CBY 2011 to the average
pattern observed during the most current three charge back years, and (4) a comparison of the estimated liability
per case in the Discount Rates projection to the average pattern for the projections of the most recent three years.




                                                                                                                131
                      Note 18. Disclosures Related to the Statement of Net Cost
      Intragovernmental Costs and Exchange Revenue
                               As of September 30                         2011                   2010
      (Amounts in thousands)

      1.	 Intragovernmental Costs                              $            6,219,209 $             4,739,000
      2.	 Public Costs                                                     40,021,325              22,719,067
      3.	 Total Costs                                          $           46,240,534 $            27,458,067

      4.	 Intragovernmental Earned Revenue                     $           (25,540,258) $         (23,961,250)
      5.	 Public Earned Revenue                                            (29,174,332)            (6,315,239)
      6.	 Total Earned Revenue                                 $           (54,714,590) $         (30,276,489)

      7.	 Net Cost of Operations                               $            (8,474,056) $          (2,818,422)

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal
Government that are supported by appropriations or other means. The intent of the SNC is to provide gross
and net cost information related to the amount of output or outcome for a given program or organization
administered by a responsible reporting entity. The DoD’s current processes and systems do not capture
and report accumulated cost for major programs based upon the performance measures as required by the
Government Performance and Results Act. The DoD is in the process of reviewing available data and developing
a cost reporting methodology as required by the SFFAS No. 4. Managerial Cost Accounting Concepts and
Standards for the Federal Government, as amended by SFFAS No. 30, Inter-entity Cost Implementation.

Intragovernmental costs and revenue are related to transactions made between two reporting entities within the
Federal Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.
Large balances in the Public costs and revenue lines are a result of the current process in Navy Enterprise
Resource Planning. The process produces inflated gains and offsetting losses on separate financial statement
and note schedule lines, however, the impact on Net Cost is reduced when the gains and losses are combined.
The Navy is currently working to resolve the business process that results in daily postings to the gain and loss
accounts for in-transit inventory.

The NWCF’s financial management systems do not track intragovernmental transactions by customer at the
transactional level. Buyer-side expenses are adjusted to agree with internal seller-side revenues. Expenses are
generally adjusted by reclassifying amounts between federal and nonfederal expenses. Intradepartmental
revenues and expenses are then eliminated.


           Note 19. Disclosures Related to the Statement of Changes in Net Position
The Statement of Changes in Net Position (SCNP) reports the change in net position during the reporting period.
Net position is affected by changes to its two components: Cumulative Results of Operations and Unexpended
Appropriations.




132
            Note 20. Disclosures Related to the Statement of Budgetary Resources
                             As of September 30                                       2011                    2010
    (Amounts in thousands)

    1. Net Amount of Budgetary Resources Obligated for
        Undelivered Orders at the End of the Period”                       $            8,931,466 $             8,331,652
    2. Available Borrowing and Contract Authority at the End of
        the Period                                                                                -                     -

Obligations Incurred – Direct 	                 Category A 	                           $0.0 billion
Obligations Incurred – Reimbursable 	           Category B 	                           $28.9 billion
Obligations Incurred – Reimbursable 	           Exempt from Apportionment	             $0.0 billion

The SBR includes intraentity transactions because the statements are presented as combined.


                   Note 21. Reconciliation of Net Cost of Operations to Budget
                                  As of September 30                                          2011              2010
    (Amounts in thousands)

    Resources Used to Finance Activities:
         Budgetary Resources Obligated:
            1.	 Obligations incurred                                             $           28,878,521 $      26,786,142
            2.	 Less: Spending authority from offsetting collections and
                recoveries (-)                                                               (30,241,496)     (27,525,776)
            3.	 Obligations net of offsetting collections and recoveries                      (1,362,975)        (739,634)
            4.	 Less: Offsetting receipts (-)                                                          -                -
            5.	 Net obligations                                                               (1,362,975)        (739,634)
         Other Resources:
            6.	 Donations and forfeitures of property                                                  -                -
            7.	 Transfers in/out without reimbursement (+/-)                                     (85,696)         (62,137)
            8.	 Imputed financing from costs absorbed by others                                  578,014          591,919
            9.	 Other (+/-)                                                                   (1,739,162)      (1,129,715)
            10.	Net other resources used to finance activities                                (1,246,844)        (599,933)
    11.	Total Resources Used to Finance Activities                               $            (2,609,819) $    (1,339,567)

    Resources Used to Finance Items not Part of the Net Cost of Operations:
            12.	Change in budgetary resources obligated for goods, services, and
                benefits ordered but not yet provided:
                    12a.	Undelivered Orders (-)                                   $            (599,813) $       (125,109)
                    12b.	Unfilled Customer Orders                                             1,433,376           221,623
            13.	Resources that fund expenses recognized in prior periods (-)                    (33,015)        (207,938)
            14.	Budgetary offsetting collections and receipts that do not affect
                Net Cost of Operations                                                                 -                -
            15.	Resources that finance the acquisition of assets (-)                          (9,030,214)      (4,826,279)
            16.	Other resources or adjustments to net obligated resources that do
                not affect Net Cost of Operations:
                    16a.	Less: Trust or Special Fund Receipts Related to exchange
                         in the Entity’s Budget (-)                                                   -                 -
                    16b.	Other (+/-)                                                          1,824,857         1,191,852
    17.	Total resources used to finance items not part of the Net Cost of
        Operations                                                                $           (6,404,809) $    (3,745,851)
    18.	Total resources used to finance the Net Cost of Operations                $           (9,014,628) $    (5,085,418)


                                                                                                                             133
                                     As of September 30                                   2011             2010
       (Amounts in thousands)

       Components of the Net Cost of Operations that will not Require or
           Generate Resources in the Current Period:
            Components Requiring or Generating Resources in Future Period:
               19.	Increase in annual leave liability                                 $            - $             -
               20.	Increase in environmental and disposal liability                                -               -
               21.	Upward/Downward reestimates of credit subsidy expense                           -               -
               22.	Increase in exchange revenue receivable from the public (-)                     -               -
               23.	Other (+/-)                                                                     -           3,912
               24.	Total components of Net Cost of Operations that will Require or
                   Generate Resources in future periods                               $            - $         3,912
            Components not Requiring or Generating Resources:
               25.	Depreciation and amortization                                      $     367,940 $       263,064
               26.	Revaluation of assets or liabilities (+/-)                               723,819         277,334
               27.	Other (+/-)
                       27a.	Trust Fund Exchange Revenue                                            -               -
                       27b.	Cost of Goods Sold                                             8,307,478      10,377,119
                       27c.	Operating Material and Supplies Used                                   -               -
                       27d.	Other                                                         (8,858,665)     (8,654,433)
               28.	Total Components of Net Cost of Operations that will not Require
                   or Generate Resources                                              $     540,572 $      2,263,084
       29.	Total components of Net Cost of Operations that will not Require or
           Generate Resources in the Current Period                                   $      540,572 $     2,266,996
       30.	Net Cost of Operations                                                     $   (8,474,056) $   (2,818,422)

The Reconciliation of Net Cost of Operations to Budget is designed to provide information about the total
resources used by an entity, to explain how those resources were used to finance orders for goods and services
not yet delivered, to acquire assets and liabilities, and to fund the entity’s net cost of operations. It is designed to
report the differences and facilitate the reconciliation of accrual based amounts used in the SNC and obligation-
based amounts used in the Statement of Budgetary Resources. The computations and presentation of items
in the Reconciliation of Net Cost of Operations to Budget demonstrate that the budgetary and proprietary
information in an entity’s financial management system agrees.

Due to NWCF financial system limitations, budgetary data do not agree with proprietary expenses and
capitalized assets. The difference between budgetary and proprietary data is a previously identified deficiency.
As a result of these system limitations, resources that finance the acquisition of assets on the reconciliation of
Net Cost of Operations to Budget was adjusted downward by $10.2 billion (absolute amount) at the end of 4th
Quarter, FY 2011 to bring it into balance with the Statement of Net Cost.

The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead of
consolidated due to intra-agency budgetary transactions not being eliminated:

  n	    Obligations Incurred
  n	    Less: Spending Authority from Offsetting Collections and Recoveries
  n	    Obligations Net of Offsetting Collections and Recoveries
  n	    Less: Offsetting Receipts
  n	    Net Obligations
  n	    Undelivered Orders
  n	    Unfilled Customer Orders


134
Other Resources Used to Finance Activities consists of gains and losses associated with: 1) transfers of assets out
of NWCF; and 2) the inventory stratification process.

Other Resources Used to Finance Items not Part of the Net Cost of Operations consists of gains and losses
associated with: 1) transfers of assets out of NWCF; and 2) the inventory stratification process.

Other Components not Requiring or Generating Resources consists of overhead costs distributed to work in
process, as well as costs originally recorded into another expense account that are transferred to one of three
accounts: inventory work in process, internal use software in development, or completed assets.


               Note 22. Disclosures Related to Incidental Custodial Collections
NWCF collected $10.7 million of incidental custodial revenues generated primarily from interest, penalties,
fines and administrative fees. These funds are not available for use by NWCF. At the end of each fiscal year, the
accounts are closed and the balances rendered to the U.S. Treasury.


                                       Note 23. Earmarked Funds
Not applicable.


                                      Note 24. Fiduciary Activities
Not applicable.


                                       Note 25. Other Disclosures
Not applicable.


                                          Note 26. Restatements
Not applicable.




                                                                                                                  135
NWCF Required Supplementary Information

                                      Navy Working Capital Fund
                                 General Property, Plant, and Equipment
                             Real Property Deferred Maintenance and Repair
                                    For Fiscal Year Ended September 30, 2011

The Navy Working Capital Fund real property deferred maintenance and repair information for fiscal year
ended September 30, 2011 is reported with the Department of the Navy General Fund deferred maintenance and
repair. See Department of the Navy General Fund Required Supplementary Information.




136
Appropriations, Funds, and Accounts Included in the Principal Statements

Reporting Entity
Navy Working Capital Fund (NWCF)

Fund/Account Treasury Symbol and Title
	   97X4930.002

Navy Working Capital Fund Activity Group Treasury Symbol and Title
	 97X4930.NA1*	 Depot Maintenance – Shipyardsa
	 97X4930.NA2*	 Depot Maintenance – Aviation
	 97X4930.NA4*	 Depot Maintenance – Other, Marine Corps
	 97X4930.NA3*	 Ordnanceb
	 97X4930.ND*	 Transportation
	 97X4930.NE*	 Base Support
	 97X4930.NH*	 Research and Development
	 97X4930.NC*	 Supply Management
	97X4930.NC2A*	 Supply Management, Marine Corps

Notes
* The “*” represents alpha or numeric characters which identify an activity or reporting segment of the activity
group.

a
 Depot Maintenance, Shipyards became a part of the DON General Fund in FY 2007. The Depot Maintenance,
Shipyards information included in this report represents residual NWCF accounting.

b
 The Ordnance activity group became a part of the DON General Fund in FY 2000. The Ordnance information
included in this report represents residual NWCF accounting for this group.




                                                                                                              137
138
Audit Opinions

Department of the Navy Fiscal Year 2011
Annual Financial Report
140
                                                      Inspector General
                                                     Department of Defense)
                                                       400 Army Navy Drive
                                                   Arlington, Virginia 22202-4704




                                                                                                             November 9, 2011

MEMORANDUM FOR ASSISTANT SECRETARY OF THE NAVY (FINANCIAL MANAGEMENT
                    AND COMPTROLLER)

SUBJECT: Independent Auditor’s Report on the Department of the Navy General Fund FY 2011 and FY 2010
	        Basic Financial Statements (Report No. DODIG-2012-014)

The Chief Financial Officers Act of 1990, as amended, requires the Department of Defense Inspector General to
audit the accompanying Department of the Navy General Fund Consolidated Balance Sheet as of September 30,
2011 and 2010, and the Consolidated Statement of Net Cost, Consolidated Statement of Changes in Net Position,
Combined Statement of Budgetary Resources, and related notes for the fiscal years then ended. The financial
statements are the responsibility of Department of the Navy management. The Department of the Navy is also
responsible for implementing effective internal control and for complying with laws and regulations.

We are unable to express an opinion on the Department of the Navy General Fund FY 2011 and FY 2010 Basic
Financial Statements because of limitations on the scope of our work. Thus, the financial statements may be
unreliable. In addition to our disclaimer of opinion on the financial statements, we are including the required
Report on Internal Control and Compliance With Laws and Regulations (Report). The Report is an integral part
of our disclaimer of opinion on the financial statements and should be considered in assessing the results of our
work.

Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Navy (Financial Management and Comptroller) acknowledged to us that the
Department of the Navy General Fund FY 2011 and FY 2010 Basic Financial Statements would not substantially
conform to accounting principles generally accepted in the United States of America (U.S. GAAP) and that the
Department of the Navy financial management and feeder systems were unable to adequately support material
amounts on the financial statements as of September 30, 2011. Section 1008(d) of the FY 2002 National Defense
Authorization Act limits the Department of Defense Inspector General to performing only those audit procedures
required by generally accepted government auditing standards that are consistent with the representations
made by management. Accordingly, we did not perform auditing procedures required by U.S. Government
Accountability Office, “Government Auditing Standards,” and Office of Management and Budget (OMB) Bulletin
No. 07-04, “Audit Requirements for Federal Financial Statements,” as amended1 to determine whether material
amounts on the financial statements were presented fairly.




1
    OMB Memorandum No. 09-33, Technical Amendments to OMB Bulletin No. 07-04, “Audit Requirements for Federal Financial
    Statements,” September 23, 2009.



                                                                                                                          141
Prior audits have identified, and the Department of the Navy has acknowledged, the longstanding material
internal control weaknesses identified in the Summary of Internal Control. These pervasive material weaknesses
may affect the reliability of certain information contained in the Basic Financial Statements. Therefore, we
are unable to express, and we do not express, an opinion on the Basic Financial Statements. Additionally,
the purpose of the audit was not to express an opinion on Management’s Discussion and Analysis, Required
Supplementary Stewardship Information, Required Supplementary Information, and Other Accompanying
Information, presented with the Basic Financial Statements. Accordingly, we express no opinion on that
information.

Summary of Internal Control
In planning our work, we considered Department of the Navy internal control over financial reporting and
compliance with applicable laws and regulations. We did this to determine our procedures for auditing the
financial statements and to comply with OMB guidance, but our purpose was not to express an opinion on
internal control.

Accordingly, we do not express an opinion on internal control over financial reporting and compliance with
applicable laws and regulations. However, previously identified significant deficiencies, all of which are material,
continued to exist in the following areas:

          n	 Financial Management Systems

          n	 Fund Balance with Treasury

          n	 Accounts Receivable

          n	 Other Assets

          n	 Inventory and Related Property, Net

          n	 General Property, Plant, and Equipment

          n	 Accounts Payable

          n	 Statement of Net Cost

          n	 Problem Disbursements

          n	 Unobligated Balances

A material weakness is a deficiency, or a combination of deficiencies, in internal control such that there is a
reasonable possibility that a material misstatement of the entity’s financial statements will not be prevented, or
detected and corrected on a timely basis.

Internal control work that we conducted as part of our prior audits would not necessarily disclose all significant
deficiencies. The Attachment offers additional details on significant deficiencies, all of which we consider to be
material internal control weaknesses.




142
The Assistant Secretary of the Navy (Financial Management and Comptroller) acknowledged the 10 material
weaknesses identified above in the FY 2011 engagement letter. The Department of the Navy stated these
weaknesses were included within one or all of the segment weaknesses reported in the FY 2011 Statement of
Assurance; however, we did not verify this statement. We will continue to monitor and report these material
weaknesses until the Department of the Navy provides evidence that each respective item has been corrected.

Summary of Compliance With Laws and Regulations
We limited our work to determining compliance with selected provisions of applicable laws and regulations
related to financial reporting because management acknowledged that instances of noncompliance identified in
prior audits continued to exist. The Assistant Secretary of the Navy (Financial Management and Comptroller)
acknowledged to us that Department of the Navy financial management systems do not substantially comply
with Federal financial management system requirements, U.S. GAAP, and the U.S. Government Standard
General Ledger at the transaction level. Therefore, we did not determine whether the Department of the Navy
complied with all applicable laws and regulations related to financial reporting. Providing an opinion on
compliance with certain provisions of laws and regulations was not an objective of our audit, and accordingly,
we do not express such an opinion. See the Attachment for additional details on compliance with laws and
regulations.

Management’s Responsibilities
Management is responsible for:

         n	 preparing the financial statements in conformity with U.S. GAAP;

         n	 establishing, maintaining, and assessing internal control to provide reasonable assurance that the
            broad control objectives of the Federal Managers’ Financial Integrity Act are met; and

         n	 complying with applicable laws and regulations.

We provided a draft of this report to the Assistant Secretary of the Navy (Financial Management and
Comptroller), who provided technical comments that we have incorporated as appropriate. The Department of
the Navy officials expressed their continuing commitment to addressing the problems this report outlines.




                                            Amy J. Frontz, CPA
                                            Principal Assistant Inspector General
                                            for Auditing


Attachment: As stated
Attachment




                                                                                                            143
                          Report on Internal Control and
                       Compliance With Laws and Regulations

Internal Control
Management is responsible for implementing and maintaining effective internal control and for providing
reasonable assurance that accounting data are accumulated, recorded, and reported properly; that
the requirements of applicable laws and regulations are met; and that assets are safeguarded against
misappropriation and abuse. Our purpose was not to, and we do not, express an opinion on internal control over
financial reporting. However, we have identified the following material weaknesses, which could adversely affect
the Department of the Navy financial management operations.

Previously Identified Material Weaknesses
Management acknowledged that previously identified significant deficiencies, all of which are material,
continued to exist in the following areas.

Financial Management Systems
Department of the Navy legacy financial management systems and feeder systems do not comply with Federal
financial management system requirements, U.S. GAAP, and U.S. Government Standard General Ledger.

Fund Balance With Treasury
Deficiencies associated with Fund Balance with Treasury include unmatched disbursements, collections,
and abnormal balances and the inability to reconcile Department of the Navy General Fund records with the
Department of the Treasury records and the Statement of Budgetary Resources.

Accounts Receivable
There are two deficiencies associated with the Accounts Receivable line: the audit trails are inadequate and the
accounts receivable sub-ledgers do not reconcile with the general ledger.

Other Assets
The Department of the Navy acknowledged deficiencies with the procure to pay and disbursements process
segments.

Inventory and Related Property, Net
Legacy systems do not maintain the historical cost data necessary to comply with Statement of Federal Financial
Accounting Standards No. 3, “Accounting for Inventory and Related Property.” In addition, completeness issues
exist because the legacy systems were not designed to provide the value of Operating Materials and Supplies
using the moving average cost method and to ensure that all of the items are included in the values reported
on the Balance Sheet. Some Department of the Navy commands have not used the consumption method for
expensing Operating Materials and Supplies.

General Property, Plant, and Equipment
Completeness issues may exist with recognizing internal use software and leasehold improvements. The
Department of the Navy is currently working with the Under Secretary of Defense (Acquisition, Technology,
and Logistics) and the Navy major commands to fully implement Statement of Federal Financial Accounting
Standards No. 23, “Eliminating the Category National Defense Property, Plant, and Equipment.” In addition, the
Department of the Navy is working with the Under Secretary of Defense (Comptroller)/Chief Financial Officer,
DoD, to ensure that documentation for real property is available, beginning with FY 1999; an imputed cost policy

144
is properly implemented; and Form DD 1354, “Transfer and Acceptance of Military Property,” is properly used
throughout the Department of the Navy.

Accounts Payable
The Department of the Navy intragovernmental accounts payable transactions, such as military standard
requisitioning and issue procedures, fuel payables, and non-PowerTrack transportation, are not being recorded
promptly, completely, or accurately. In addition, some existing Department of the Navy procedures create
abnormal balances.

Statement of Net Cost
The Statement of Federal Financial Accounting Standards No. 4, “Managerial Cost Accounting Concepts and
Standards for the Federal Government,” requires agencies to provide reliable and timely information on the full
cost of Federal programs, activities, and outputs. Currently, the Department of the Navy derives from budgetary
accounts, and not on an accrual basis, the Intragovernmental Gross Costs and the Gross Costs with the Public, as
well as Intragovernmental Earned Revenue and Earned Revenue From the Public.

Problem Disbursements
Inaccurate or missing accounting data have resulted in unmatched disbursements and collections and an
inability to reconcile the Department of the Navy General Fund records with the Department of the Treasury
records.

Unobligated Balances
Deficiencies exist in recorded unobligated amounts because financial systems are not fully integrated, and
not all commands sufficiently review unliquidated obligations. Additionally, reimbursable transactions are
not properly documented or reported on the Disbursing Officer Statement of Accountability. These financial
management deficiencies may cause inaccurate management information. As a result, the Department of the
Navy management decisions based in whole or in part on this information may be adversely affected. Financial
information reported by DoD may also contain misstatements resulting from these deficiencies.

Compliance With Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to financial reporting. We
limited our work to determining compliance with selected provisions of the applicable laws and regulations
because management acknowledged instances of noncompliance, and previously reported instances of
noncompliance continued to exist. Therefore, we did not determine whether the Department of the Navy
complied with selected provisions of all applicable laws and regulations related to financial reporting. Our
objective was not to, and we do not, express an opinion on overall compliance with applicable laws and
regulations.

Federal Financial Management Improvement Act of 1996
The Federal Financial Management Improvement Act of 1996 (FFMIA) requires DoD to establish and
maintain financial management systems that comply substantially with Federal financial management system
requirements, applicable Federal accounting standards, and the U.S. Government Standard General Ledger at the
transaction level. For FY 2011, the Department of the Navy did not fully comply with FFMIA. The Department of
the Navy acknowledged that many of its critical financial management and feeder systems did not substantially
comply with Federal financial management system requirements, Federal accounting standards, and the U.S.
Government Standard General Ledger at the transaction level as of September 30, 2011.




                                                                                                             145
Antideficiency Act
Section 1341, title 31, United States Code (31 U.S.C. § 1341[1990]) limits the Department of the Navy and its
agents to making or authorizing only expenditures or obligations that do not exceed the available appropriations
or funds. Additionally, the Department of the Navy or its agents may not contract or obligate for the payment of
money before an appropriation is made available for that contract or obligation unless otherwise authorized by
law. The Department of the Navy management representations disclosed three violations of the Antideficiency
Act. The Department of the Navy did not comply with 31 U.S.C. § 1341 (1990).

Audit Disclosures
The Assistant Secretary of the Navy (Financial Management and Comptroller) acknowledged to us on April 21,
2011, that the Department of the Navy financial management and feeder systems could not provide adequate
evidence supporting various material amounts on the financial statements and that previously identified material
weaknesses continued to exist. Therefore, we did not perform detailed testing related to previously identified
material weaknesses. In addition, we did not perform audit work related to the following selected provisions of
laws and regulations: the Government Performance and Results Act, the Antideficiency Act, the Prompt Payment
Act, the Improper Payments Information Act, the Federal Credit Reform Act of 1990, the Pay and Allowance
System for Civilian Employees, and the Provisions Governing Claims of the United States Government.

This report does not include recommendations to correct the material internal control weaknesses and instances
of noncompliance with laws and regulations because previous audit reports contained recommendations for
corrective actions or because audit projects currently in progress will include appropriate recommendations.




146
                                                      Inspector General
                                                     Department of Defense)
                                                       400 Army Navy Drive
                                                   Arlington, Virginia 22202-4704




                                                                                                             November 9, 2011

MEMORANDUM FOR ASSISTANT SECRETARY OF THE NAVY (FINANCIAL MANAGEMENT
                    AND COMPTROLLER

SUBJECT: Independent Auditor’s Report on the Department of the Navy Working Capital Fund FY 2011 and
         FY 2010 Basic Financial Statements (Report No. DODIG-2012-015)

The Chief Financial Officers Act of 1990, as amended, requires the Department of Defense Inspector General
to audit the accompanying Department of the Navy Working Capital Fund Consolidated Balance Sheet as of
September 30, 2011 and 2010, and the Consolidated Statement of Net Cost, Consolidated Statement of Changes in
Net Position, Combined Statement of Budgetary Resources, and related notes for the fiscal years then ended. The
financial statements are the responsibility of Department of the Navy management. The Department of the Navy
is also responsible for implementing effective internal control and for complying with laws and regulations.

We are unable to express an opinion on the Department of the Navy Working Capital Fund FY 2011 and FY 2010
Basic Financial Statements because of limitations on the scope of our work. Thus, the financial statements may
be unreliable. In addition to our disclaimer of opinion on the financial statements, we are including the required
Report on Internal Control and Compliance With Laws and Regulations (Report). The Report is an integral part
of our disclaimer of opinion on the financial statements and should be considered in assessing the results of our
work.

Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Navy (Financial Management and Comptroller) acknowledged to us that the
Department of the Navy Working Capital Fund FY 2011 and FY 2010 Basic Financial Statements would not
substantially conform to accounting principles generally accepted in the United States of America (U.S. GAAP)
and that the Department of the Navy financial management and feeder systems were unable to adequately
support material amounts on the financial statements as of September 30, 2011. Section 1008(d) of the FY 2002
National Defense Authorization Act limits the Department of Defense Inspector General to performing only those
audit procedures required by generally accepted government auditing standards that are consistent with the
representations made by management. Accordingly, we did not perform auditing procedures required by U.S.
Government Accountability Office, “Government Auditing Standards,” and Office of Management and Budget
(OMB) Bulletin No. 07-04, “Audit Requirements for Federal Financial Statements,” as amended1 to determine
whether material amounts on the financial statements were presented fairly.




1
    OMB Memorandum No. 09-33, Technical Amendments to OMB Bulletin No. 07-04, “Audit Requirements for Federal Financial
    Statements,” September 23, 2009.



                                                                                                                          147
Prior audits have identified, and the Department of the Navy has acknowledged, the long-standing material
internal control weaknesses identified in the Summary of Internal Control. These pervasive material weaknesses
may affect the reliability of certain information contained in the Basic Financial Statements. Therefore, we
are unable to express, and we do not express, an opinion on the Basic Financial Statements. Additionally,
the purpose of the audit was not to express an opinion on Management’s Discussion and Analysis, Required
Supplementary Information, and Other Accompanying Information, presented with the Basic Financial
Statements. Accordingly, we express no opinion on that information.

Summary of Internal Control
In planning our work, we considered Department of the Navy internal control over financial reporting and
compliance with applicable laws and regulations. We did this to determine our procedures for auditing the
financial statements and to comply with OMB guidance, but our purpose was not to express an opinion on
internal control.

Accordingly, we do not express an opinion on internal control over financial reporting and compliance with
applicable laws and regulations. However, previously identified significant deficiencies, all of which are material,
continued to exist in the following areas:

          n	 Financial Management Systems

          n	 Fund Balance with Treasury

          n	 Accounts Receivable

          n	 Inventory and Related Property, Net

          n	 General Property, Plant, and Equipment

          n	 Accounts Payable

          n	 Other Liabilities

          n	 Statement of Budgetary Resources

          n	 Intragovernmental Eliminations

          n	 Unsupported Accounting Entries

          n	 Operating Materials and Supplies

          n	 Statement of Net Cost

          n	 Reconciliation of Net Cost of Operations to Budget

A material weakness is a deficiency, or a combination of deficiencies, in internal control such that there is a
reasonable possibility that a material misstatement of the entity’s financial statements will not be prevented, or
detected and corrected on a timely basis. Internal control work that we conducted as part of our prior audits
would not necessarily disclose all significant deficiencies.

148
The Attachment offers additional details on significant deficiencies, all of which we consider to be material
internal control weaknesses.

The Assistant Secretary of the Navy (Financial Management and Comptroller) acknowledged the 13 material
weaknesses identified above in the FY 2011 engagement letter. The Department of the Navy stated these
weaknesses were included within one or all of the segment weaknesses reported in the FY 2011 Statement of
Assurance; however, we did not verify this statement. We will continue to monitor and report these material
weaknesses until the Department of the Navy provides evidence that each respective item has been corrected.

Summary of Compliance With Laws and Regulations
We limited our work to determining compliance with selected provisions of applicable laws and regulations
related to financial reporting because management acknowledged that instances of noncompliance identified in
prior audits continued to exist. The Assistant Secretary of the Navy (Financial Management and Comptroller)
acknowledged to us that the Department of the Navy financial management systems do not substantially comply
with Federal financial management systems requirements, U.S. GAAP, and the U.S. Government Standard
General Ledger at the transaction level. Therefore, we did not determine whether the Department of the Navy
complied with all applicable laws and regulations related to financial reporting. Providing an opinion on
compliance with certain provisions of laws and regulations was not an objective of our audit, and accordingly,
we do not express such an opinion. See the Attachment for additional details on compliance with laws and
regulations.

Management’s Responsibilities
Management is responsible for:

          n	 preparing the financial statements in conformity with U.S. GAAP;

          n	 establishing, maintaining, and assessing internal control to provide reasonable assurance that the
             broad control objectives of the Federal Managers’ Financial Integrity Act are met; and

          n	 complying with applicable laws and regulations.

We provided a draft of this report to the Assistant Secretary of the Navy (Financial Management and
Comptroller), who provided technical comments that we have incorporated as appropriate. The Department of
the Navy officials expressed their continuing commitment to addressing the problems this report outlines.




                                              Amy J. Frontz, CPA
                                              Principal Assistant Inspector General
                                              for Auditing


Attachment: As stated
Attachment




                                                                                                                149
                          Report on Internal Control and
                       Compliance With Laws and Regulations

Internal Control
Management is responsible for implementing and maintaining effective internal control and for providing
reasonable assurance that accounting data are accumulated, recorded, and reported properly; that
the requirements of applicable laws and regulations are met; and that assets are safeguarded against
misappropriation and abuse. Our purpose was not to, and we do not, express an opinion on internal control over
financial reporting. However, we have identified the following material weaknesses, which could adversely affect
the Department of the Navy financial management operations.

Previously Identified Material Weaknesses
Management acknowledged that previously identified significant deficiencies, all of which are material,
continued to exist in the following areas.

Financial Management Systems
Department of the Navy financial management systems do not substantially comply with Federal financial
management system requirements. These systems were designed to support reporting requirements for
maintaining accountability over assets and reporting the status of Federal appropriations rather than preparing
financial statements in accordance with U.S. GAAP. These deficiencies in financial management and feeder
systems, as well as inadequate business processes, prevent the Department of the Navy from collecting and
reporting financial and performance information that is accurate, reliable, and timely.

Fund Balance With Treasury
The Department of the Navy Working Capital Fund system interfaces do not exist between the financial
reporting systems, which results in unmatched disbursements and collections.

Accounts Receivable
The Department of the Navy does not reconcile subsidiary records to corresponding general ledger accounts
on a regular basis, resulting in control weaknesses and no audit trail. The Department of the Navy also posts
unmatched collections to accounts receivable using journal vouchers, leaving no audit trail.

Inventory and Related Property, Net
The Department of the Navy Working Capital Fund supply management activities record inventory at the latest
acquisition cost because the Department of the Navy does not have adequate data, processes, and methodologies
to make accurate conversions. To comply with U.S. GAAP, the latest acquisition cost must be converted to an
approximation of historical cost.

General Property, Plant, and Equipment
The Department of the Navy Working Capital Fund cannot establish or support ownership and valuation of
General Equipment because of the lack of supporting documentation, improper interpretation of guidance,
underutilization of the accounting system of record, and system limitations. In addition, the Department of the
Navy cannot substantiate that the asset records represent all General Equipment assets, including all ancillary
costs to the asset, or assign a correct useful life. Further, the Department of the Navy cannot reconcile its property
accountability system with its financial systems, causing its presentation and disclosure of assets to be inaccurate.




150
Accounts Payable
The Accounts Payable line item is adversely affected by insufficient or inconsistent reconciliations and supporting
documentation; undistributed disbursements; the inability to capture trading partner information; and the lack
of direct system interfaces, which causes matching difficulties. Unmatched disbursements are transferred to
accounts payable using journal vouchers, leaving no audit trail and often causing abnormal balances.

Other Liabilities
The Department of the Navy needs to resolve unsupported, undistributed disbursements.

Statement of Budgetary Resources
Multiple deficiencies exist within the Statement of Budgetary Resources. Defense Finance and Accounting Service
Cleveland staff posts adjustments to this statement based on proprietary data. The Department of the Navy
needs to ensure that beginning balances are verified, reconciliation processes are established, and performance
reviews are completed. The Department of the Navy needs to identify and correct all disconnects between
budgetary and proprietary data.

Intragovernmental Eliminations
The Department of the Navy systems do not track intragovernmental transactions by customer or provider.
Therefore, the Department of the Navy is unable to fully reconcile intragovernmental transactions with all
Federal partners.

Unsupported Accounting Entries
The Department of the Navy financial feeder systems and accounting systems do not provide sufficient detail to
identify Federal and non-Federal or supported and unsupported transactions.

Operating Materials and Supplies
The Department of the Navy generally does not include Government Furnished Material in the Operating
Materials and Supplies amounts reported.

Statement of Net Cost
The current Department of the Navy processes and systems do not capture and report accumulated costs for
major programs based upon performance measures as required by the Government Performance and Results Act.
The Department of the Navy is in the process of reviewing the available data and developing a cost reporting
methodology.

Reconciliation of Net Cost of Operations of Budget
Department of the Navy budgetary data are not in agreement with proprietary expenses and assets capitalized
because of the Department of the Navy financial system limitations. The difference between budgetary and
proprietary data has been previously identified as a system deficiency.

These financial management deficiencies may cause inaccurate management information. As a result, the
Department of the Navy management decisions based in whole or in part on this information may be adversely
affected. Financial information reported by DoD may also contain misstatements resulting from these
deficiencies.

Compliance With Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to financial reporting. We
limited our work to determining compliance with selected provisions of the applicable laws and regulations
because management acknowledged instances of noncompliance, and previously reported instances of
                                                                                                              151
noncompliance continued to exist. Therefore, we did not determine whether the Department of the Navy
complied with selected provisions of all applicable laws and regulations related to financial reporting. Our
objective was not to, and we do not, express an opinion on overall compliance with applicable laws and
regulations.

Federal Financial Management Improvement Act of 1996
The Federal Financial Management Improvement Act of 1996 (FFMIA) requires DoD to establish and
maintain financial management systems that comply substantially with Federal financial management system
requirements, applicable Federal accounting standards, and the U.S. Government Standard General Ledger
at the transaction level. For FY 2011, the Department of the Navy did not fully comply with FFMIA. The
Assistant Secretary of the Navy (Financial Management and Comptroller) acknowledged that many of its critical
financial management and feeder systems did not substantially comply with Federal financial management
system requirements, Federal accounting standards, and the U.S. Government Standard General Ledger at the
transaction level as of September 30, 2011.

Audit Disclosures
The Assistant Secretary of the Navy (Financial Management and Comptroller) acknowledged to us on April 21,
2011, that the Department of the Navy financial management and feeder systems could not provide adequate
evidence supporting various material amounts on the financial statements and that previously identified material
weaknesses continued to exist. Therefore, we did not perform detailed testing related to previously identified
material weaknesses. In addition, we did not perform audit work related to the following selected provisions of
laws and regulations: the Government Performance and Results Act, the Antideficiency Act, the Prompt Payment
Act, the Improper Payments Information Act, the Federal Credit Reform Act of 1990, the Pay and Allowance
System for Civilian Employees, and the Provisions Governing Claims of the United States Government.

This report does not include recommendations to correct the material internal control weaknesses and instances
of noncompliance with laws and regulations because previous audit reports contained recommendations for
corrective actions or because audit projects currently in progress will include appropriate recommendations.




152
                               A
                                                 B




                                       C



Cover Credits
A	   Surveying aircraft movement from the flight deck camera position aboard
     the aircraft carrier USS Harry S. Truman (CVN 75). (U.S. Navy photo by
     Mass Communication Specialist 2nd Class Kilho Park/Released)
B	   Explosive ordnance technicians assigned to Explosive Ordnance Disposal
     Mobile Unit (EODMU) 11 perform a static line water drop from a C-2A
     Greyhound. (U.S. Navy photo by Mass Communication Specialist 2nd Class
     David A. Brandenburg/Released)
C	   The Arleigh Burke-class destroyer USS Cole (DDG 67) is back in the
     water. Cole was relaunched at Northrop Grumman Ship Systems Ingalls
     Operations in Pascagoula, Miss., after repairs on her hull were completed.
     U.S. Navy Photo (Released)

Page 1 Credit
	    Students assigned to Basic Underwater Demolition/SEAL (BUD/S) class 286
     participate in a surf passage training exercise at Naval Amphibious Base
     Coronado. (U.S. Navy photo by Mass Communication Specialist 2nd Class
     Kyle D. Gahlau/Released)

Section Dividers Credit
	    Sailors prepare to lower the national ensign during evening colors aboard
     the amphibious transport dock ship USS Ponce (LPD 15). (U.S. Navy photo
     by Mass Communication Specialist 1st Class Nathanael Miller/Released)




              Preparation of this report/study cost the
           Department of Defense a total of approximately
                $625,000 in Fiscal Years 2010 - 2011.

                  Generated on 2011Nov08 0929 RefID: 5-1D26D6D
                                 For More Information
               Assistant Secretary of the Navy Financial Management and Comptroller
                                http://www.finance.hq.navy.mil/FMC

                                               Navy
                                       http://www.navy.mil

                                           Marine Corps
                                     http://www.marines.mil

                                              Contact Us
              An electronic copy of this report is available at http://www.fmo.navy.mil
Comments or requests for printed copies of this report may be sent to DON_Financial_Report@navy.mil
